<html>
<title> - EFFECTIVE IMMIGRATION CONTROLS TO DETER TERRORISM</title>
<body><pre>[Senate Hearing 107-]
[From the U.S. Government Printing Office]



 
           EFFECTIVE IMMIGRATION CONTROLS TO DETER TERRORISM
=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2001

                               __________

                          Serial No. J-107-45

                               __________

         Printed for the use of the Committee on the Judiciary




                       U. S. GOVERNMENT PRINTING OFFICE
81-651                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

                      Subcommittee on Immigration

               EDWARD M. KENNEDY, Massachusetts, Chairman
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
CHARLES E. SCHUMER, New York         ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          CHARLES E. GRASSLEY, Iowa
MARIA CANTWELL, Washington           JON KYL, Arizona
JOHN EDWARDS, North Carolina         MIKE DeWINE, Ohio
                 Melody Barnes, Majority Chief Counsel
                Stuart Anderson, Minority Chief Counsel





                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

Brownback, Hon. Sam, a U.S. Senator from the State of Kansas.....     7
Cantwell, Hon. Maria, a U.S. Senator from the State of Washington     9
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........    72
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.    75
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     1

                               WITNESSES

Butterfield, Jeanne A., Executive Director, American Immigration 
  Lawyers Association, Washington, D.C...........................    41
Gutierrez, Lino, Acting Assistant Secretary of State for Western 
  Hemisphere Affairs, Department of State, Washington, D.C.......    19
Norton, Richard E., Executive Director, International Biometric 
  Industry Association, Fairfax, Virginia........................    64
Papademitriou, Demetrios G., Co-Director, Migration Policy 
  Institute, Washington, D.C.....................................    53
Ryan, Mary A., Assistant Secretary of State for Consular Affairs, 
  Department of State, Washington, D.C...........................    11
Ziglar, James W., Commissioner, Immigration and Naturalization 
  Service, Department of Justice, Washington, D.C................    24


           EFFECTIVE IMMIGRATION CONTROLS TO DETER TERRORISM

                              ----------                              


                      WEDNESDAY, OCTOBER 17, 2001

                      United States Senate,
                       Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:36 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, Chairman of the Subcommittee, presiding.
    Present: Senators Kennedy, Cantwell, Brownback, Grassley, 
and DeWine.

  OPENING STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR 
                FROM THE STATE OF MASSACHUSETTS

    Chairman Kennedy. We will come to order. We know that there 
has been some news affecting exposures to anthrax to some of 
the staff in our buildings and that is being dealt with very 
effectively by the Sergeant at Arms and by the health 
professionals that have been assigned to deal with that job. We 
feel strongly, since immigration issues have important 
implications in terms of national security and also to 
terrorism, that it was important that we move ahead.
    We have legislation that Senator Brownback and I have been 
working on which we intend to introduce shortly. We have been 
getting some good suggestions and recommendations from the 
administration and from other groups. But we are very strongly 
committed to moving in this area. There are many aspects we 
must address. There are our combat troops, there is money 
laundering, and also the development of effective bioterrorist 
abilities. We are dealing as well with the challenges of 
immigration as well as the challenges in the intelligence 
community. So all of these make up very important aspects in 
dealing with terrorism. It was our judgment that we ought to 
move ahead with this hearing, and we are very grateful to all 
of our witnesses here this morning.
    It is a privilege to chair this hearing today on the 
critical issue of border security and its critical importance 
in preventing terrorism. And I welcome all our distinguished 
witnesses and commend them for their commitment to this 
important issue. I look forward to hearing from them today and 
working with my colleagues to protect our borders effectively 
and fairly.
    Strengthening the security of our borders is an 
indispensable part of this Nation's effort to prevent future 
terrorist attacks. We must develop policies and enact laws that 
meet the serious security threats we face from abroad, and we 
must do so without obstructing the entry of the more than 31 
million foreign nationals who legally enter the United States 
each year.
    Clearly, the screening of foreign nationals who seek entry 
into the United States must be improved. To do so, we must make 
better use of intelligence information to identify high-risk 
individuals who are potential terrorists and make sure that the 
information is in the hands of the proper authorities in time 
to act.
    Accurate and timely intelligence is critical. Federal 
intelligence and law enforcement agencies maintain lookout 
lists containing the names of foreign nationals who pose a 
threat to our safety and security. To keep these persons out of 
the United States, intelligence agencies and law enforcement 
agencies must be able to share and update this critical 
information with the Department of State and the Immigration 
and Naturalization Service as quickly as possible.
    The Office of Homeland Security should coordinate the 
implementation of a comprehensive data-sharing system to 
provide these front-line agencies with the critical information 
that they need.
    Weaknesses exist in the lookout system. Potential 
terrorists often use aliases and obtain false or stolen 
identification. Biometric identification technology can be used 
to improve the reliability of the lookout lists and enhance 
border security. Their use should be significantly expanded, 
for inclusion in passports, visas, and other travel papers.
    Biometric technology should also be used to screen incoming 
travelers. Automated systems, such as INSPASS, should be 
expanded where practical to screen low-risk travelers.
    The United States, Canada, and Mexico can clearly do more 
to coordinate border efforts against terrorists. Efforts to 
share lookout lists, develop and improve joint inspection 
regimes and facilities, and train intelligence and other 
enforcement personnel should be expanded.
    Yesterday, Senator Brownback and I met with our two 
Ambassadors from Canada and Mexico who made good 
recommendations, and today earlier we met with the Deputy Prime 
Minister of Canada, who also had useful suggestions.
    In addition, we should work more closely with our European 
allies and other countries to develop agreements to share 
intelligence databases and collect information on persons who 
have engaged in terrorist activity or who may be a threat. And 
up until the law which has just passed the Senate, there was a 
prohibition of sharing that information, both for the United 
States and also in gaining that information. We have made 
progress on that in the legislation which is pending action now 
in the conference.
    We should also expand the number of pre-clearance sites 
abroad. Currently, most foreign nationals are inspected by 
immigration officers upon arrival at U.S. ports of entry. Use 
of pre-clearance sites allows more time for thorough 
inspections and can lead to the apprehension of suspected 
terrorists before they arrive in the U.S.
    Many airlines transmit their passenger lists to the 
destination airports, enabling U.S. authorities to investigate 
the list while the planes are en route. Transmittal of these 
lists is currently being used in 75 to 80 percent of all cases, 
but it should be used for all international flights.
    In addition, full implementation of an automated exit/entry 
system will enable the INS to monitor foreign nationals in the 
U.S. more effectively. Implementation of this system has been 
delayed because the INS has lacked the technology to implement 
this measure at all ports of entry, especially at the land 
borders.
    I know Mr. Ziglar has made this case appearing before other 
Committees about the importance of getting the resources. We 
support those requests, and they should be given a high 
priority.
    Federal funding is also needed to implement and effectively 
operate the electronic foreign student tracking system enacted 
in 1996.
    A related issue is the large number of U.S. educational 
institutions authorized to enroll foreign students. Periodic 
review is needed to ensure that these institutions are 
professional and competent. That hasn't been done in the past. 
It will be done in the future.
    The implementation of all these tracking systems will 
enable the INS to determine whether foreign nationals have 
complied with the terms of their visas and help to enhance our 
security and safety by identifying possible threats. We can 
protect our Nation's security, without undermining our history 
and heritage as a Nation of immigrants.
    [The prepared statement and an attachment of Senator 
Kennedy follow.]

 Statement of Hon. Edward M. Kennedy, a U.S. Senator from the State of 
                             Massachusetts

    It's a privilege to chair this hearing today on the critical issue 
of border security and its critical importance in preventing terrorism. 
I welcome all our distinguished witnesses and I commend them for their 
commitment to this important issue. I look forward to hearing from them 
today and to working with my colleagues to protect our borders 
effectively and fairly.
    Strengthening the security of our borders is an indispensable part 
of the nation's effort to prevent future terrorist attacks. We must 
develop policies and enact laws that meet the serious security threats 
we face from abroad, and we must do so without obstructing the entry of 
the more than 31 million foreign nationals who legally enter the United 
States each year.
    Clearly, the screening of foreign nationals who seek entry into the 
U.S. must be improved. To do so, we must make better use of 
intelligence information to identify high risk individuals who are 
potential terrorists, and make sure that the information is in the 
hands of the proper authorities in time to act.
    Accurate and timely intelligence is critical. Federal intelligence 
and law enforcement agencies maintain ``lookout lists'' containing the 
names of foreign nationals who pose a threat to our safety and 
security. To keep these persons out of the United States, intelligence 
agencies and law enforcement agencies must be able to share and update 
this critical information with the Department of State and the 
Immigration and Naturalization Service as quickly as possible.
    The Office of Homeland Security should coordinate the 
implementation of a comprehensive data sharing system to provide these 
front line agencies with the critical information they need.
    Weaknesses exist in the lookout systems. Potential terrorists often 
use aliases and obtain false or stolen identification. Biometric 
identification technology can be used to improve the reliability of the 
lookout lists and enhance border security. Their use should be 
significantly expanded, for inclusion in passports, visas and other 
travel papers.
    Biometric technology should also be used to screen incoming 
travelers. Automated systems, such as INPASS, should be expanded where 
practicable to screen low-risk travelers.
    The United States, Canada, and Mexico can clearly do more to 
coordinate border efforts against terrorists. Efforts to share lookout 
lists, develop and improve joint inspection regimes and facilities, and 
train intelligence and other enforcement personnel should be expanded.
    In addition, we should work more closely with our European allies 
and other countries to develop agreements to share intelligence 
databases and collect information on persons who have engaged in 
terrorist activity or who may be a threat.
    We should also expand the number of pre-clearance sites abroad. 
Currently, most foreign nationals are inspected by immigration officers 
upon arrival at U.S. ports of entry. Use of pre-clearance sites allows 
more time for thorough inspections, and can lead to the apprehension of 
suspected terrorists before they arrive in the U. S.
    Many airlines transmit their passenger lists to the destination 
airports, enabling U.S. authorities to investigate the list while the 
planes are en route. Transmittal of these lists is currently being used 
in 75-80% of all cases, but it should be used for all international 
flights.
    In addition, full implementation of an automated exit/entry system 
will enable the INS to monitor foreign nationals in the U.S. more 
effectively. Implementation of this system has been delayed because the 
INS has lacked the technology to implement this measure at all ports of 
entry, especially at the land borders.
    Federal funding is also needed to implement and effectively operate 
the electronic foreign student tracking system enacted in 1996.
    A related issue is the large number of U.S. educational 
institutions authorized to enroll foreign students. Periodic review is 
needed to ensure that these institutions are professional and 
competent.
    The implementation of all of these tracking systems will enable the 
INS to determine whether foreign nationals have complied with the terms 
of their visas, and help to enhance our safety and security by 
identifying possible threats. We can protect our nation's security, 
without undermining our history and heritage as a nation of immigrants.
    Again I thank the witnesses for being here, and I look forward to 
their testimony.

                                <F-dash>

           Effective Immigration Controls to Deter Terrorism
                            october 17, 2001
    The terrorist attacks on September 11 made clear that the United 
States current intelligence and terrorism prevention net leaves us 
vulnerable to serious security dangers. Strengthening immigration laws 
should be an indispensable part of the nation's efforts to prevent 
future terrorist attacks. Effective immigration and border controls can 
have a significant impact on our national security.
    This week, Senator Edward M. Kennedy, joined by Senator Sam 
Brownback (R-KS), is introducing legislation that will institute new 
procedures and dedicate new resources to increase the likelihood that 
potential terrorists can be detected and apprehended before they act. 
This legislation will significantly improve the screening of foreign 
nationals seeking entry into the U.S. and better secure the nation's 
borders. By making better use of intelligence information to identify 
high risk individuals who seek to harm us, and ensuring that timely 
information is in the hands of the proper authorities, this legislation 
will help the nation meet the serious security threats we face from 
abroad, without obstructing the free flow of goods across our borders 
or the entry of the more than 31 million foreign nationals who legally 
enter the U.S. each year as visitors, students, and temporary workers.
    This legislation will increase the development and implementation 
of effective immigration controls to deter terrorism.
               intelligence. technology, and cooperation
Accurate and Timely Intelligence Is Critical
    Federal intelligence and law enforcement agencies maintain 
``lookout lists'' containing the names of foreign nationals who should 
not be admitted to the U.S. These are individuals who have criminal 
records, who have been denied visas or previously deported, who are 
suspected terrorists, or who require serious scrutiny for other 
reasons. To successfully prevent the admission of these persons into 
the U.S., all intelligence agencies and law enforcement agencies, 
including the CIA, DIA, NSA, and FBI, must share this critical 
information with the Department of State and the Immigration and 
Naturalization Service in a timely manner.
    Currently, some of this information is not shared with these two 
agencies, which are responsible for making determinations about who is 
granted a visa or is admitted to the U.S. Legislation is now pending 
which will provide the Department of State and INS with electronic 
access to the FBI's criminal history databases. The Department of State 
and the INS should also have electronic access to all lookout lists 
maintained by the CIA, DIA, NSA and FBI. The new Office of Homeland 
Security should coordinate the implementation of a comprehensive data 
sharing system to provide these front line agencies with the critical 
information they need Senator Kennedy's legislation will require the 
prompt development and implementation of a plan to provide the State 
Department and the INS with timely electronic access to all lookout 
lists maintained by the CIA, DIA, NSA and FBI.
Biometric Technology Can Improve Security
    Weaknesses exist in the lookout systems in terms of identifying 
terrorists seeking visas. Potential terrorists often use aliases and 
obtain false or stolen identification. Biometric identification 
technology can improve the reliability of the lookout lists and enhance 
border security. The most common biometric data include fingerprint and 
hand imaging, iris and retina scans, and facial recognition. These data 
cannot be borrowed, or stolen, and forging them is extremely difficult. 
These new technologies can match a unique identifying characteristic of 
an individual with a name, and they need to be used effectively.
    Machine-readable passports and visas are becoming more prevalent 
and more difficult to counterfeit. Biometric data are currently being 
incorporated into some immigration documents, and their use should be 
significantly expanded, for inclusion in passports, visas and other 
travel documents. With such technology, a traveler's identity can be 
quickly and definitively verified by matching the identity with 
biometric data incorporated in their documents.
    Biometric technology should also be used to screen incoming 
travelers. Systems, such as INPASS, which use biometric imaging, have 
proven successful in screening frequent low-risk travelers. Such 
systems should be expanded where practicable, since they enable more 
resources to be allocated to anti-terrorist and security activities.
    This legislation will authorize funding to study, develop and 
implement the use of biometric identifiers in passports, visas and 
other immigration documents, and the use of biometric technologies to 
screen incoming travelers to the U.S.
A North American System
    The U.S., Canada, and Mexico can clearly do more to coordinate 
border efforts against terrorists. Cooperation between our countries 
can be strengthened, taking into account each other's security 
concerns, while still facilitating the movement of goods and persons. 
Efforts to share lookout lists, develop and improve joint inspection 
regimes and facilities, and train intelligence and other enforcement 
personnel should be expanded.
    Criminal smuggling rings, with knowledge of the weaknesses in our 
border security, have developed into multi-billion-dollar-a-year 
operations, and potential terrorists could use these smuggling 
operations to cross the border. Detecting and shutting down smuggling 
operations requires close cross-border cooperation, and these border 
security efforts must be strengthened.
    In addition, we should work more closely with our European allies 
and other countries, to develop reciprocal agreements to share 
intelligence databases and collect information on persons who may be a 
potential threat or who have engaged in terrorist activity.
    This legislation authorizes the Department of State and INS, in 
conjunction with the Office of Homeland Security, to study the costs, 
procedures and implementation of a Perimeter National Security Program 
for the U.S., Canada, and Mexico. It will also authorize a substantial 
increase in staffing and resources for the INS and Department of State 
to enhance security along the nation's borders.
          screening individuals before they arrive in the u.s.
Consular Offices: The First Line of Defense
    Most foreign nationals traveling to the United States must apply 
for visas from U.S. consulates abroad. Consular officers, who tend to 
be junior personnel with little job experience, interview applicants to 
determine whether they are eligible for visas. Until now, consular 
screening has focused primarily on detecting visa overstayers, 
examining indicators such as bank accounts, which have no bearing on 
whether the applicant is a security risk. Although this focus is 
important, more emphasis is needed on issues of security. We should 
build a corps of knowledgeable and experienced consular officers, 
skilled in screening for security threats.
    This legislation will require the Department of State to provide 
specialized training for consular officers in the effective screening 
of visa applicants who pose a potential threat to the U.S.
Immigration Checks at Airports Abroad:
    Foreign nationals are generally inspected by immigration officers 
upon arrival at U.S. ports of entry. In some high-volume airports 
abroad, U.S. immigration checks are performed at pre-clearance sites at 
the point of departure, where travel documents are inspected before an 
individual boards a U.S.-bound plane. Pre-clearance sites should be 
expanded. They allow more time for thorough inspection. While a U.S. 
inspector has no authority to arrest a suspected terrorist at a pre-
clearance site, the U.S. could cooperate with authorities who do have 
the power to apprehend suspects.
    This legislation will examine the expansion of pre-flight 
inspection sites abroad, including the number, location, cost, 
staffing, and training of personnel.
Sharing Passenger Lists:
    Once travelers have boarded, many airlines voluntarily transmit the 
passenger manifest to the destination airports. Passenger lists are 
investigated while the planes are enroute. Once the planes have landed, 
authorities can intercept passengers who are on the lookout lists. 
Transmittal of airline manifests is currently being used in 75-80% of 
all cases, but it should be used for all international flights. The 
State Department should also transmit electronic versions of its visa 
files to inspectors, so they are available at the time of inspection.
    This legislation will require all international commercial air 
carriers to provide passenger manifest information in advance of 
arrival.
                monitoring foreign nationals in the u.s.
Automated Exit/Entry System
    Upon arriving in the U.S., non-citizens, including permanent 
residents and temporary foreign visitors, workers, and students, 
complete a form, called the I-94 form, which they are supposed to 
return when they leave the country. Upon departure, travelers are 
required to return the I-94 forms to airline representatives, who are 
supposed to turn them over to the INS. Compliance is inconsistent, as 
not all carriers return the I-94 forms to the INS.
    Persons leaving the country at land borders are also supposed to 
turn in I-94 forms, but many do not. These forms are currently 
completed by hand, and cannot be used to track the departure of 
specific persons until entered into a computer.
    In 1996, Congress enacted legislation mandating the development of 
an automated entry/exit control system to record the entry of every 
non-citizen arriving in the U.S. and match it with a record of 
departure. The INS lacked the technology to implement this needed 
measure at all ports of entry, especially at the land borders, without 
serious disruptions. Last year, Congress enacted legislation to 
establish reasonable implementation deadlines. The Attorney General is 
required to implement the integrated system by December 31, 2003 at all 
air and sea ports. For the 50 busiest land border ports of entry, the 
system would be implemented by December 31, 2004, and for all other 
land border ports, by December 31, 2005.
    Technology is available to implement electronic entry/exit controls 
at all air and sea ports, but it is costly. Other countries utilize 
electronic controls that could be models for a similar U.S. program. 
For example, Australia has an electronic visa that is incorporated into 
the airline ticket. Implementation should be funded by the federal 
government, and airline compliance should be mandatory.
    Since implementation at land borders is more difficult and has the 
potential of disrupting commerce, additional time and resources will be 
needed to establish effective exit controls at these borders. In the 
meantime, other steps can be taken. The U.S. has experimented with 
commuter lanes that permit officials to pre-screen applicants, and to 
issue more secure documentation and devices for automobiles, to 
expedite crossings without sacrificing security. Such programs should 
be expanded to permit rapid crossings of low-risk commuters and enable 
the INS to concentrate its resources on those who have not been pre-
screened.
    This legislation will authorize funding to implement an automated 
entry/exit system at all ports of entry, using technology standards, 
biometric identifiers, and machine readable documents to confirm and 
record identity. It will also expand the use of existing automated 
systems at land ports of entry to screen low-risk travelers.
    Monitoring Foreign Students. In 1996, Congress established a 
program to collect information on non-immigrant foreign students and 
exchange program participants. The CIPRIS program was designed to apply 
to non-immigrants with F (student), J (exchange visitor), or M 
(vocational) visas. Information collected includes name and current 
address, major field of study, termination date and reason for 
termination, the number of credits completed per year, and any 
disciplinary action taken against the student.
    A pilot phase of this program ended in 1999, but the system has not 
been implemented nationwide. Universities and colleges expressed 
serious concerns about the costs and administrative burdens of the 
tracking program. Some of these concerns were addressed in legislation 
last year, but other problems persist. They include lack of adequate 
funding for State Department consular operations and INS monitoring 
systems; gaps in reporting systems that make it impossible for the INS 
to know when foreign students leave, or when they fail to show up for 
their programs; and inadequate support for university officials 
responsible for ensuring compliance with visa requirements.
    Federal funding is critical to implement and effectively operate 
the this tracking system. The INS has estimated that the cost of 
implementation is approximately $32 million over the next three years. 
Gaps in the tracking program should be closed by requiring the INS to 
notify institutions of a student's entry into the U.S., and requiring 
institutions to report to the INS the non-appearance of any student 
reported and any student who heaves the program.
    A related problem is the large number of U.S. educational 
institutions authorized to issue forms to allow foreign students to 
obtain visas. Currently, more than 26,000 institutions are authorized 
to enroll foreign students. Periodic review is warranted to ensure that 
these institutions are professional and competent. They should certify 
that they agree to comply with the reporting and recordkeeping 
responsibilities or risk losing their authority to enroll foreign 
students.
    This legislation will authorize funding to implement the automated 
student tracking system, expand the types of schools covered by the 
system to into include flight, language, and other vocational schools, 
close gaps in record keeping and reporting requirements, and require a 
review of institutions authorized to enroll foreign students.
An Integrated Approach
    The implementation of an automated entry/exit system and the 
student tracking system will notify authorities whether foreign 
nationals have left the country under the terms of their visas, and 
whether foreign students are properly maintaining their status.
    But, it is important to remember that foreign students represent 
less than two percent of the 30 million temporary visitors admitted 
annually to the U.S. And the vast majority of foreign visitors, 
students and workers who may overstay their visas are not criminals or 
terrorists.
    Focusing INS resources on those who fail to comply with the terms 
of their visas will do little to enhance our national security. Linking 
these tracking systems to lookout systems and law enforcement 
databases, however, will enable the INS and law enforcement agencies to 
screen foreign nationals more closely and identify and apprehend those 
who do present a threat to our national security.
    This legislation will authorize the development of a cross-agency, 
cost-effective electronic system to enable tracking systems to be 
interfaced with intelligence and law enforcement data systems.

    Again, I want to thank our witnesses for being here, and I 
will recognize Senator Brownback for his comments.

STATEMENT OF HON. SAM BROWNBACK, A U.S. SENATOR FROM THE STATE 
                           OF KANSAS

    Senator Brownback. Thank you very much, Mr. Chairman. I 
appreciate that and I appreciate our witnesses, and I think 
this is a most timely and pressing topic in our combating 
terrorism and our protection of our people and our way of life.
    First, let me applaud the efforts of this Congress to react 
promptly to the terrorist threats that face us. In only a 
month's time, our represented officials came together and 
passed an extensive anti-terrorist package, a tough, 
thoughtful, bipartisan piece of legislation, along with a 
number of other pieces of legislation, to allow us, to help us 
to combat this war on terrorism. That will arm our Government 
well in the fight against terrorism.
    I also applaud several of our colleagues, Senators 
Feinstein and Kyl, for their insightful hearing last week on 
technology and terrorism and this Subcommittee for today's 
hearing on effective immigration controls to deter terrorism. 
Personally, I find the commitment and patriotism that echoes 
through these halls to be truly inspirational. United we do 
stand.
    Nonetheless, the terrorist attacks of September 11th have 
unsettled the public's confidence in our Nation's security and 
have raised questions about whether our institutions are up to 
the task of intercepting and thwarting would-be terrorists. 
Given that the persons responsible for the attacks on the World 
Trade Center and the Pentagon came from overseas, our citizens 
understandably ask how these people entered the United States 
and what can be done to prevent their kind from doing so again.
    Clearly, our immigration laws and policies are instrumental 
to the war on terrorism. While the battle may be waged on many 
fronts, for the man and woman on the streets immigration is the 
front line.
    Of course, we must be vigilant not to punish the innocent 
in our efforts to ferret out the criminal, nor should we allow 
our values or out economy to be compromised. But we have a duty 
to the American people to take measured steps to keep 
terrorists from reaching our shores.
    At this stage we must get a clear lay of the land. We must 
assess precisely where our immigration laws and practices are 
succeeding and where they must be improved.
    The war against terrorism is a war won by information. The 
more information we have, the better our chances of winning. 
The more information our defenders can share, the stronger our 
line of defenses. The better grasp we have on our immigration 
procedures and practices, the better we can secure our borders 
and our safety.
    Mr. Chairman, I am hopeful that this hearing will bring to 
light how best to utilize our immigration laws and resources to 
deter terrorism. I look forward to hearing the insights and 
recommendations of our officials from the Immigration and 
Naturalization Service and from the Department of State. I 
welcome the testimony of our learned witnesses from the public 
sector.
    I might add my comments as well to the comments that 
Senator Kennedy put forward about we are working together on a 
bipartisan piece of legislation to try to address specific 
areas where there may be difficulties, where we need to tighten 
up overall on our immigration system. People in this country 
deserve a system that allows people into the country that want 
to be helpful to America, but keeps people from the country who 
want to harm this country. And I think that is all of our goals 
and our objectives. And we have put forward, as Senator Kennedy 
has articulated, several ideas already that we think would be 
useful in pressing this forward to secure our borders in the 
front-line war, and that front line in this war on terrorism 
being the immigration policies and procedures that we practice 
as a country. I look forward to your comments.
    Chairman Kennedy. Thank you very much.
    Senator Cantwell has been very much involved in the 
development of our legislation on immigration policy issues, 
and we welcome her, if she would say a word.

STATEMENT OF HON. MARIA CANTWELL, A U.S. SENATOR FROM THE STATE 
                         OF WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I thank Senator 
Kennedy for holding this hearing on what I consider to be one 
of the most important issues in the fight against terrorism. 
How can we effectively secure our borders from terrorists? By 
improving the quality and sharing of identity information; 
improving the screening of foreign nationals seeking entry on 
U.S. visas; improving the awareness of comings and goings of 
these foreign nationals as they enter and exit our country; and 
increasing the number of Border Patrol and immigration 
personnel at our borders.
    Mr. Chairman, we must strengthen the security at our 
border. Last week, we passed a major anti-terrorism bill that 
contained a number of provisions that will enable law 
enforcement and the community of intelligence gatherers to 
obtain and share vital information regarding persons who are a 
threat to the U.S.
    One of the most important new tools I was pleased to have 
included in this legislation is the requirement that State and 
Justice develop a visa technology standard based on biometrics 
to help secure our border and make certain each individual who 
seeks entry into our country on a visa is the person he or she 
claims to be and that there is no reason to keep that person 
out of the country.
    American citizens and the citizenship that they get comes 
with a deeply valued privilege, and that is the right to 
privacy. But to require a fingerprint or digital photograph of 
an alien seeking to enter our country is a reasonable and 
effective way to improve our ability to keep terrorists out of 
the country while still welcoming a vibrant flow of legal 
aliens.
    Aliens seeking to visit, to go to school, work, engage in 
business will provide the consular office considering that visa 
application with some type of biometrics, most likely 
fingerprint and digital photograph, so that we can compare the 
identity information with that of persons who are unwelcome in 
the United States. With this technology, we will be able to 
confirm the person presenting a visa at the border with the 
information that they need.
    The technology standard is not prescriptive, and I am well 
aware that there are many different types of technologies 
available here and in Canada and in other places. And I have 
left it to the agencies to determine what type of information 
sharing should be required as part of the visa program.
    Let me note that I recognize that technology will be only 
as good as the information system which it is put into, and, 
therefore, facilitating a technology that compels cooperation 
between agencies will be very important. I hope to aid in 
changing the non-technology barriers to data sharing.
    Further, I am willing to work with the chairman and Senator 
Brownback and my other colleagues to assure that uniform 
practices that will feed the system with critical information 
on the State Department and INS need to be also working on an 
international basis with our allies so that our northern 
perimeter will be as good as that technology standard.
    Mr. Chairman, again, I look forward to hearing the comments 
from the witness, and thank you for holding this very important 
meeting.
    Chairman Kennedy. Thank you.
    We have been joined by Senator Grassley.
    Senator Grassley. Thank you very much, Mr. Chairman.
    I think that we need to better share information. The INS 
needs all relevant information at its disposal that will 
identify and track down immigrants who are on watch lists of 
other countries.
    The second point I would make is that we should implement 
technologies needed to prevent illegal or criminal aliens from 
entering. We need to create tamper-resistant visas and 
passports. We need to invest in an effective biometric system 
and provide the scanners to read the information on border 
crossing cards. I know that Mr. Ziglar is going to lay out 
about that testimony and has instructed his staff to expedite 
database improvements. He specifically mentions the Student 
Exchange Visitor Information System.
    Unfortunately, delay in the implementation of this system 
has and may continue to have detrimental effects on our 
Nation's security, and that is very unacceptable. We want to 
help the colleges and universities, and in turn, I believe that 
colleges will want to help us in our war on terrorism.
    Pursuant to this, I wrote Attorney General John Ashcroft 
and requested immediate consideration of Federal funding to 
speed up implementation of the student tracking system. I 
propose that the Justice Department use a portion of the 
emergency anti-terrorism funds approved by Congress to fund the 
start-up of the student tracking system. Additionally, the 
Department should clearly outline the responsibilities of 
schools who wish to retain foreign students.
    Finally, I realize that the Immigration Service does not 
have the enforcement tools to go after every foreign student 
whose visa expires. And even if Federal agencies are sharing 
data and using the best technology we can create, the INS will 
still face problems in catching the bad guys.
    These are situations in which we can enlist State and local 
support. By implementing Section 133 of the Illegal Immigration 
Reform and Immigrant Responsibility Act, the Department of 
Justice can enter into agreements with local law enforcement 
agencies in order to allow qualified officers to help in the 
investigation, apprehension, and detention of illegal aliens.
    The enemy could be among us, and the threat certainly 
remains before us. Now is the time to act on what we know are 
problems. I already identified a number of problems and 
concrete solutions. We need to move forward with the proposals 
that we have discussed since September the 11th.
    I thank you, Chairman Kennedy.
    Chairman Kennedy. Thank you very much.
    It is an honor to introduce our first panel: Assistant 
Secretary of State Mary Ryan; Acting Assistant Secretary Lino 
Gutierrez; and INS Commissioner James Ziglar.
    Ambassador Ryan has been a distinguished leader at the 
State Department since she joined the Foreign Service in 1966. 
She became Assistant Secretary of State for Consular Affairs in 
1993. Before that, she had served as Deputy Assistant Secretary 
in the Bureau of European and Canadian Affairs, as Ambassador 
to Swaziland, and in numerous embassies and positions in the 
State Department.
    Ambassador Gutierrez has also had a distinguished career in 
the State Department, where he is now Acting Assistant 
Secretary for Western Hemisphere Affairs. He has served as 
Ambassador to Nicaragua and has also been posted to the 
Dominican Republic, Portugal, France, and the Bahamas, and has 
extensive knowledge on border security issues.
    Commissioner Ziglar is well respected by all of us in the 
Senate who know him well, and I am honored to welcome him back 
to this Committee in his new position as the Commissioner of 
Immigration and Naturalization Service. Mr. Ziglar worked 
closely with all of us in the Senate in his outstanding years 
as the Senate Sergeant-at-Arms. He has also served as a 
managing director of Paine Webber and Drexel Burnham Lambert, 
as Assistant Secretary of the Interior for Water and Science. 
He had also practiced law for many years and was a clerk on the 
U.S. Supreme Court for Justice Harry Blackmun.
    I thank all of you for being here. We will recognize Ms. 
Ryan.

  STATEMENT OF MARY A. RYAN, ASSISTANT SECRETARY OF STATE FOR 
    CONSULAR AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, D.C.

    Ms. Ryan. Mr. Chairman, members of the Committee, thank you 
for the opportunity to appear before you today to explain the 
role of the Bureau of Consular Affairs, and most particularly 
our visa processing system, in our country's border security 
program. I have a much longer statement, Mr. Chairman, which I 
would like your permission to submit for the record.
    Mr. Chairman, the resolve of the Department of State and 
the Bureau of Consular Affairs to be full partners in the war 
against terrorism is stronger than ever. In my testimony today, 
Mr. Chairman, I will describe what we have been doing to make 
our consular name check systems the best in the world and our 
plans to make them even better in the future. I will also 
address the procedures for visa issuance and the scope of the 
Department's data sharing with intelligence and law enforcement 
communities.
    I can say with confidence that we are using today a state-
of-the-art visa name check system, and we continue to seek and 
explore new technologies to expand our capabilities. If there 
is one thought that I can leave with the Subcommittee today, it 
is that any name check system is and will be only as good as 
the information we receive to put into it.
    Let me begin by noting that all visa cases are processed 
using the automated name check system, which prompts the name 
check through the Department of State's centralized lookout 
system known as CLASS. A consular officer must review all hits 
before the case can be formally approved for printing. There is 
no override to this procedure. Simply stated, it is not 
possible to issue a visa unless the name check has been 
completed and reviewed by an officer.
    The Department also has in place special headquarters 
clearance procedures for nationals of certain countries, 
including students, such as those on the State Sponsors of 
Terrorism list, as well as for those whose planned travel 
raises concerns about unauthorized access to sensitive 
technologies.
    Once approved, a visa containing numerous safety features 
and a digitized photo is placed in the alien's passport. I 
should point out that the period of visa validity has nothing 
to do with the period for which the alien may remain in the 
United States. A visa permits the alien to apply for entry to 
the United States. Only INS may authorize such entry and 
determine the alien's length of stay.
    Now, let me briefly describe our visa name check database. 
CLASS, which stands for Consular Lookout and Support System, 
contains about 5.7 million names concerning foreigners, most of 
which originate with visa applications at our consulates and 
embassies abroad. INS, DEA, the Department of Justice, and 
other Federal agencies also contribute to our system. We in 
turn have provided approximately 500,000 lookout records to 
other agencies through real-time electronic links to the 
Interagency Border Inspection System, known as IBIS.
    In the aftermath of the World Trade Center bombing in 1993, 
the Bureau of Consular Affairs funded a counterterrorism tool 
known as TIPOFF. This utilizes sensitive intelligence and law 
enforcement information from the CIA, the NSA, FBI, and our 
overseas posts concerning known or suspected terrorists.
    The TIPOFF staff screens all incoming intelligence reports 
and other sources of information for the names and biographic 
data of known and suspected terrorists. Permission is obtained 
from the relevant agencies to declassify identifying data of 
suspected terrorists, and then that data is entered into CLASS 
at IBIS.
    The Visas Viper program is another integral part of TIPOFF. 
The Visas Viper staff, in close coordination with the Bureau of 
Consular Affairs, solicits information on suspected terrorists 
from overseas posts for inclusion into the database. Beginning 
in 1996, with the help of Congress through retained machine-
readable visa fees, Consular Affairs undertook a major 
modernization of our systems. By 2001, all visa data collected 
abroad, including photographs of the applicants, is being 
replicated to the Consular Consolidated Database and is made 
available to posts abroad. This year we deployed a pilot 
program to share limited non-immigrant visa data with INS 
inspectors at the port of entry at Newark, and we are very 
pleased that INS will soon expand use of this replicated data 
to all ports of entry. This will provide each INS inspector 
with a photo to compare with the person in front of them, a 
system cheaper than fingerprints and just as effective.
    The Consular Lookout and Support System is modern and 
extendable. Our name check system remains robust because we 
continue to upgrade it. Allow me to outline a few of the 
initiatives that we have underway right now.
    For many years, we have sought access to FBI criminal data 
on aliens applying for non-immigrant visas. I am very grateful 
to Members of Congress that legislation has been introduced 
that would provide us this data. I particularly want to thank 
you, Mr. Chairman, Senator Brownback, and others on the 
Subcommittee for introducing S. 1452 on September 21st.
    I realize that my time is almost out, and--
    Chairman Kennedy. This is very important.
    Ms. Ryan. Should I just continue?
    Chairman Kennedy. Please.
    Ms. Ryan. I don't want to take too long.
    We will also soon introduce improved field backup name 
check systems for use when telecommunication links are 
interrupted, and by summer 2002, every visa-issuing post will 
have a local backup that closely approaches the abilities of 
the CLASS mainframe.
    Photographs are key to our exploration of biometrics. 
Because every visa application already contains a photograph, 
we capture a biometric identifier on all applicants right now. 
For this reason, we have for some time been investigating the 
use of facial recognition technology for identification 
purposes.
    Pilots at our posts in India and Nigeria have proved very 
promising, and in late August, we launched a pilot at the 
Kentucky Consular Center aimed at detecting invalid diversity 
visa applications. We will soon test the abilities of facial 
recognition software to compare visa applicants to a sample 
database of photographs of suspected terrorists. We seek to 
expand the pool of such photographs through liaison with other 
Government agencies. We are also consulting with private sector 
users of facial recognition technology.
    We will also soon complete field-testing a new, more secure 
non-immigrant visa and design a machine-readable, secure 
immigrant visa that will, in conjunction with the data-share 
program, virtually eliminate photo substitution. We are also 
planning to develop a forensic documents lab to give us an 
independent capability to detect and counter fraudulent or 
counterfeit U.S. and foreign visas and passports.
    Mr. Chairman, all of these initiatives, past, present, and 
future, have been made possible because of a very wise decision 
by the Congress a few years ago to permit us to retain machine-
readable visa fees. Since 1994, when we were given the 
authorization to charge and retain these fees, we have spent 
every penny sensibly and judiciously. We continue to rely on 
MRV fees, as we call the machine-readable visa fees, to finance 
the salary and basic benefits of virtually all American 
employees who provide consular services. Permanent and uncapped 
MRV fees are essential to continuing our efforts to enhance our 
border security program.
    Mr. Chairman, in our free society, we must continue to 
improve the security of our borders while keeping our hearts, 
our minds, and our economy open to new ideas, new people, and 
new markets. CA has been and will continue to be a full partner 
in the battle against terrorism.
    I close with the point that I made at the outset. We cannot 
be the effective outer ring of border security if we don't get 
information on people who seek to harm our country from 
intelligence and law enforcement agencies. Information sharing 
is key to the protection of our Nation.
    Thank you, Mr. Chairman, and members of the Committee for 
allowing me to appear before you today. I will be pleased to 
try to answer any questions you may have.
    [The prepared statement of Ms. Ryan follows:]

 Statement of Mary A. Ryan, Assistant Secretary for Consular Affairs, 
                          Department of State

    Mister Chairman and Members of the Committee:
    Thank you for the opportunity to appear before you today to explain 
the role of the Bureau of Consular Affairs, and most particularly our 
visa processing system, in this country's border security program. I 
only wish, Mr. Chairman, that the context for this hearing could be 
different. In that case I could open these remarks by saying how happy 
I am to appear before you, because I am proud of the systems we have 
developed over the past several years and that we work very hard to 
improve each and every day. I would convey again my appreciation for 
the help that the Congress has given the Department to improve our 
consular systems by allowing us to retain machine-readable visa (MRV) 
fees. However, I appear before you today keenly aware of the terrible 
tragedy that befell our country and all civilized countries on 
September 11.
    In my testimony, Mr. Chairman, I will outline for you what we have 
been doing to make our consular systems the best in the world and our 
plans to make those systems even better in the future. During my tenure 
as Assistant Secretary, the Bureau of Consular Affairs (CA) has been 
continually engaged in efforts to design, deploy, and improve the 
systems that help flag for our consular officers terrorists and 
criminals among visa applicants. I can say with confidence that ours is 
a state-of-the-art system that functions as it was designed. At the 
same time, we continue to seek and exploit new technologies to 
strengthen our capabilities. If there is any single point I can leave 
with the Committee, it is that that any namecheck system is and will be 
only as good as the information we receive to put in it.
                            Visa Processing
    I will first focus on non-immigrant visa processing and explain 
briefly how applicants are processed so that you will understand the 
environment in which out systems operate. Applicants for non-immigrant 
visas submit a written application, with a passport and photo, for 
adjudication by a commissioned consular officer or other designated 
U.S. citizen. Locally engaged staff assist in visa processing but are 
not authorized to approve and issue visas.
    Visa applications are processed using sophisticated automated 
systems. Data entry automatically prompts a namecheck through the 
Department of State's centralized lookout system (CLASS, the details of 
which I will discuss later in my testimony). A consular officer must 
review all hits before the case can be formally approved for printing. 
There is no override for this feature; it is not possible to print a 
visa unless a namecheck has been completed and reviewed by an officer.
    Consular officers evaluate applications by looking at the full 
range of criteria established by U.S. immigration law. They review the 
credibility of professed plans for travel to the U.S. For most visas, 
applicants must establish that they intend to visit the U.S. only 
temporarily, are qualified for the visa classification sought, and will 
undertake only activities consistent with the particular visa status. 
Applicants must also establish that they are not otherwise ineligible 
to receive a visa under one of the specific grounds of ineligibility in 
the Immigration and Nationality Act, including terrorism, drug 
trafficking and alien smuggling.
    In addition to namecheck results, consular officers use a 
combination of experience, knowledge of local economic, political and 
cultural conditions, and common sense to evaluate applications. 
Supporting documentation may be solicited and reviewed as needed. When 
there are specific signs of fraud or deception, an investigation may be 
conducted using consular anti-fraud resources.
    The ever-growing numbers of visa applications has meant that 
consular officers must reach decisions in individual cases rapidly. To 
assist them in doing so, our namecheck technology provides results in 
real-time. We have used outside linguistic experts to make our search 
criteria for ``hits'' as helpful as possible. We have instituted 
sophisticated Arabic and Russian/Slavic algorithms to identify names 
regardless of transliteration variations, and are presently developing 
a similar algorithm for Hispanic names.
    Once approved, a visa containing numerous security features and a 
digitized photo is placed in the alien's passport. The maximum period 
of visa validity is ten years for multiple entries. The validities of 
different types of non-immigrant visas are determined on the basis of 
reciprocity with each foreign government. I should point out, Mr. 
Chairman, that the period of visa validity has nothing to do with the 
period for which an alien may remain in the United States. A visa 
permits an alien to apply for entry to the U.S., but only the INS may 
authorize such entry and determine the alien's length of stay.
    Visa data, including photos and pertinent biographic data, is 
electronically forwarded to the Consolidated Consular Database 
maintained in Washington. This database also contains information on 
refused applications.
    Immigrant visas are for persons intending to reside permanently in 
the United States. U.S. citizens and legal permanent resident aliens, 
as well as prospective employers, file with the INS petitions on behalf 
of certain relatives and employees. A special element of U.S. 
immigration law is the Diversity Visa (DV) for which ``winners'' are 
chosen by lottery. Like non-immigrant visa applicants, immigrant visa 
and DV applicants must undergo namechecks. In addition, an FBI employee 
at the National Visa Center does a National Criminal Information Center 
(NCIC) criminal history check of these applicants.
    I should note that, while immigrants are covered by NCIC screening, 
nonimmigrants are not. I'll return to the solution to this problem, 
which I hope is imminent, in the context of our namecheck system.
                          The Namecheck System
    Integral to visa processing is the namecheck system. CA is well 
aware of the importance of sharing and receiving critical intelligence 
and criminal data from intelligence and law enforcement agencies. In 
addition to ensuring that no visa is issued without a namecheck, we 
have worked hard over the past decade to deliver more information from 
other agencies to our visa officers via the namecheck system.
    Our lookout database, the Consular Lookout and Support System 
(CLASS), contains about 5.7 million records on foreigners, most of 
which originate with the visa application process at our consulates and 
embassies overseas. A variety of federal agencies contribute lookouts 
to our system. INS has provided over one million records, and DEA about 
330,000. Customs is working with us to provide 20,000 or more lookouts 
from its serious drug violator records by the end of this year. We in 
turn provide Customs, INS and other agencies using the Interagency 
Border Inspection System (IBIS) with approximately 500,000 lookout 
records through a real-time electronic link.
    We also provide our officers, and the INS, with data on lost and 
stolen foreign passports to prevent the use of such passports by 
impostors.
                         TIPOFF and Visas Viper
    In the aftermath of the 1993 World Trade Center bombing, the Bureau 
of Consular Affairs--as part of the Department of State's border 
security program--funded a border security and counterterrorism tool 
known as TIPOFF. It was developed, and is managed, by the Bureau of 
Intelligence and Research (INR), utilizing sensitive intelligence and 
law enforcement information from the CIA, NSA, FBI and our overseas 
posts concerning known or suspected terrorists. TIPOFF's objective is 
to detect these individuals either as they apply for visas overseas, or 
as they attempt to pass through U.S., Canadian, and Australian border 
entry posts. (Data-sharing programs were implemented with Canada in 
1997, and with Australia in 2000.)
    The TIPOFF staff in INR screens all incoming intelligence reports, 
embassy cables and other sources of information for those documents 
containing the names and biographic data of known or suspected 
terrorists. Following strict procedures approved by the respective 
intelligence and law enforcement agencies, permission is obtained to 
declassify names, nationalities, passport numbers and dates of birth of 
suspected terrorists. This data is then entered into CLASS and the INS 
and Custom Service's IBIS system. Consular officers overseas encounter 
``hits'' based on TIPOFF data in the regular course of their work. The 
CLASS database contains over 48,000 such records. TIPOFF has passed 
approximately 23,000 records to INS and other inspection services at 
ports of entry via IBIS, which uses a higher standard of biographic 
data for its entries.
    The Visas Viper program is an integral part of TIPOFF. The TIPOFF/
Viper staff works in close coordination with CA to solicit information 
about suspected terrorists from overseas posts. This data is included 
in the TIPOFF database and watchlisted in CLASS and IBIS. A procedural 
adjunct to the Visas Viper program, called TIPPIX, incorporates 
terrorists' photographs into the TIPOFF and IBIS databases.
    TIPOFF performs the following important functions:

        <bullet> t helps preclude the inadvertent issuance of visas to 
        terrorists whose names are known to intelligence and law 
        enforcement agencies;
        <bullet> It warns embassies and consulates that certain 
        applicants may pose a security risk;
        <bullet> It alerts intelligence and law enforcement agencies 
        that a suspected terrorist is applying for a visa;
        <bullet> It provides a means for informed decisions to be made 
        on whether to issue a visa for operational or other policy 
        considerations, or deny the application;
        <bullet> It enables INS and Customs to detect suspected 
        terrorists who may have obtained a visa prior to being 
        watchlisted in CLASS, or who are attempting to enter the U.S. 
        through the Visa Waiver Program (VWP);
        <bullet> And it provides operational opportunities at border 
        entry points through use of ``silent hits'' or other handling 
        codes.

    We are also comparing new TIPOFF hits in the Consular Lookout and 
Support System with visa issuance information in the Consolidated 
Consular Database, to determine if a subject of derogatory information 
was issued a visa before the hit was created.
                       Security Advisory Opinions
    We also address cases posing potential security threats using 
Security Advisory Opinion procedures. We have concluded a series of 
agreements with law enforcement and national security agencies 
concerning categories of individuals of concern. Such persons are the 
subjects of a cable prepared by a consular officer and disseminated 
electronically to all appropriate agencies for an in-depth clearance.
    The Department of State has designated Cuba, Iran, Iraq, Libya, 
North Korea, Sudan, and Syria as state sponsors of terrorism. Visa 
applications by officials and diplomats of these countries for the most 
part must be submitted to the Visa Office for review and an advisory 
opinion as to ineligibility before a visa can be issued. (This 
requirement does not presently extend to diplomatic/official visa 
applicants from Syria.) Non-official visa applicants from these 
countries are also subject to a wide range of special clearance 
procedures based on their background, the nature of their proposed 
visit, and the type of visa they are seeking.
    Based on agreements with the FBI, we also maintain a variety of 
special clearance procedures--beyond the regular CLASS namecheck--for 
numerous other nationalities, including Afghanistan. The reasons for 
these special clearance procedures vary, but include concerns related 
to espionage, technology transfer, economic sanctions, and human rights 
violations.
    In addition to these nationality-specific clearance requirements, 
we universally require special clearance for applicants of any 
nationality who are the subject of the most serious CLASS lookouts. We 
similarly require special clearance for applicants whose planned travel 
to the United States raises concerns about unauthorized access to 
sensitive technologies, even if there is no lookout entry for the 
individual. Consular officers are also asked to submit for a security 
advisory opinion any other cases that they feel raise security 
concerns, regardless of namecheck results.
                   The Consular Consolidated Database
    Our data-sharing efforts are not, however, limited to the namecheck 
system. We are now delivering more information to our visa officers via 
a globalized database of visa records. Beginning in 1996, thanks to the 
help of Congress with retained MRV fees, Consular Affairs undertook 
major modernization of our systems. By March 2001, all visa data 
collected abroad was being replicated to the Consular Consolidated 
Database. In May 2001, we made the Consular Consolidated Database 
available to all our visa officers abroad. The photo and details of 
visa issuance, once only available locally to the post taking action, 
are now available in real-time to all visa offices worldwide. Visas can 
be checked at any point in the issuance process against all issued and 
refused visas worldwide, and consular management in Washington now has 
access to up-to-the-minute information about visa and passport issuance 
around the world.
    Data-Sharing with the INS and Other Federal Inspection Services
    We are working to widen the flow of information to relevant Federal 
Inspection Services. We are mindful of the challenges that INS faces in 
inspecting millions of foreign visitors at ports of entry. We have a 
number of initiatives underway to share additional information with INS 
in order to improve border security. As I mentioned earlier, the 
Consolidated Consular Database allows us to make visa information, 
including digital non-immigrant visa photographs, immediately available 
both in Washington and at all consular sections worldwide. We want INS 
to be able to make good use of this data, in particular photos of each 
individual who has been issued a visa.
    Since the mid-1990's, State and INS have had a cooperative program 
which has resulted in State forwarding to INS, for use at ports of 
entry, electronic data on 55% of all immigrant visa recipients. The two 
agencies have cooperated in exchanging information at all stages of the 
immigrant visa process, from approving petitions to issuing legal 
permanent residence cards. We are about to make certain software 
changes that should allow complete sharing of immigrant visa 
information with INS within the next year.
    The Department is prepared to share all of its replicated non-
immigrant visa files with INS as soon as the Service is ready to 
receive it. Towards that end, in July 2001, we deployed a pilot program 
to share limited non-immigrant visa data with INS inspectors at Newark 
and with the INS forensic document lab. The program was expanded to 
Miami in September, and INS plans to make the data available to all 
ports of entry over the next several months. We look forward to the 
time when we can share all of our replicated files with all INS ports 
of entry, as they will give INS inspectors near real-time access to 
data that will allow them to better detect fraud and facilitate 
legitimate travelers. In the meantime, INS inspectors have access to 
our electronic visa data via telephone contact with the Visa Office.
           Looking Ahead: Improving and Extending our Systems
    The Bureau of Consular Affairs has staff specifically dedicated to 
technical development to ensure we maintain state-of-the-art tools for 
adjudicating visas. The Consular Lookout and Support System is modern 
and extendible. Our namecheck system remains robust because we continue 
to upgrade it. We are committed and are actively working to expand 
datasharing with INS, other federal inspection services and law 
enforcement agencies.
                 a. gaining access to fbi ncic iii data
    We need access to FBI criminal record data (NCIC III) on aliens to 
assist consular officers in their adjudication of visa applications and 
have been seeking authority for such access for many years. We already 
screen our immigrant applicants using FBI information and want to do 
the same for non-immigrant applicants. We envision a system of index 
records on aliens (excluding all U.S. citizens and legal permanent 
residents) that is added directly to the CLASS lookout system and that 
will signal there may be derogatory FBI information on an applicant. I 
am grateful to Members of Congress that this legislation, which would 
also ensure INS access to such information, is included in the counter-
terrorism measures now moving through Congress. Mr. Chairman, I also 
want to thank you, Senator Brownback, and others for introducing S. 
1452, which would provide NCIC III access to us and INS.
               b. short-term improvements to visa systems
    This winter we will introduce improved field backup namecheck 
systems. By summer 2002 we plan to deploy a ``real time update'' 
feature for these systems that will give every visa processing post a 
local back-up that closely approaches the abilities of the mainframe 
CLASS system.
    Before the end of this year, we will modify our existing database 
of lost and stolen blank foreign passports to accommodate entries by 
Foreign Service posts of individual, foreign passports that are 
reported as lost or stolen. Lost and stolen passport data will continue 
to be shared with federal inspection agencies through IBIS.
    Specific enhancements aimed at giving visa officers more detailed 
lookout information have been in the works over the past year. By 
spring 2002, we will deploy features in our nonimmigrant visa system 
that will increase the scope of data associated with our lookout 
entries. Using scanning, we will begin augmenting the lookouts with 
global, electronic access to refusal files (and photos) now kept at 
individual Foreign Service posts.
                         c. facial recognition
    As I have said, Mr. Chairman, every visa application contains a 
photograph, which means we already capture a biometric indicator for 
every applicant. Accordingly, we have been investigating the use of 
emerging facial recognition technology in the consular business 
process.
    Evaluations comparing non-immigrant visa photos at posts in India 
and Nigeria proved promising in identifying impostors presenting 
fraudulent applications. In late August, we launched a pilot at the 
Kentucky Consular Center for Diversity Visas aimed at detecting invalid 
applications from persons working around our procedures. We will soon 
test the capability of facial recognition software to compare a sample 
database of photographs of suspected terrorists to those of visa 
applicants. We seek to expand the pool of photographs available for 
this use through efforts with other USG agencies.
                          d. document security
    We soon will complete field-testing a new, more secure non-
immigrant visa. Laboratory tests have shown that it is much more 
tamper-resistant than the current version. We will also complete design 
of a machine-readable, secure immigrant visa that will, in conjunction 
with the data-share program, virtually eliminate photo-substitution. We 
will provide our consulates with special secure ink with which to 
cancel visas, so that efforts to ``wash'' or ``recycle'' genuine visas 
will be much more difficult.
    We are planning to develop within the Bureau of Consular Affairs an 
independent capacity to detect and counter fraudulent or counterfeit 
U.S. and foreign visas and passports by creating a new office built 
around a forensic document laboratory. This office also would 
coordinate all Bureau efforts to assess biometrics technologies.
                           e. human resources
    Using MRV fees, the Department currently funds the salaries and 
benefits of 2,130 full-time positions. MRV funds will also be required 
to increase consular staffing worldwide, to address growing demands in 
the visa adjudication process. We are committed to an effective 
training program for consular employees, including an intensive one-
week training course for consular field officers on namecheck systems 
and linguistic concepts.
     Machine-Readable Visa Fees Provide the Means for Improvements
    Mr. Chairman, all of these initiatives--past, present and future--
have been made possible because of a very wise decision by Congress a 
few years ago to permit us to retain machine-readable visa (MRV) fees. 
Since 1994, we have spent every penny of these fees sensibly and 
judiciously. As I mentioned, the Bureau of Consular Affairs relies upon 
MRV fees to finance the salary and basic benefits of virtually all 
American employees who provide worldwide consular services as well as 
to make improvements to our systems. Permanent and uncapped MRV fees 
are essential to continuing our efforts to enhance the nation's Border 
Security Program. With this funding authority, we can ensure we have 
sufficient personnel to cover staffing and training gaps and to help 
meet peak season workloads. We can also adjust staffing to compensate 
for additional anticipated steps in the visa adjudication process and 
other changes to increase security.
    This funding allowed us to modernize our consular systems, and some 
of our future proceeds will go into further system upgrades, such as 
the scanning of our refusal files to augment lookout information. Other 
major expenditures looming include establishing additional back-up 
capabilities for the sophisticated automated systems that support both 
CLASS and the Consolidated Consular Database.
    The level of resources available to federal border agencies greatly 
affects our progress, particularly in interagency sharing of visa 
information. We must continue to work closely with other agencies on 
data-sharing to ensure full access to information for consular 
officers. We are anxious to provide visa data to federal inspection 
services and would like to see more rapid progress. Modernization of 
other agencies' systems--including more modern protocols in data 
exchange and more secure, flexible connectivity--is key to significant 
progress. We actively participate in the Border Agency Partnership 
(formerly IBIS), which aims to tackle these problems.
                                Closing
    Mr. Chairman, we live in a free and open society. These 
characteristics, so precious to all Americans, make our country a 
magnet to those who seek greater political, economic and social 
opportunities, as well as a target for those who hate us and seek to do 
us harm. We must continue improving the security of our borders while 
keeping our hearts and our economy open to new people, ideas and 
markets. CA has been and will continue to be a full partner in the 
battle against terrorism. Although the freedom and openness we value so 
much make totally foolproof systems virtually impossible, I am 
confident that our current system is state-of-the-art and functions as 
it was designed. I am also confident that we are on the right track 
with our efforts to find new technologies and institute data-sharing 
arrangements with other agencies.
    I close, Mr. Chairman, with the point I made at the outset of these 
remarks--the effectiveness and success of our systems rely not only on 
the quantity, but also on the quality and timeliness of the information 
that goes into it.
    Thank you, Mr. Chairman, and members of the Committee, for 
permitting me to share my thoughts with you today. I would now be 
pleased to answer any questions you have for me.

    Chairman Kennedy. Very good, very helpful.
    Ambassador?

  STATEMENT OF LINO GUTIERREZ, ACTING ASSISTANT SECRETARY OF 
  STATE FOR WESTERN HEMISPHERE AFFAIRS, DEPARTMENT OF STATE, 
                        WASHINGTON, D.C.

    Mr. Gutierrez. Thank you, Mr. Chairman.
    Mr. Chairman and members of the Committee, thank you for 
the opportunity to appear before you to discuss the areas of 
cooperation between the United States and the countries of the 
Western Hemisphere, in particular Canada and Mexico, in 
strengthening and securing our mutual borders.
    The Western Hemisphere, perhaps more than any region in the 
world, has benefited from the free flow of trade, people, and 
ideas, and the U.S. has been a natural focus of that flow. What 
the U.S. Government has discovered in the past month, however, 
is that this flow, in addition to creating a natural 
commonality of interest, has also created a need to work 
closely together to better secure our mutual borders against 
terrorists and other criminals. We agree that strengthening the 
security of our borders has become an indispensable part of the 
Nation's efforts to prevent future terrorist attacks.
    Most importantly, our shared border with Canada to the 
North and Mexico to the South represents our greatest 
challenge: how to effectively guard against terrorism. Both 
Mexico and Canada are working closely with the United States to 
address these challenges. Our cooperation with Mexico on border 
security has been a priority for many years. Even before the 
September 11th attacks, our efforts at working together on 
border security this year had intensified following the 
President's February trip to Mexico to meet with President Fox. 
Border security and safety are one of the pillars of the High 
Level Working Group on Migration, and both Secretary Powell and 
Attorney General Ashcroft have been closely engaged in the 
issue with their Mexican counterparts since April. Their 
efforts products renewed vigor in bilateral cooperation at 
identifying and dismantling alien smuggling rings in Mexico, 
increased intelligence sharing at the border between the U.S. 
and Mexican law enforcement agencies, and by means of the 
border liaison mechanism, resulted in improved cooperation 
through increased personal contact by officials on both sides 
of the border. The Fox administration has shown consistently a 
willingness to work with us in ways not imagined as possible 
just a couple of years ago. The Government of Mexico responded 
immediately to the September 11th terrorist attacks with 
concrete actions to tighten border security and to cooperate 
with U.S. law enforcement officials.
    I have submitted a written statement to the Committee for 
the record which includes examples of Mexican cooperation. 
Right now I'll mention a couple of examples.
    The Government of Mexico offered full cooperation with FAA 
authorities to survey all international airports in Mexico. The 
Mexican Government instituted special visa screening procedures 
for nationals of over 50 countries. No visa can be issued 
without advance approval from officials in Mexico City.
    The cooperation from Mexican agencies has been active and 
outstanding. Every law enforcement, military, and intelligence 
entity has worked tirelessly with us. There have been dozens of 
leads initiated by Mexican authorities. An embassy agency head 
described the level of cooperation as ``extraordinary.''
    We had been working with Mexican authorities prior to 
September 11th to encourage them to review and tighten their 
policies in the transit of third-country nationals through 
Mexico. The Mexicans have made progress in certain areas, 
particularly on their southern border, with stemming the flow 
of immigrants transiting Mexico to the U.S. While the 
overwhelming majority of those who attempt to enter the U.S. do 
so for economic reasons, we have insisted that Mexico do more 
in this area to ensure that potential malafide migrants do not 
take advantage of alien smuggling networks to the U.S.
    Since September 11th, Canada has become a key partner in 
the war on terrorism. On the day of the attacks, Canada allowed 
some 245 international flights headed for the United States to 
land at its airports. The upwards of 27,000 passengers, 
including many American citizens, were cared for by the 
Canadian officials and the Canadian people for several days. 
Currently, significant Canadian military assets, including a 
four-ship task force, are being folded into our military 
response. Canada has been a staunch and forthcoming ally.
    Again, my written statement lists a number of examples of 
Canadian cooperation. I will mention a few.
    On October 15th, the Canadian Government introduced in 
parliament sweeping anti-terrorism legislation which gives 
police more authority to crack down on terrorists and cut off 
fundraising for suspected terrorist groups.
    On October 12th, the Canadian Government announced a $55 
million (Canadian dollars) boos in the budget of the Royal 
Canadian Mounted Police to create new border and national 
security teams, update forensic technology and databases, and 
increase protection of key sites.
    Another $49 million package was announced in Ottawa last 
week that will provide for 100 additional immigration officers 
at border points, increased efforts to deport illegal entrants, 
and new fraud-resistant identity cards for legal immigrants.
    Our cooperation with Canada on shared border security is 
extensive and in-depth. There are six bilateral fora currently, 
including Border Vision, the Shared Border Accord, the Canada-
U.S. Partnership, the Cross-Border Crime Forum, the Bilateral 
Consultative Group on Counter-Terrorism. All these will be 
meeting in the near future to discuss additional steps.
    We interact daily with Canadian ministries, parliament, the 
media, and the Canadian people. We have redoubled our efforts 
since September 11th, and those efforts are paying dividends.
    The countries of the Western Hemisphere have demonstrated 
that they are important allies in the effort to condemn and 
combat terrorism. Many countries of the hemisphere--most 
importantly Canada and Mexico, who share our physical borders--
are working cooperatively with the U.S. to examine policies and 
develop efforts to strengthen border security. More needs to be 
done throughout the hemisphere to adopt modern investigative 
techniques, improve airport security, encourage a sharing of 
information, cooperate in law enforcement and financial 
investigation efforts, and monitor and suppress money 
laundering and alien smuggling, which are criminal activities 
that also provide resources for the terrorists. We are urging 
all countries of the hemisphere to sign and ratify the 12 
international conventions that address terrorist threats and to 
implement fully the terms of the UN Security Council Resolution 
1373 with respect to blocking terrorists' access to fund. We 
are a party to ten of these conventions and have signed two: 
the 1998 Convention for the Suppression of Terrorist Bombings, 
and the 1999 Convention on the Suppression of Financing of 
Terrorism Crimes. We are pleased that the Senate Foreign 
Relations Committee is receiving testimony on these two 
remaining convention on Thursday, and we urge the Senate to 
review and ratify them expeditiously.
    Our hemispheric commitment to confront terrorism will be 
demonstrated by the concrete measures we take as sovereign 
governments and as a community of governments to arm ourselves 
against this worldwide threat. We will continue to call on our 
hemispheric neighbors to join us in our counterterrorism 
efforts and in sending a unified message that these criminal 
activities are not welcome in our neighborhood.
    Thank you.
    [The prepared statement of Mr. Gutierrez follows:]

  Statement of Lino Gutierrez, Acting Assistant Secretary, Bureau of 
                       Western Hemisphere Affairs

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to appear before you today to discuss 
the areas of cooperation between the United States and the countries of 
the Western Hemisphere--in particular Canada and Mexico--in 
strengthening and securing mutual borders.
    In the aftermath of the September 11 terrorist attacks, the 
countries of the Americas have responded strongly and positively 
against international terrorism and in solidarity with the United 
States, and have supported our efforts to construct an international 
counterterrorism coalition. A tragic testimony of the degree to which 
our fates are linked is the list of thirty of the Hemisphere's thirty-
four nations which lost citizens in the September 11 events--among 
those nations directly affected, El Salvador counts 121 dead and 
missing, the Dominican Republic 42, Canada 24, and Mexico 18.
    The Western Hemisphere, perhaps more than any region in the world, 
has benefited from the free flow of trade, people and ideas, and the 
U.S. has been a natural focus of that flow. What the USG has discovered 
in the past month however, is that this flow--in addition to creating a 
natural commonality of interest--has also created a need to work 
closely together to better secure our mutual borders against terrorists 
and other criminals. We agree that strengthening the security of our 
borders has become an indispensable part of the nation's efforts to 
prevent future terrorist attacks.
    Expressions of solidarity and sympathy are being matched by 
concrete actions by the nations of the hemisphere. Hemispheric 
governments are beefing up security measures, sharing intelligence, and 
looking at ways to improve border security. For example, on October 12, 
the Caribbean (CARICOM) heads of state issued an anti-terrorism 
declaration pledging to put in place the ``necessary measures to comply 
with new international safety regulations on planes, at airports arid 
sea ports.'' Additionally, the OAS Inter-American Committee Against 
Terrorism (CICTE), which met in a special session on Monday, October 
15, is coordinating OAS member states' efforts to reduce the ability of 
terrorist groups to operate in the hemisphere, including enhancing 
border cooperation and travel document security measures. As part of 
this cooperation, CICTE member states have been briefed by top U.S. and 
Canadian government experts in the areas of counterterrorism, terrorist 
financing, and border controls.
    Most importantly, our shared border with Canada to the north and 
Mexico to the south, which covers a distance of over 6,000 miles, 
facilitates--under normal conditions--the legal crossing of 
approximately 1.6 million people and almost 2 billion U.S. dollars per 
day in trade with Canada and Mexico. Although this impressive level of 
activity demonstrates the positive effects of trade and globalization, 
it also represents our greatest challenge: how to effectively guard 
against terrorism. Both Mexico and Canada are working closely with the 
U.S. to address these challenges.
                                 mexico
    Our cooperation with Mexico on border security has been a priority 
issue for many years. Even before the September 11 attacks, our efforts 
at working together on border security this year had intensified 
following the President's February trip to Mexico to meet with 
President Fox. Border security and safety are one of the pillars of the 
High Level Working Group on Migration, and both Secretary Powell and 
Attorney General Ashcroft have been closely engaged in the issue with 
their Mexican counterparts since April. Their efforts produced renewed 
vigor in bilateral cooperation at identifying and dismantling alien 
smuggling rings in Mexico, increased intelligence sharing at the border 
between U.S. and Mexican law enforcement agencies, and, by means of the 
Border Liaison Mechanisms, resulted in improved cooperation through 
increased personal contact by officials on both sides of the border. 
The Fox administration has shown consistently a willingness to work 
with us in ways not imagined as possible just a couple of years ago. 
The government of Mexico responded immediately to the September 11 
terrorist attacks with concrete actions to tighten border security and 
to cooperate with U.S. law enforcement officials.
    Some examples:

        <bullet> Mexican authorities stopped two U.S. residents on 
        September 12 entering at Mexicali with suspicious documents.
        <bullet> Mexican immigration picked up 30 individuals in 
        Tijuana and sent them to Mexico City for questioning.
        <bullet> An additional four people were picked up September 17 
        in Durango for questioning.
        <bullet> Mexican authorities worked closely with their U.S. 
        government counterparts inside Mexico to investigate 
        evidentiary leads such as an ice pick on a plane from the U.S., 
        a suspicious piece of luggage with Arabic tapes and documents, 
        and reports of suspicious crop dusters near the U.S. border.
        <bullet> The government of Mexico offered full cooperation with 
        FAA authorities to survey all international airports in Mexico.
        <bullet> The Mexican government instituted special visa 
        issuance screening procedures for nationals of over 50 
        countries. No visas can be issued without advance approval from 
        officials in Mexico City.

    The cooperation from Mexican agencies has been active and 
outstanding. Every law enforcement, military and intelligence entity 
has worked tirelessly with us. There have been dozens of leads 
initiated by Mexican authorities. An Embassy agency head described the 
level of cooperation as ``extraordinary.''
    We had been working with Mexican authorities prior to September 11 
to encourage them to review and tighten their policies on the transit 
of ``third country'' nationals through Mexico. The Mexicans have made 
progress in certain areas, particularly on their southern border, with 
stemming the flow of immigrants transiting Mexico to the U.S. While the 
overwhelming majority of those who attempt to enter the U.S. do so for 
economic reasons, we have insisted that Mexico do more in this area to 
ensure that potential malafide migrants do not take advantage of alien 
smuggling networks to enter the U.S.
    As part of this effort, the Government of Mexico has been proactive 
in identifying and disrupting rings of alien smugglers on the U.S. 
border and throughout Mexico.
                                 canada
    Since September 11, Canada has become a key partner in the war on 
terrorism. On the day of the attacks, Canada allowed some 245 
international flights, headed for the United States, to land at its 
airports. The upwards of 27,000 thousand passengers, including many 
American citizens, were cared for by the Canadian government and the 
Canadian people for several days. On the Friday following the attack, 
some 100,000 Canadians attended an official memorial ceremony on 
Ottawa's Parliament Hill to pay tribute to the victims. Currently, 
significant Canadian military assets, including a four-ship task force, 
are being folded into our military response. Canada has been a staunch 
and forthcoming ally.
    Other examples of Canadian cooperation include:

        <bullet> Working hand in hand with us on investigating 
        literally thousands of leads in the wake of the September 11 
        terrorism attacks.
        <bullet> On September 12, Canadian border guards arrested a man 
        carrying several bogus pilot licenses as he tried to enter 
        Canada from the U.S. Canadian officials immediately handed him 
        over to U.S. authorities.
        <bullet> Canadian authorities detained and turned over to us a 
        passenger on a flight diverted from the U.S. to Canada on 
        September 11 after he was found to be in the possession of 
        several airline uniforms.
        <bullet> Canadian officials are also working closely with their 
        U.S. counterparts to investigate the discovery of box-cutter 
        knives found aboard an Air Canada flight scheduled to fly from 
        Toronto to New York, but grounded at the last minute on 
        September 11.
        <bullet> In-depth security interviews were imposed for refugee 
        claimants in the weeks after September 11.
        <bullet> On October 12, the Canadian Government announced a S55 
        million (Canadian dollars) boost in the budget of the Royal 
        Canadian :Mounted Police to create new border and national 
        security teams, update forensic technology and databases, and 
        increase protection of key sites.
        <bullet> Another $49 million package announced in Ottawa last 
        week will provide for 100 additional immigration officers at 
        border points, increased efforts to deport illegal entrants, 
        and new fraud-resistant identity cards for legal immigrants.
        <bullet> Canada has announced airport improvements worth USDS60 
        million for more bomb detectors, staff, and modernized computer 
        systems.
        <bullet> The Canadian Government has also introduced in 
        Parliament new anti-terrorism legislation giving police more 
        authority to crack down on terrorists and cut off fundraising 
        for suspected terrorist groups.

    Our cooperation with Canada on shared border security is extensive 
and in-depth. Coordination is based in six bilateral fora--Border 
Vision. whose overall goal is a bilateral, strategic approach to 
migration which will strengthen the integrity of the border through 
information and intelligence sharing, policy coordination, joint 
overseas operations and border cooperation; the Shared Border Accord, 
whose goal is to develop new and innovative programs that will 
facilitate bilateral trade and the movement of people; the Canada-U.S. 
Partnership, announced by the two countries' heads of government in 
1999 to look at cross-border issues and provide a framework for non-
federal stakeholders to air their views; the Cross-Border Crime Forum 
to address crime issues; the Bilateral Consultative Group on Counter-
Terrorism to bring both countries' top counter-terrorism experts 
together annually; and the Integrated Border Enforcement Team, a 
bilateral, multi-agency law enforcement group of police, customs and 
immigration officials.
    In all of these areas, the Bureau of Western Hemisphere Affairs' 
most appropriate role is advocating and coordinating policy with the 
highest levels of Canadian political and policy decision-making. We 
advocate forcefully for U.S. government policies through our Embassy in 
Ottawa and our seven consulates across Canada. We interact daily with 
Canadian ministries, Parliament, the media, and the Canadian people. We 
have redoubled our efforts since September 11. And those efforts are 
paying dividends. Our Canadian friends have recognized that there are 
some weaknesses in their immigration law and have introduced 
legislation to, among other provisions, make refugee/asylum claimants 
excludable even if they are merely suspected of terrorist ties, and 
given Canadian law enforcement increased access to advance passenger 
information on incoming flights. And, on October 15, the Canadian 
government introduced in Parliament sweeping anti-terrorist 
legislation, which includes giving police authority to tap phones and 
electronic mail, and makes it a crime to harbor a terrorist. It also 
takes the step of making it a crime to raise funds or participate in 
activities of terrorist groups.
    The ability of the Canadian government to secure its homeland will 
only help us in securing our homeland. A higher level of confidence 
about who Canada is admitting at its ports of entry would assist us 
greatly in allowing us to focus our northern border resources where and 
how they will do the most good. Canada feels the same way about us. 
Even greater information and intelligence sharing, and the development 
and sharing of new technologies, will allow both countries to focus 
more on the commonality of our immigration efforts. With 1.2 billion 
dollars in trade crossing our mutual border daily and 200 million 
people annually, the goal should be to foster this invaluable flow of 
people and goods while also increasing safeguards against threats. We 
are confident that our Canadian partners share this goal, and stand 
ready to work with us to make it happen.
                               Conclusion
    The countries of the Western Hemisphere have demonstrated that they 
are important allies in the effort to condemn and combat terrorism. In 
addition to the numerous expressions of condolence and solidarity, 
events in Washington (including the invocation of the Rio Treaty by 
States Parties at the OAS on September 19 and the extraordinary 
convocation of OAS foreign ministers on September 21) were important 
measures of our support within the hemisphere.
    In addition. many countries in the hemisphere--most importantly 
Canada and Mexico who share our physical borders--are working 
cooperatively with the U.S. to examine policies and develop efforts to 
strengthen border security. More needs to be done throughout the 
hemisphere to adopt modern investigative techniques, improve airport 
security, encourage countries of the region to work among themselves to 
share information, cooperate in law enforcement and financial 
investigation efforts, and monitor and suppress money laundering and 
alien smuggling, which are criminal activities that also provide 
resources and logistic support for terrorists and other malefactors. We 
are urging all the countries of the hemisphere to sign and ratify the 
12 international conventions that address terrorist threats and to 
implement fully the terms of UNSC Resolution 1373 with respect to 
blocking terrorists' access to funds. We are a party to ten of these 
conventions and have signed two: the 1998 Convention for the 
Suppression of Terrorist Bombings and the 1999 Convention on the 
Suppression of Financing of Terrorism Crimes. We are pleased that the 
Senate Foreign Relations Committee is receiving testimony on these two 
remaining Conventions on Thursday and we urge the Senate to review and 
ratify them expeditiously.
    Our hemispheric commitment to confront terrorism will be 
demonstrated by the concrete measures we take as sovereign governments 
and as a community of governments to arm ourselves against this 
worldwide threat. We will continue to call on our hemispheric neighbors 
to join us in our counterterrorism efforts and in sending a unified 
message that these criminal activities are not welcome in our 
neighborhood.

    Chairman Kennedy. Thank you.
    Mr. Ziglar?

  STATEMENT OF JAMES W. ZIGLAR, COMMISSIONER, IMMIGRATION AND 
NATURALIZATION SERVICE, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Ziglar. Mr. Chairman and members of the Committee, I 
appreciate the opportunity to appear today to talk about border 
control issues in the context of the anti-terrorist effort. 
Needless to say, Mr. Chairman, I am very pleased to be before 
this Committee. As you know, historically I have a great 
affection for this Committee, as you well know, going back to 
the 1960s when I worked up here in this Committee, and I am 
obviously, for other reasons, very interested in your work in 
my new role.
    Chairman Kennedy. It goes back to the 1965 Act of the 
elimination of the national origin quota system, the Asian 
Pacific triangle.
    Mr. Ziglar. That is right.
    Chairman Kennedy. I remember. A very important piece of 
immigration legislation eliminating discrimination.
    Mr. Ziglar. Exactly.
    Chairman Kennedy. We know that you have been interested in 
these issues for a long time.
    Mr. Ziglar. Obviously, Mr. Chairman, I also was very 
pleased to be the Sergeant at Arms and am forever grateful for 
that opportunity.
    I had a couple of questions this morning from the press 
that prompt me to say something that is not in my notes, but I 
think it is important to remember, particularly in the context 
of this Committee, this Subcommittee, and that is that the 
issue that we are facing in the country here is not an issue 
about immigration. It is an issue about evil. Immigrants are 
not terrorists. Immigrants are people who want to come to this 
country to share in this country and to contribute.
    The people that we are talking about, the hijackers, they 
weren't immigrants. They were non-immigrants. They were people 
who were coming trying to visit our country to do damage. There 
are millions and millions and millions of people who want to 
come to this country not as immigrants but as visitors. And we 
have to control our borders to make sure that those kinds of 
people, obviously an immigrant, somebody who wants to emigrate 
to do harm, we obviously need to know who they are, too. But we 
need to keep this in the context that immigration is not a bad 
thing, that immigrants are not terrorists. There may be some 
among their groups, but we don't need to lump all immigrants 
into this, and I think that is an attitude that I see 
developing, at least among the press, based on the questions I 
am hearing. And I just think we need to keep that in context.
    When I started this job 2 months ago, I was looking for a 
big challenge, but I had no idea that I was going to get the 
challenge that I face, the turn that has come. When the 
President gave me a goal or gave me some goals for this 
agency--and I think I talked to each one of you about taking 
this job--there were three things that really needed to be 
done: one was to restructure the organization in a way that it 
could fulfill its enforcement and service missions more 
appropriately and more efficiently; secondly was to modernize 
the management processes and structures so that it could carry 
out those missions; and thirdly was to modernize and 
synchronize the technology infrastructure of the INS so that it 
also could do a better job at carrying out its missions.
    Well, I have to tell you, from my point of view the mission 
that was set before me before September 11th is exactly the 
same mission today, and that is, the only way we are going to 
help protect the American people from the kind of evil that we 
saw on September the 11th is to have a more efficient and 
effective government and to have a more efficient and 
efficiency Immigration and Naturalization Service.
    I think it is worth noting that the INS bears a very heavy 
burden that most Americans don't realize. We share a 
responsibility at the ports of entry with the Custom Service 
and vetting people and things that come across those borders. 
But between those ports of entry, the 6,000 miles of border 
that we have, land border that we have in this country, the INS 
has sole responsibility for patrolling that.
    People don't realize that we have more than 500 million--I 
think it was 530 million people cross our borders every year. 
That is a staggering number. And, frankly, about 350 million of 
them are non-U.S. citizens, so there are another 175 million 
U.S. citizens that cross. But 350 million non-U.S. citizens 
cross our borders every year. And most of the people come over 
here through visa waiver programs or other exemptions. So they 
never have shown up at one of Mary Ryan's places to get a visa. 
They come under other programs.
    Most Americans don't realize that we have got less than 
5,000 inspectors throughout the entire world in the INS to 
process these hundreds of millions of people who want to come 
to this country. Most people don't realize that we have about 
2,000 intelligence officers and investigators who are charged 
with the responsibility around the world of dealing with 
undocumented aliens, overstays, smuggling, human smuggling 
rings, and criminal aliens that are among us. That is 2,000 for 
a huge number of people.
    As I noted, this is a very heavy burden to bear.
    Without a doubt, the tragic events of September 11th have 
focused the Nation and the Congress on the management of our 
borders. I have got to tell you, Mr. Chairman, that the INS is 
a willing, enthusiastic, and cooperative partner in this fight 
against terrorism. I believe that we have the will, we have got 
the determination, and with your help we will have the human 
and other resources necessary to meet that challenge. But we 
are moving ahead. We are not waiting for people to tell us what 
to do.
    For one thing, let me tell you that, first, we are going to 
present to you probably next week a reorganization plan at the 
INS. I am moving forward with those goals, notwithstanding what 
occurred on September 11th, and we are going to present to you 
a reorganization plan that has now been approved by the 
Attorney General personally. It is in the process of being 
approved at OMB, and it is substantial and it is significant in 
terms of the way we will do our business at the INS.
    In the technology area, we are moving very rapidly to 
engage force multipliers so that we can do our job better. We 
are developing an enterprise architecture plan that is based 
upon a study and a design that we worked out with GAO. I might 
add that the GAO used us as a guinea pig to design and approach 
the enterprise architecture throughout the Government. We are 
the original organization that will be using this structure to 
design the enterprise architecture.
    But we are not waiting for that plan to be in place in 
terms of developing our technology. We are presently going 
forward using an investment review board process, an interim 
technology enterprise architecture structure to start building 
our technology that will fit on this platform, that will be 
hopefully interrelated with all the other Government agencies.
    Mr. Chairman, with your support--and you talked about the 
SEVIS system, and I know that is important to everyone on this 
panel. The SEVIS system is the student tracking system which I 
think was also known as CIPRIS at one point. It has been the 
product of a lot of controversy up until recently. There was a 
lot of opposition to it from the academic establishment. There 
was opposition in Congress because of the fees and that sort of 
thing. That is a system that, with your help, with some 
appropriations, we can get started moving that system forward, 
and we can beat the deadline or meet the deadline, certainly, 
that the Congress set originally of 2003.
    Mr. Chairman, you mentioned in your opening remarks the 
number of institutions that are involved in that system or that 
can issue I-20s for students. That is a huge issue. There are 
almost 74,000 institutions in this country that can issue I-
20s, and we have never really screened them out or done 
anything like to see who is it that is actually issuing I-20s 
and bringing students in.
    I can tell you, last week I started the information-
gathering process that we can start screening and qualifying 
these people. I think that is a huge issue, and it is something 
that we are very focused on.
    Mr. Chairman, we are integrating our various enforcement 
databases into something called the ENFORCE system. One of the 
criticisms, and a legitimate criticism, of the INS and other 
institutions in our Government is that we have databases all 
over the place, but nobody knows what data the other people 
have, a bunch of stovepipes. That is true in the INS. There is 
no question about it.
    We are in the process of developing an overall database, if 
you will, called ENFORCE where all of this information we have 
lodged in all these different places will go into that ENFORCE 
system.
    We already have integrated that with our IDENT system, 
which is a biometric identification system. People get IDENT 
and other things confused. They think IDENT is a database. It 
is not. It is an identification system that tells us who this 
person is that we have in front of us; then what you need to 
know once you figure out who the person is, what do you know 
about that person. And that is what we have done. We have 
integrated those, and we are trying to integrate all of our 
database systems, and we are making a lot of progress at doing 
that.
    The so-called IAFIS system, which is the FBI system, which 
is a ten-print I.D. system, is also being integrated with the 
IDENT system pursuant to the instructions of the Congress. We 
are making some pretty good progress on that. We are going to 
be rolling out our first transitional work station on the 
IDENT/IAFIS system. We will be doing that very shortly, and 
that will take us ultimately to an integration of those two 
systems.
    The entry/exit system that you mentioned that I have been 
very interested in, again, we are on track to have that system 
up and running by the congressionally mandated 2003, and we are 
going to use the IBIS system, which Mary Ryan referred to, as 
our platform for the entry/exit system. That will be a very 
good tool for us in terms of tracking people who are in 
overstay status.
    As I have mentioned a number of times, the idea that people 
that overstay, that we can somehow track them, given the number 
of people that come into this country, is pretty hard to do 
unless we want to put somebody on everybody who is in the 
country or if we want to plant a chip in their or something 
like that. That is not possible. But we do need better 
information about who these people are and the fact that they 
have overstayed, and that is what the entry/exit system will 
do.
    With your help, we can complete the border crossing card 
system, and with your help, we can expand the IDENT system 
which has been stalled since the year 2000 because of some 
moratorium and some other things that have been imposed upon 
us.
    Mary Ryan mentioned, Mr. Chairman, that we came to an 
agreement last week to deploy the Consolidated Consular 
Database to all of our ports of entry out of the State 
Department system. This is a good example of working together. 
That system, which is a facial recognition system or a digital 
photographic system, is going to be deployed, and it is going 
to be deployed within the next 3 months to all of our ports of 
entry. It will substantially enhance our ability to detect 
fraud and to figure out if the people we have in front of us 
are really the people who they say they are.
    Mr. Chairman, just a couple of other things. I know my time 
has long since run out. We need to do some other things, and I 
have included a bunch of them in my testimony. But some of them 
are to substantially increase the number of our Border Patrol 
agents, our intelligence officers, and our investigators and 
our inspectors. We have got to have more of those people if we 
are going to do our job.
    We need to require air carriers--and you mentioned this--to 
provide us with advance passenger information so that even 
before somebody boards, we know who is getting on that plane, 
or at least from the name point of view we know who is getting 
on that plane; and then after the plane takes off, to confirm 
who is on that plane so that by the time they get to a port of 
entry, we have some information that we can gather on those 
folks.
    Finally--and this is extremely important, and Senator 
Cantwell mentioned this, and I can't emphasize it enough 
because I know Mary Ryan and I feel very strongly about this, 
and that is, cooperation among Government agencies, 
intelligence agencies, information-gathering agencies, and 
those kinds of agencies. The sharing of data and making that 
data available to all people interested in this process is 
absolutely critical for us to have a good line of defense 
against people who are coming into this country who want to do 
harm to our country.
    Mr. Chairman, we have got to increase security. There is no 
question about that. But in doing that, we must not forget 
those things that made our country truly great. It is our 
openness to new ideas and to new people, a commitment to 
individual civil liberties, shared values, innovation, and the 
free market. If in response to the events of September 11th we 
sacrifice those things in search of security, the terrorists 
will have won. And in the end, we will be left with neither 
security nor freedom.
    Thank you, Mr. Chairman. I appreciate it.
    [The prepared statement of Mr. Ziglar follows:]

      Statement of James W. Ziglar, Commissioner, Immigration and 
                         Naturalization Service

    Chairman and Members of the Committee, I want to thank you for the 
opportunity to testify on the topic of ``Effective Immigration Controls 
to Deter Terrorism.'' I am always pleased to return to the Senate. I 
shall always be grateful for the opportunity I had to serve as the 
Senate Sergeant at Arms from November 1998 to August 2001.
    Although I have served as Commissioner for only two months, I have 
not viewed that as a liability in responding to the tragic events of 
September 11, primarily because of the highly professional career 
public servants who have provided me with mature advice and assistance. 
These tragic events, however, have provided an opportunity for me to 
examine, with a fresh eye, the management, personnel, technology, and 
policy capabilities of the INS.
                       Steps to Improve Security
    Even before September 11, we were examining how we can improve the 
INS, at all levels, and especially in the area of technology. We 
recognize that technology is a huge ``force multiplier'' that we must 
employ effectively at the INS if we are to accomplish our mission.
    Pursuant to the mandates of the Clinger-Cohen legislation, in 
response to the recommendations of the General Accounting Office (GAO), 
and because it makes good business sense, the INS is currently in the 
process of developing its Enterprise Architecture. This project 
represents our long-term, strategically-oriented approach to 
accomplishing the information driven aspects of the INS mission. We 
began the planning for this project in October 2000 and I expect the 
final delivery of this project, the transition plan to our target 
architecture, to be ready at the beginning of the 3rd quarter of FY 
2002. In addition, as part of our overall restructuring initiative, I 
encouraged our employees at all levels to think ``outside the box'' as 
to how we can better accomplish our mission. They responded with a 
number of creative ideas, some of which we are still evaluating. 
However, within the context of what is already known to be ``doable'' 
and effective, we are considering a series of measures that would 
strengthen our enforcement capabilities. We are working within the 
Administration to determine how to implement these measures. Some of 
our ideas are as follows:
                             Border Patrol
    <bullet> As requested in the President's budget, increase the 
number of Border Patrol agents and support staff along the northern 
border, while not neglecting the continuing needs along the southwest 
border. Such increases should also include necessary facilities, 
infrastructure and vehicles.
    <bullet> Provide additional agent support equipment and technology 
enhancements. Unfortunately, neither the Senate nor the House currently 
is funding the President's request at $20 million for ``force 
multiplying technology.''
    <bullet> Expand access to biometric identification systems, such as 
IDENT.
                              Inspections
    <bullet> In the Inspections area, as we proposed in our FY 2002 
budget, we believe we should increase the number of Inspectors at our 
Ports of Entry.
    <bullet> Require inspection of all International-to-International 
Transit Passengers (ITI) so that all travelers who arrive in the United 
States are inspected.
                 Informatton and Technology Initiatives
    Require carriers to submit Advance Passenger Information before 
boarding passengers (whether the passenger is heading to the United 
States or attempting to depart the United States) to assist in 
preventing known or suspected terrorists, criminals, and inadmissible 
passengers from boarding.
    Make Advance Passenger Information data widely available to law 
enforcement agencies, enhancing the ability to identify potential 
threats prior to departure from or arrival in the United States, as 
well as to prevent the departure of individuals who may have committed 
crimes while in the United States.
    Implement the National Crime Information Center Interstate 
Identification Index (NCIC III) at all ports of entry so that aliens 
with criminal histories can be identified prior to or upon arrival in 
the United States. NCIC III should also be available at all consular 
posts, INS service centers and adjudication offices to help identify 
aliens who pose a potential threat.
    Improve lookout system checks for the adjudications of applications 
at INS service centers.
    Improve INS infrastructure and integration of all data systems so 
that data from all sources on aliens is accessible to inspectors, 
special agents, adjudicators, and other appropriate law enforcement 
agencies. This initiative is ongoing.
                            Personnel Issues
    Waive the calendar-year overtime cap for INS employees to increase 
the number of staff-hours available by increasing the overtime hours 
people can work. This proposal is included in the Administration's 
Anti-Terrorism Bill.
                           Other Initiatives
    Re-examine and potentially eliminate the Transit Without Visa 
Program (TWOV) and Progressive Clearance to prevent inadmissible 
international passengers from entering the United States.
    Reassess the designation of specific countries in the Visa Waiver 
Program to ensure that proper passport policies are in place. This 
initiative will require the concurrence of and joint participation by 
the Department of State.
    Explore alternative inspection systems that allow for facilitation 
of low risk travelers while focusing on high-risk travelers.
    And review the present listing of designated ports of entry, in 
concert with the U.S. Customs Service, to eliminate unnecessary ports. 
This will allow the INS to deploy more inspectors to fewer locations 
making for a more efficient use of resources.
                         Database Improvements
    In addition to the measures cited above, I have instructed my staff 
to move forward expeditiously on two database improvement projects 
mandated by Congress. While neither is a panacea, both would be an 
improvement over the status quo. First, there has been much attention 
paid to student visas in recent weeks. Today, the INS maintains limited 
records on foreign students and is able to access that information on 
demand. However, the information is on old technology platforms that 
are insufficient for today's need for rapid access. That is why we are 
moving forward with the Student Exchange Visitor Information System 
(SEVIS), formerly known as CIPRIS. Objections, primarily by the 
academic establishment, have delayed its development and deployment. 
However, with the events of September 11, that objection has virtually 
disappeared. INS, with your help, will meet the Congress' date of 
January 2003 to start implementation of SEVIS with respect to all 
foreign nationals holding student visas. I hasten to add that there is 
a critical need to concurrently review and revise the process by which 
foreign students gain admission to the United States through the I-20 
certification process as we build the system.
    Second, substantial attention also has been paid to entry and exit 
data. Currently, the INS collects data on the entry and exit of certain 
visitors. The data, most of which is provided to the INS in paper form 
to meet our manifest requirements, first must be transferred by hand 
from paper to an electronic database. This is an extremely inefficient 
way of processing data which delays access to the data by weeks and 
months. Knowing who has entered and who has departed our country in 
real time is an important element in enforcing our laws. The Data 
Management Improvement Act, passed in 2000, requires the INS to develop 
a fully-automated integrated entry-exit data collection system and 
deploy this system at airports and seaports by the end of 2003, the 50 
largest land ports of entry by the end of 2004, and completing the 
deployment to all other ports of entry by the end of 2005. The 
legislation also requires a private sector role to ensure that any 
systems developed to collect data do not harm tourism or trade.
    The INS already uses limited airline and cruise line data that is 
now provided voluntarily as an integral part of the inspection process 
at airports and seaports. We will work closely with Congress, other 
agencies, and the travel industry in the coming months to expand our 
access to needed data and to enhance our use of that data to ensure 
border security and more complete tracking of arrivals and departures.
    There has also been a great deal of focus on the databases used to 
identify persons who are inadmissible to the United States or who pose 
a threat to our country. The INS, the Customs Service, and the 
Department of State's Bureau of Consular Affairs have worked diligently 
over the past decade to provide our ports of entry and consular posts 
with access to data needed by our officers. The data contained in the 
National Automated Immigration Lookout System (NAILS), the Treasury 
Enforcement Communications System (TECS II), and the Consular Lookout 
and Support System (CLASS) are uniformly available to our ports of 
entry through a shared database called the Interagency Border 
Inspection System (IBIS) that is maintained on the U.S. Customs Service 
mainframe computer. Last week, I announced that INS and the Department 
of State have agreed to aggressively deploy the Consolidated Consular 
Database to INS ports-of-entry within the next three months. This will 
provide inspectors with the capability to verify rapidly and 
definitively the identity of visa-holders seeking admission to the 
United States. This new functionality will be provided to inspectors at 
ports-of-entry through the IBIS system.
    Through IBIS, the officers at our ports of entry can also access 
limited data from the National Crime Information Center (NCIC). 
Immigration and Customs officers have long had the capability to check 
NCIC wanted persons data on a limited basis. Only recently have 
immigration inspectors been authorized to routinely use NCIC criminal 
history data (NCIC III) to identify criminal aliens in advance of their 
arrival. This capacity now exists at two ports of entry. Before 
September 11, the INS was working to expand the availability of this 
valuable data source to additional locations. Legislation is being 
considered to ensure this expansion is successful. I strongly support 
this legislation.
    Many people who cross our land borders do so with a Border Crossing 
Card (BCC). The INS and State Department have been working aggressively 
over the past several years to replace the old Border Crossing Cards 
with the new biometric ``laser visa.'' Based on the statutory deadline, 
holders of the old BCC can no longer enter the country. The new BCC has 
many security features that make it a much more secure entry document.
    Both at and between our ports of entry, the INS has used a 
fingerprint identification system known as IDENT to track immigration 
violators. This system has provided the INS with a significant capacity 
to identify recidivists and impostors. Congress has directed the 
Department of Justice to integrate IDENT with access to the FBI's 
automated fingerprint system, IAFIS, and we have been proceeding toward 
that objective with the FBI and under the Department's direction.
                        The Limits of Technology
    There is no quick fix, technological or otherwise, to the problems 
we face. We must work with advanced technology and do all we can to 
improve our systems. But we should not mislead ourselves into thinking 
that technology alone can solve our problems. Technology must be 
coupled with a strong intelligence and information-gathering and 
distribution system if we are to leverage our resources and maximize 
our capabilities. That will require the seamless cooperation among the 
many government agencies involved.
    It should be noted that more than five hundred million inspections 
are conducted at our ports of entry every year, and hundreds of 
millions of people enter the United States without visas, either 
because they are U.S. citizens, through visa waiver programs, or other 
exemptions from the normal visa process; the INS has only 4,775 
Inspectors to process these hundreds of millions of visitors and 
approximately 2,000 investigators and intelligence agents throughout 
the country who are available to deal with persons who have entered 
illegally, are criminal aliens, or have overstayed their visas or 
otherwise have violated the terms of their status as visitors in the 
United States.
    If we are to meet the challenges of the future, we need to make 
changes at the INS and we are in the process of making those changes. 
The structure of the organization and the management systems that we 
have in place are outdated and, in many respects, inadequate for the 
challenges we face. Our information technology systems and related 
processes must be improved in order to ensure timely and accurate 
determinations with respect to those who wish to enter our country and 
those who wish to apply for benefits under our immigrations laws. The 
management restructuring of the INS is on its way--a mandate the 
President and the Congress have given me--and the improvement of our 
information technology systems is moving ahead and can be accomplished 
with the help and support of Congress.
    Mr. Chairman, I would like to say one word about INS employees and 
the events of September 11. Within hours of the attacks, the INS was 
working closely with the FBI to help determine who perpetrated these 
crimes and to bring those people to justice. Within 24 hours, under 
``Operation Safe Passage,'' The INS deployed several hundred Border 
Patrol agents to eight major U.S. airports to increase security, 
prevent further terrorist incidents and restore a sense of trust to the 
traveling public. At America's ports of entry, INS inspectors continue 
to work tirelessly to inspect arriving visitors, while ensuring the 
flow of legitimate commerce and tourism. Meanwhile, despite the 
tragedies and the disruptions, our service operations have managed to 
complete over 35,000 naturalizations nationwide and process thousands 
of other applications since September 11. America should be proud of 
the extraordinary effort of these men and women.
                             Looking Ahead
    It has been said that after September 11 ``everything has 
changed.'' I hope that is not true. America must remain America, a 
symbol of freedom and a beacon of hope to those who seek a better life 
for themselves and their children. We must increase our security and 
improve our systems but in doing so we must not forget what has made 
this nation great--our openness to new ideas and new people, and a 
commitment to individual freedom, shared values, innovation and the 
free market. If, in response to the events of September 11, we engage 
in excess and shut out what has made America great, then we will have 
given the terrorists a far greater victory than they could have hoped 
to achieve.
    Thank you for this opportunity to appear, Mr. Chairman. I look 
forward to your questions.

    Chairman Kennedy. Thank you very much, Mr. Ziglar, for your 
very comprehensive testimony.
    We have a very important and interesting panel that will be 
following this panel, so we will use 7-minute rounds in this 
time.
    Mr. Ziglar, the media has reported that hundreds of foreign 
nationals have been detained by the INS and FBI since the 
morning of September 11th, and many are suspected of having 
ties to Al Qaeda or other terrorist organizations. Others are 
described as material witnesses. But the category includes 
people who may have been neighbors of the hijackers or have 
other possible associations that may well be innocent.
    What can you tell us about the cautions the INS and 
Department of Justice are taking to ensure that the basic 
rights of innocent persons swept up in the early stages of the 
investigation are being adequately protected?
    Mr. Ziglar. Mr. Chairman, we have been--let me back into 
the answer. We have been releasing a number of people based 
upon the information provided us by the FBI and based upon 
investigations and that sort of thing. And the number of people 
that we have in detention roughly is about 146, I think as we 
speak today, and that has, of course, come down from the 
numbers that you may have seen in the past.
    That is the INS custody. I can't speak for the warrants and 
the other part of the process which we are not involved in.
    We have a process that we have to charge somebody within 48 
hours, and so that we have given notice to the court that we 
have someone and we charge them, and they are then entitled to 
a bond hearing. Those people that have gone forward on bond 
hearings, in some cases it has been continued. In some cases, 
judges have allowed us to continue to detain people.
    There are reasons for detention of somebody who is out of 
status. You have to remember that these people, all these 
people, are out of status. They are not here legally at the 
moment.
    One of the reasons for continuing detention is to--
    Chairman Kennedy. All the people, then, that the INS has 
detained are not here legally?
    Mr. Ziglar. To my knowledge, everyone is out of status. If 
that is not true, I will let you know, but that is my 
knowledge.
    One of the issues, of course, in whether you detain 
somebody is whether there is a flight risk, and way before 
September 11th, flight risk was always a big problem if you had 
somebody out of status and they were trying to stay here. So 
that is one of the grounds for staying. If they are a potential 
harm to the community, that is another ground. Obviously if 
they are aggravated felons under the 1996 Act, that is yet 
another ground.
    Mr. Chairman, you know about me. I am big on due process 
and I am big on civil liberties and that sort of things. And 
certainly under my administration here, I am doing my best to 
make sure that people's civil liberties are not violated and, 
more importantly, that the process is honored, even though we 
have a crisis on our hands.
    To my knowledge, we are going through the process, and we 
are keeping people in the process from the INS perspective. I 
can't talk about the rest of what is going on elsewhere because 
I don't know.
    Chairman Kennedy. So your answer, as I understand it, is 
that they are out of status, that they are here illegally, and 
that you are following the same kinds of procedures with 
regards to them that were in place prior to September 11th.
    Mr. Ziglar. Absolutely.
    Chairman Kennedy. Let me come back to Mary Ryan. In the 
time I have available, there are a number of items, so I will 
try and ask the questions quickly, and if we get the response 
as well.
    I am interested in your reaction to the development of a 
consular corps. I think many of us have known that those that 
have been in the area of that responsibility have been 
wonderfully dedicated people, in many instances younger members 
of the corps. It is a very, very tough, demanding job, and it 
is not one that has offered great opportunities for career 
advancement and otherwise. And one of the suggestions from one 
of our colleagues that has been thought about, Senator Bob 
Graham of Florida talked about the development of a consular 
corps that would not be greatly dissimilar from the Corps of 
Engineers in the military. It is a separate career, and there 
is a lot of professionalism, and there is a good deal of 
satisfaction developed through there, and esprit as well.
    I wanted to get your reaction.
    Ms. Ryan. Senator, I would argue with you that that is 
probably not the best way to go. I think what we have now in 
the Foreign Service is a generalist corps. We have four 
specializations, one of which is consular, and the people who 
are doing that work are proud of being Foreign Service officers 
and proud of being consular cone officers.
    I think that if you went to a consular corps, in fact, you 
would even further limit career opportunities for those people 
in the corps. Right now we are getting more--not quite yet our 
share, I would argue, but more of the opportunities to serve as 
ambassadors and as assistant Secretaries, as deputy chiefs of 
mission, and as principal officers. And I think to take us out 
of the State Department and the Foreign Service and put us into 
another area would limit those opportunities considerably. You 
would not be able to hope for an ambassadorial assignment if 
you were in the consular corps separate from the State 
Department and separate from the Foreign Service.
    I hear a lot of talk about how our newer officers, our 
younger officers don't like the work, and I am sure that that 
is one of the concerns that you have and others have. But I 
would say to you, Senator, that they do the work with 
dedication and commitment. And they are proud to do the work. 
They are patriots. We don't talk about Government employees 
very much anymore as patriots, and I think we have to start 
talking about it again.
    It has been a long time since President Kennedy challenged 
my generation about the nobility of public service, and still 
we get really talented, really wonderful people to come into 
our Government and to come into the Foreign Service, into the 
civil service. And they don't come for the money. As you well 
know, the salaries are very low, and particularly at the lower 
grades, and a lot of these people have very big student loans 
to repay. And they don't come for prestige because, frankly, 
Senator, Mr. Chairman, there is no more prestige in serving in 
the Government, unfortunately. It has been a long time since 
anybody talked about public service and the need to serve our 
country and give something back to our country, which has 
nurtured us and supported us and protected us. And I hope that 
out of this tragedy of September 11th we start hearing more 
call for people to join the Government and join in the fight 
against terrorism.
    Chairman Kennedy. Well, I think that is a wonderful 
expression, and I think you deserve great credit, 35 years in 
the service of our country. We have had a good opportunity to 
work with you over a long period of that time. I personally 
have high regard for you and for the work that you have done.
    The real question is how we get support for the consular 
corps, obviously in intelligence, which you have raised, and 
all the rest. But this is an issue about how we can make sure, 
in this process to use all our assets--our experience, the best 
in technology, and our intelligence. Out of that 550 million, 
we are talking about those handful of people that are out 
there, and we want and need the best in terms of technology to 
be able to use intelligence and experience <plus-minus>to 
protect our nation. And we need to examine all of these issues 
to do that. But I appreciate your references.
    My time is up, but I am still going to ask the question. On 
the time for adopting the machine-readable passports, I want to 
get your answer quickly on that. Then I had a question for Mr. 
Ziglar, we collect resources to be able to use from the fees of 
immigrants, and we are using those fees for our new technology. 
Is that the way we want to try and fund it? With the challenge 
that we are facing now, should we depend upon those fees to be 
able to bring your agency up to the kind of full speed ahead in 
terms of the newer technologies? I would just ask those two 
questions. I will hear from Mary Ryan first.
    Ms. Ryan. Senator, on the first question about machine-
readable passports, I think you mean in connection with the 
visa waiver program. Is that right, sir?
    Chairman Kennedy. Yes.
    Ms. Ryan. Every country that is in the visa waiver program 
has a machine-readable passport now, except for Switzerland, 
which is going to introduce the machine-readable passport in 
2003. But all the others have machine-readable passports, and 
they are issuing them now to their citizens.
    The other question on visa fees, Mr. Chairman, I am 
enormously grateful to the Congress for giving us the 
authorization in fiscal year 1994 to charge a fee and to keep 
the money, because that has made all the difference in how we 
are able to do our work, a tremendous boost for us in consular 
operations.
    We would have collapsed in the 1990s without that money, 
and this is money that the alien pays to apply for a non-
immigrant visa. So all the money--and it is now a fortune; it 
is about $400 million a year--comes from aliens paying for the 
privilege of applying for a visa. And that means no taxpayer 
money has been used for our improvements. And we have automated 
the world. We are online. Every visa post has online 
connectivity to our CLASS database in real-time. And we can get 
instant information from it. As long as the information is in 
there, we can provide the consular officer in the field, no 
matter where he or she is, with this information instantly. And 
it is thanks to the wisdom of the Congress in giving us this 
authorization to charge and keep this money and our ability to 
spend it wisely.
    Chairman Kennedy. You don't want to talk about it too much 
because someone will try and get their hands on it.
    [Laughter.]
    Mr. Ziglar. Mr. Chairman, I am really glad you asked that 
question, and I can talk about it for a long time, but the 
answer is that if we want to develop our technology base, 
whether it is the SEVIS system or anything else, we simply have 
got to have the money up front to do it. Paying it on a pay-as-
you-go basis, a revenue-as-you-go basis is very, very difficult 
because, as you know, you have got to have the money in the 
bank before you can commit under the Federal rules.
    So if we don't have the money, we can't commit, and that 
means that we drag these projects out over a very long time. 
Appropriated money up front and preferably no-year money so 
that we can make these commitments beyond one year would be 
extremely helpful to expediting the process. And even if you 
want us to pay it back, I mean, make us a loan, but we need the 
money to get going.
    Chairman Kennedy. Very good. Thank you.
    Senator Brownback?
    Senator Brownback. Thank you, Mr. Chairman. I find so many 
statements here that I agree with and a lot of questions that I 
have at the same time.
    I want to thank you for your comments, Ms. Ryan, about the 
nobility of public service. I met with my staff this morning 
and mentioned to them that the terrorism war on the United 
States, if I could put it that way, has been going on for 10 
years and the front line has been our diplomatic corps and our 
men and women overseas. And on September 11th it reached our 
shores, and right now the front line is the Hart Office 
Building and in places here that it is taking place. There is a 
true beauty and nobility of that service, and I appreciate your 
mentioning that.
    I also want to say to Mr. Ziglar, I appreciate his comments 
about the problem here, and not to cast all immigrants into 
this stew, we had a few people, non-immigrant visas that were 
issued here, that sought to do us harm and, unfortunately, 
accomplished that. But let's not compromise our values or our 
economy in a process of dealing with this. So that is why the 
issue becomes, I guess, far trickier and more difficult to hone 
in on.
    But that is what I want to try to do, and that is what we 
are working on in the legislation that we have here. And I 
would invite all of your input to us, as we try to craft this 
and get this out in a quick fashion, as to what is it that we 
need to do and what we need to be putting forward.
    On a primary note, first and foremost, you talk about 
information sharing and the stovepipes that are currently in 
place. Are each of you confident that we are getting those 
stovepipes broken down and the information being shared in a 
timely fashion? And if not, what are the problems?
    Mr. Ziglar. Senator, I would have to say this: You have got 
to remember, I haven't been down there but 2 months. I did have 
a month's experience before all of this happened. It was clear 
to me that there was a lot of information holding and not 
sharing among a lot of agencies. That has gotten a whole lot 
better since September the 11th on what I would have to regard 
as a patchwork basis, and Mary can certainly speak for herself 
as to how she feels about it.
    I think there is a slow but inevitable cultural change 
going on that says that we can't have this happen again, and if 
sharing of information--or lack of sharing of information was 
one of the problems, we have got to get over it and quit 
playing bureaucratic games with information.
    I think we are getting there, but I think there is a long 
way to go. Certainly at the ports of entry and at the consular 
offices around the world, we need a lot more information from 
intelligence agencies and law enforcement agencies that we can 
access on a real-time basis to determine whether the person 
standing in front of us is somebody who should not be here, is 
inadmissible to the United States.
    I think Ambassador Ryan certainly made that point in her 
testimony. I couldn't endorse what she said more strongly.
    Senator Brownback. Ambassador Ryan, are the stovepipes 
being broke down?
    Ms. Ryan. I hope that the Commissioner is right about the 
stovepipes are being broken down. I am not completely confident 
that they are. I think that there is still a very great concern 
among the intelligence and law enforcement agencies about 
protection of sources and methods, which I would think after 
September 11th has to give way to concern for protection of 
lives.
    We are the front lines. The consular officer overseas is 
the front line of defense of this Nation. We are the outer ring 
of border security, and we have been trying, for example, for 
quite a long time to get FBI NCIC III access. And we were 
denied over and over again because we are not a law enforcement 
agency. I think that has to change. I think there has to be a 
recognition that we are on the front lines, that we have a 
responsibility to protect our Nation just as they do, and that 
they have to give us the information. I don't really care how 
they do it or what sort of code system they want to use to 
protect the information, but they have to give us the 
information.
    Senator Brownback. Did we know about these gentlemen that 
were involved in the terrorist activities from some of our 
intelligence community information that wasn't shared with 
State or INS?
    Ms. Ryan. Senator, I don't know that. What I do know is 
that we had no information whatsoever on those 19. I don't know 
whether--
    Senator Brownback. The State Department did not.
    Ms. Ryan. The State Department had no information. In our 
CLASS lookout--
    Senator Brownback. Do we have it in other places in the 
Government--
    Ms. Ryan. --we had nothing on them. I don't know whether 
that means there was no information or whether the information 
was not shared with us. I just know we had nothing on any of 
the 19.
    Senator Brownback. Mr. Ziglar?
    Mr. Ziglar. The same is true with us. Now, whether there 
was other information someplace else, I don't know the answer 
to that either, like Ambassador Ryan. But we didn't.
    Senator Brownback. It seems like that is something that--
    Chairman Kennedy. If the Senator would yield, does the 
Central Intelligence Agency give you names of terrorists?
    Ms. Ryan. The Intelligence Agency does give us names 
through the Visas Viper program and through TIPOFF, which is 
run by our intelligence and research bureau. And, in fact, they 
have given us thousands of names over the years, since we set 
up that program. But they don't give us--in my opinion, we do 
not get all the information.
    Senator Brownback. Well, if I could interrupt you as well, 
as I understand, Ambassador Ryan, they give you information but 
it is on a haphazard basis. It is not necessarily a timely 
basis. You may get it a month or 2 months after it is acquired. 
And so there is no system, and it really is a patchwork and 
almost kind of a ``who do you know'' type of system that has 
been in place. Is that correct?
    Ms. Ryan. It is not as effective as I think it should be. 
For example, on a couple of the terrorists, we were given names 
in August and asked to revoke visas. And when we looked at what 
they gave us, we had no information on one, one had been 
refused a visa, and two had been issued. One visa had already 
expired. And that was in August.
    I don't know when they had that information. I don't know 
when they got that information. But you do wonder, if they knew 
it in August, when they might have known it earlier than 
August.
    Senator Brownback. My point in this--and I am sensing your 
frustration, having been around this for some period of time--
is that with the front line of the war on terrorism being on 
our shores here, in New York City and Washington and Nevada, in 
places all across this country, the issue of protection of 
sources and methods within the intelligence community, which I 
fully support and I think is appropriate, but we have got to be 
able to design some system that, if the terrorist is the person 
that tries to move in amongst us and blow themselves up along 
with a number of us at the same time, then we have got to try 
and find that needle and have all the information absolutely 
available.
    Mr. Ziglar's point about we have 350 million entrants, non-
U.S. citizens, across our border every year and that we are 
looking for a dozen, 50, something like that, seeking to do us 
harm, that is more than the proverbial needle in a haystack. 
And so the information sharing that we have to have is probably 
the most critical component of our protection of ourselves in 
this war on terrorism.
    Mr. Ziglar. Senator, let me make one point. There is no 
silver bullet. A lot of these folks that were involved in this 
thing were young, had no records; there was no intelligence to 
gather on them. They had been recruited at very young ages. 
They had never been in trouble. So there may never be any 
information on them because there is no information to gather. 
So you are faced with a faceless enemy sometimes.
    Now, obviously there are other situations where you may be 
able to gather information about people. So it is not a silver 
bullet. If we shared every piece of information we had with 
every Government agency everywhere, we might still not be able 
to detect everybody who intends to come here and do harm to us.
    Senator Brownback. But we could do a lot better.
    Mr. Ziglar. We can do a lot better, absolutely, and we need 
to. But I just want to make sure that people don't think that 
there is a silver bullet that will absolutely protect us.
    Senator Brownback. I think I am more looking for a magnet 
for that needle in the haystack.
    A couple quick comments, and then I will pass along. One is 
on this biometrics system for people coming into the country, 
which I think is very important and I hope we can speed its 
implementation. You gave some time lines on that which I might 
want to discuss with you.
    We just had the Deputy Prime Minister of Canada in, and we 
were talking about standardizing how we would do the biometrics 
testing, because apparently different countries are looking at 
different ways, in particular as we look at a North American 
perimeter in all probability, that we need to be working 
closely with the Canadians and Mexicans, the Mexican 
Government, at least on establishing that standardization and 
doing so in a quick fashion.
    I applaud your looking at the number of schools that can 
authorize student visas and their standard reviews. At 
Pittsburg State University in my State of Kansas over the 
weekend, the President was talking about the international 
students there, a wonderful gift to the school, really, because 
it really helps them and it is a diverse population that they 
really like. But then also I hear of stories of other places, 
and I am really questioning that. So I am glad you are looking 
into that.
    Finally, God bless you all. This is a tough task, but you 
are all up to it, and I really appreciate your coming forth 
here. You help inspire confidence in us, and I think in the 
people, that we are on top of this and we are hardening our 
targets here at home at the front line, the programs we are 
doing of who gets into the United States, and yet still not 
compromising our values or our economy.
    Ms. Ryan. Thank you, Senator.
    Chairman Kennedy. Senator Grassley?
    Senator Grassley. Yes, thank you very much.
    This talk about a silver bullet--and I don't disagree with 
what Mr. Ziglar said, but it reminds me of a certain lethargy 
we have in Government of willingness to share information. And 
I think the terrorist attack just surfaced a problem that 
permeates Government over a long period of time, that somehow, 
you know, the CIA or any agency this could apply to, but the 
CIA, it is our work and we have got certain information. It is 
almost like we have got a proprietary right to it, and some 
other agency has got their work and their proprietary interest 
in it. And instead of having an attitude we ought to have--and 
I think we are getting this attitude now along the lines of 
what Ms. Ryan says, that there is an attitude of cooperation 
and patriotism and public service, that this isn't this 
agency's work and our property and this agency's property, but 
it is the property of the American people, and we are all in 
this boat together. And under the circumstances we are in right 
now, we might sink or swim together. So I guess we have got to 
change the bureaucratic attitude that has been there for a long 
period of time.
    Along this line, I want to ask my first question of Mr. 
Ziglar, and I go back to your confirmation hearing. I asked 
about the information sharing between the Immigration Service 
and the Internal Revenue Service. I was told that your agency 
does not verify tax information from immigrants with the IRS, 
particularly the matter of whether the immigrants are paying 
taxes. The INS needs to work with the IRS, I believe, in regard 
to immigrants who come to this country on work visas. The INS 
should work with the IRS to verify an immigrant is actually 
working. If the immigrant on a work visa is not working, the 
INS needs to have him tracked down, just like we track down 
foreign students who don't show up at their designated school.
    The Internal Revenue Service has certain data that can be 
extremely useful to all law enforcement, particularly the INS, 
in its efforts to track down violators. So I am asking you 
today to make sure that the appropriate information from the 
IRS is being pursued by the INS. No one knows if any of this 
would have stopped the attacks of September the 11th. They are 
obviously not a silver bullet. But we need to make sure that we 
work to prevent terrorism with every weapon that we have.
    So I would like to know whether you agree with me on this 
matter and what you can do with the IRS information to better 
make use of it and what limitations there are that might 
prevent you from getting the IRS information you need, assuming 
that you don't have to change law--or maybe you do have to 
change law.
    Mr. Ziglar. Well, Senator, I couldn't agree with you more 
that the exchange of information and that particular kind of 
information could very well be very valuable in a law 
enforcement or immigration law enforcement context.
    At the time of my confirmation hearing, you and I know 
Senator Kennedy and a number of other members of the Committee 
asked me to look into a number of things, which I was doing 
during the course of my first month there, and September 11th 
came along and I have not focused on some of those questions. 
But I can tell you this: In terms of this investigation, I have 
noted the presence of the Treasury Department, the IRS in that 
context. And it is something that I believe that going forward, 
certainly from our perspective, will be valuable information 
for us to know, particularly as hopefully we ramp up our 
efforts to identify those people who are overstaying their 
visas, for example,, or overstaying their welcome, if you will, 
and identifying them and using that potentially as a way of--I 
hate to use the words ``tracking them down,'' but tracking them 
down.
    Senator Grassley. Would you be able to maybe look into my 
specific questions and then give me an answer in writing, maybe 
in 5 days? Would that be--
    Mr. Ziglar. Yes, I will do my best, sir.
    Senator Grassley. Thank you.
    Also, in your testimony before the House Subcommittee on 
Immigration, you mentioned the database system called ENFORCE, 
which draws on other databases that the INS has. Could you give 
us more detail about that technology and if the database would 
improve data sharing within the agency?
    Mr. Ziglar. I would be happy to talk to you about that 
because I am excited about what we are doing. ENFORCE is, for 
lack of a better technical terms, is a consolidating program, a 
consolidating database that draws from the many databases we 
have in the enforcement side of the INS. But, more importantly, 
or as importantly, it also has the capacity to reach out and 
access the databases of other Government agencies. For example, 
we could reach out and get data from the Department of State 
and bring it into our system so that we have one place where we 
can go and find out information about whoever it is.
    That system, the ENFORCE system, which is, you know, 
cutting-edge from our point of view, it is trying to deal with 
the stovepipe effect of having all this information in one--
getting it in one place instead of having it in a hundred 
different places. It has also been integrated with our IDENT 
system. Now, the IDENT system is one that--it is a fingerprint 
system, a biometric system, and as we pick up people or in 
certain circumstances we get their fingerprints, it goes into 
this electronic database. Somebody can show up in front of us. 
We put their fingers into this reader. It tells us who they 
are. That doesn't necessarily tell us anything about them.
    We then go to ENFORCE through this same system, and that 
gathers the information from all of our databases as well as 
reaching outside.
    Now, is it fully functional yet? No, it is not. We are 
taking our different stovepipe modules, if you will, and 
integrating them into ENFORCE as we speak. We were doing that 
before September the 11th. This is not something that we are 
hurrying up and trying to get done as a result of September 
11th. It is something the INS was doing before.
    And if I could just make one point, I know the INS has 
taken a lot of heat for a lot of things and a lot of criticism, 
and a lot of it has been justified, and the people there will 
tell you it has been justified. But an awful lot of real 
progress has been made at that organization to address the 
technology, to address the information issue, to address the 
management issues there. And I found the organization a much 
better organization than was painted to me as I was going 
through the confirmation and the people there are very 
dedicated. They want to do the right thing, and they have done 
the right thing, in my view, certainly since September 11th. 
They have performed superbly, magnificently.
    Senator Grassley. Thank you, Mr. Chairman.
    Chairman Kennedy. Thank you. Thank you very much.
    We appreciate all of your testimony and responses to 
questions. We will be continuing. We look forward to working 
with you.
    Mr. Ziglar. Thank you.
    Ms. Ryan. Thank you.
    Mr. Gutierrez. Thank you, Mr. Chairman.
    Chairman Kennedy. It is a privilege to introduce our second 
panel: Jeanne Butterfield, executive director, American 
Immigration Lawyers Association, an American immigration law 
foundation; Demetrios Papademetriou, who is co-director and co-
founder of the Migration Policy Institute; and Richard Norton, 
who is executive director of the International Biometric 
Industry Association.
    Jeanne Butterfield has been a strong advocate for fair and 
efficient immigration laws for many years. Before joining the 
American Immigration Lawyers, she served as legal director of 
Centro Presente, a Central American refugee center in Boston, 
and worked in private immigration law practice. She is an 
expert in a wide range of immigration challenges, including 
family- and employment-based immigration issues, and refugee 
and asylum issues. She has extensive experience working with 
government agencies to ensure the fair and effective 
implementation of our immigration laws and regulations.
    Dr. Papademetriou helped establish the Migration Policy 
Institute. Before that, he was a Senior Associate at the 
Carnegie Endowment for International Peace, where he directed 
the International Migration Policy Program. He has impressive 
experience dealing with North American border issues, migration 
management, and many other major immigrant issues. He recently 
co-authored a book entitled, ``Caught in the Middle: Border 
Communities in an Era of Globalization.'' In addition the 
Migration Policy Institute has recently published an extensive 
paper called ``Immigration and National Security'' discussing 
immigration reforms in light of the terrorist attacks.
    Richard Norton founded the International Biometric Industry 
Association in 1998 to represent the interests industry 
manufacturers in the use of biometric technology; executive 
vice president of Identification Technology Partners; 
previously a consultant on border control technology, served 19 
years at the Immigration and Naturalization Service, been a 
leader on border control for many years, advising airlines, 
airports, governments, and technology providers on biometric 
technologies.
    I thank all of you for being here. Ms. Butterfield, we look 
forward to your testimony.

    STATEMENT OF JEANNE A. BUTTERFIELD, EXECUTIVE DIRECTOR, 
   AMERICAN IMMIGRATION LAWYERS ASSOCIATION, WASHINGTON, D.C.

    Ms. Butterfield. Thank you very much, Mr. Chairman, and 
distinguished members of the Subcommittee. I really appreciate 
this opportunity to present my views on current U.S. 
immigration policy, and I hope that my written testimony 
provides some useful perspectives on how we can develop--
    Chairman Kennedy. We will include all of the testimony. The 
written testimony will be made a part of the record.
    Ms. Butterfield. All right. Thank you. To develop 
immigration controls that are effective in deterring terrorism 
and enhancing our Nation's security. We need to undertake these 
reforms to our immigration system with a very fundamental 
understanding, which I know you all share: that we are a Nation 
of immigrants, that immigration remains central to who we are 
as a country and helps explain our success as a people and a 
Nation. We have to take on this task as well with the clear 
understanding that it is precisely in times of danger that we 
must fiercely defend our Constitution and the protections and 
liberties that distinguish us from other nations.
    My testimony overviews some of the current measures and 
powers that the INS and Department of State already have that 
can be used more effectively, I believe, if properly 
coordinated with good intelligence information to deter 
terrorism. And you have heard about that already this morning.
    I will also include here some proposals about new measures 
that Congress could and should consider that would add perhaps 
to our deterrence capabilities. So let me just touch on briefly 
to remind us what our current powers and procedures are that 
really don't require enhancement in terms of new laws, but 
perhaps require more effective integration with intelligence 
data.
    Current immigration law provides the Government with 
extraordinary powers to deny admission to any person who we 
believe might be intending to come to the United States to 
violate our laws and endanger our safety. You have heard from 
Ms. Ryan earlier that consular officers, as you know, around 
the world have virtually unreviewable discretion to deny a visa 
to any person for any number of reasons listed in our statutes. 
And I enumerate those in my written testimony. But let me just 
call one to your attention.
    A person who a consular officer or the INS has reasonable 
grounds to believe seeks to enter the United States to engage 
even incidentally in any unlawful activity is simply 
inadmissible. So I think we have the tools in our statutes. The 
question is how do we apply them and how do we make those 
determinations. And I know you are being very thoughtful about 
the many thorny questions that poses.
    Unfortunately, our laws are only as good as the information 
available to those who are enforcing our laws, and we have yet 
to devise a system that will allow a consular officer in an 
overseas post to gaze into a person's heart or mind and somehow 
divine their intentions. Stricter scrutiny I think can deter 
the casual criminal, but it is unlikely to deter those who have 
no known criminal record, no evidence of association with any 
known terrorist organization or activity, and yet whose heart 
is intent on committing a heinous crime amongst us, sometimes 
years hence.
    We have in our laws, secondly, extensively grounds of 
deportability which give the Government the power to deport 
anyone who has engaged in any terrorist activity, including 
planning, material support, harboring, and all of these grounds 
are listed, again, in my written testimony.
    Again, in this instance, the Government has the full power 
to deport anyone who presents a danger here on terrorism 
grounds, but deportation, as we know, is no deterrence for 
those who fully intend to end their lives while committing a 
heinous terrorist act.
    The third set of powers that we currently have which you 
talked earlier with Mr. Ziglar about are the detention powers. 
We currently have the powers at our disposal to detain someone 
pending and continuing through their deportation hearing and 
any subsequent appeal. And it is those existing powers which 
have allowed the INS to detain, as Mr. Ziglar said this 
morning, I think currently some 146 persons on suspected 
immigration violations. And those powers are also being 
contemplated to be expanded in the legislation that the Senate 
enacted last week, which would give the Attorney General new 
power to certify someone as a suspected terrorist or somehow 
involved in terrorist activity, and would trigger a mandatory 
detention power.
    I appreciate the work that you, Senators, and your staffs 
have done to really ensure that these new powers, when enacted, 
will not be abused and that there will be some safeguards and 
court review and protections to make sure that detention is 
necessary to protect national security and does not go on 
indefinitely.
    I would just remind us all in passing--and, again, more 
elaborated in my written testimony--that we also have at our 
disposal the Alien Terrorist Removal Court, an extraordinary 
set of justices put together to hear secret evidence cases that 
was created in our 1996 law, which has not yet been convened or 
used, but that is at the Government's disposal should they need 
it.
    We have expedited removal, which allows the INS o turn 
people back right at the port of entry, and screen people, 
again, it is the second point of review, really, after the 
consular visa issuance decision where, again people are subject 
to all the grounds of inadmissibility and can be put through an 
expedited hearing.
    We have extensive reporting requirements. You have already 
talked about the SEVIS system for student reporting and the 
current procedures in place to verify departures, so I will not 
elaborate on those.
    Let me turn just briefly to other new measures that we 
should be considering, some of which you have already heard 
about. I want to add my voice to those of Mr. Ziglar and others 
who say, first and foremost, with all of these measures, we 
need increased funding for the INS and the Department of State. 
In order to effectively fight terrorism by enhancing our 
intelligence capabilities, DOS and INS need to upgrade their 
technological infrastructures. These new databases we are 
talking about and all of the real-time shared information are 
not inexpensive, and I don't believe that that funding can come 
strictly from user fees. I think it needs direct Federal 
appropriations, and I urge the Senate to address that concern.
    There are several new technologies that are very promising, 
and I know that you heard about some of them, the face 
recognition from Ms. Ryan earlier today, the lookout lists and 
the need to integrate and make all of the Federal law 
enforcement agency and intelligence agency lists available one 
to the other. And I will not elaborate there.
    Pre-inspection I think is one area that perhaps hasn't been 
touched on and I would urge you all to consider expanding. We 
do have pre-inspection at foreign airports currently in five 
countries in the world, and this is a procedure that allows a 
more calm and considered, perhaps, review of a person's 
admissibility before they even board an airplane. I think that 
program is a really useful one and could be expanded in several 
places in the world and would be very promising in creating 
some of those layers of security, perimeter layers, starting 
with the U.S. consuls abroad, then pre-inspection at the 
foreign airports, then the transmittal of the passenger list 
that Mr. Ziglar talked about; and finally, upon arrival in 
North America, increased cooperation amongst North American 
nations to create this kind of perimeter safety zone. And I 
know my colleague Demetri is going to address that further.
    I want to conclude with just two concerns as we consider 
all of this, including the exit/entry control system. I know 
that the Senate heard testimony a couple of years ago about the 
exit/entry control system at the land borders, and I want to 
just urge your review of that information that was provided at 
the time.
    I am from Michigan originally, and the Ambassador Bridge in 
Detroit is one that I have crossed many times. And in that 
testimony that you all heard some years ago, many experts 
pointed out that the Ambassador Bridge has 30,000 vehicle 
passings every day. And if we could design a very efficient and 
fast system and could determine that only half of those 
vehicles needed to be entered into our exit/entry control 
system and that process only took 30 seconds, you would have 
basically 4 or 5 days of backlog traffic simply to implement 
that system at that one land border. And I think that addresses 
the concern that Mr. Brownback shared earlier about we can't 
take measures that are going to undermine our economy and hurt 
our cross-border commerce. And that is a very real concern 
here.
    The final two points. In all of these measures, we have to 
be mindful of the continued needs of asylum seekers and our 
international and domestic obligations to afford protection to 
those fleeing persecution. Pre-inspection at foreign airports 
is well and good, but in that process we are going to need to 
provide trained asylum officers so that those seeking our 
protection are not merely excluded somewhere overseas where we 
never then hear about them. There is a challenge there, I 
think, that is a very real one that we need to take to heart.
    Finally, all of this data collection and recordkeeping is 
only as useful as the correlation with good intelligence 
information. I think we keep coming back full circle to 
intelligence. If we were able to document the entry and exit of 
all of the 30 million non-immigrants who come in and out each 
year to this country, and that created some big giant database. 
What would that tell us? Would that tell us that the person who 
overstayed their visa for a week or two weeks or even a month 
did so to spend an extra week at Disney World, or because 
Grandma had a sinus infection and couldn't fly on the airplane, 
or for some other purely innocent reason? Or does it tell us 
that the person overstayed and is intending somehow to commit a 
heinous crime amongst us? That is where all of the data 
collection in the world is not going to make us any more secure 
or safe unless we find a way efficiently and in a focused 
manner to correlate it with good intelligence, intelligence, 
intelligence.
    As the current situation calls out for change in the 
direction of more effective means of deterring terrorism, we 
can't lost sight of these fundamental values of this Nation of 
immigrants. As we seek to create new means to isolate 
terrorists, we must take care not to isolate America in the 
process.
    Thank you.
    [The prepared statement of Ms. Butterfield follows:]

   Statement of Jeanne A. Butterfield, American Immigration Lawyers 
                              Association

    Mr. Chairman and Distinguished Members of the Subcommittee:
    My name is Jeanne A. Butterfield and I am the Executive Director of 
the American Immigration Lawyers Association (AILA). I appear today as 
an observer and participant in the development of U.S. immigration 
policy for nearly twenty years, eight of those years with AILA. AILA is 
the national bar association of nearly 8,000 attorneys and law 
professors who represent the entire spectrum of applicants for 
immigration adjudications.
    I appreciate this opportunity to present our views on current U.S. 
immigration policy and I hope to provide some useful perspectives on 
how we can develop immigration controls that are effective in deterring 
terrorism and enhancing our nation's security. We need to undertake 
this task on several fronts, with immigration reform being one 
important aspect of the effort. As we develop reforms in this area, we 
need to make sure that they are effective. We cannot allow false 
solutions to real problems to lull us into a degree of security we have 
not achieved.
    We need to undertake reforms to our immigration system with this 
important understanding: that we are a nation of immigrants, that 
immigration remains central to who we are as a country and helps 
explain our success as a people and a nation. Furthermore, we must take 
on this task with the clear understanding that it is precisely in times 
of danger that we must fiercely defend our Constitution and the 
protections and liberties that distinguish us from other nations.
    We must recognize that existing laws and procedures offer us 
significant protections and pose certain problems. I thus will begin 
with an overview of current measures and powers that the Immigration 
and Naturalization Service and Department of State already have that 
can be used more effectively, if properly coordinated with good 
intelligence information, to deter terrorism. I will conclude with some 
proposals about new measures that Congress could mandate that would add 
to our deterrence capabilities.
                     CURRENT POWERS AND PROCEDURES
                     1. grounds of inadmissibility
    Current immigration law provides the government with extraordinary 
powers to deny admission to any person we believe might be intending to 
come to the United States to violate our laws and endanger our safety.
    Consular officers in posts around the world have virtually 
unreviewable discretion to deny a visa to any person for any number of 
reasons listed in our statutes. Further, as a second layer of 
deterrence and protection, anyone who is issued a visa abroad is 
subject a second time to these same grounds of inadmissibility when 
they present themselves to an INS inspector for inspection and entry at 
any U.S. port of entry (airport or land border). A person can be denied 
admission on either of these two occasions denied a visa in the first 
instance, or denied entry in the second.
    The Immigration and Nationality Act (INA) provides several broad 
national security-related grounds upon which any person can be denied a 
visa to enter the United States:
    a) a person who a consular officer or INS has ``reasonable ground 
to believe'' seeks to enter the U.S. to engage, even incidentally, in 
any unlawful activity is inadmissible (INA Section 212(a)(3)(A)(ii));
    b) a person who has engaged in terrorist activity is inadmissible 
(INA Section 212(a)(3)(B)(i)(I)); terrorist activity is broadly defined 
and includes, among the more commonly identified activities such as 
hijackings, the following range of activities (INA Section 
212(a)(3)(B)(ii) and (iii))

        1) the use of any firearm with the intent to endanger the 
        safety of even one individual;
        2) the solicitation of funds for terrorist activity or 
        terrorist organization;
        3) the solicitation for membership to engage in terrorist 
        activity or in an terrorist organization;
        4) the provision of any type of material support for terrorist 
        activity or for any person who plans to commit a terrorist 
        activity;
        5) the gathering of information on potential targets, or any 
        preparation or planning of a terrorist activity;

    c) a person who a consular officer or INS has ``reasonable ground 
to believe'' is likely to engage after entry in any terrorist activity 
is inadmissible (INA Section 212(a)(3)(B)(i)(II));
    d) a person whose entry or activities in the U.S. the Secretary of 
State has reasonable ground to believe would have potentially serious 
adverse foreign policy consequences for the United States is 
inadmissible (INA Section 212(a)(C)).
    These extensive grounds of inadmissibility make it clear that the 
United States has extensive power and grounds to deny a visa or entry 
to anyone it has reason to believe may endanger the national security. 
The question properly before the INS, Department of State and U.S. 
Congress is how the various agencies that implement and enforce these 
laws can be provided with the necessary and timely intelligence 
information they need to properly apply these grounds of 
inadmissibility and prevent those who intend to commit terrorist acts 
from entering the country.
    Unfortunately, our immigration admissions and visa issuance systems 
and laws are only as good as the information available to those 
enforcing them. We have yet to devise a system that will allow a U.S. 
consular officer or an INS inspector to gaze into a person's heart or 
mind and divine their intentions. Stricter scrutiny may deter the 
casual criminal, but it is unlikely to deter those who have no known 
criminal record, no evidence of association with an terrorist activity 
or organization, yet whose heart is intent on committing a heinous 
crime some months or years hence.
                      2. grounds of deportability
    Once in the United States, any temporary non-immigrant (visitors, 
students, temporary workers) or lawful permanent resident can be 
detained and deported if they engage in terrorist activity.
    Again, the grounds for deportability are broad, and give the 
government the power to deport anyone who has engaged in terrorist 
activities, including all of the activities enumerated above: planning, 
fundraising, soliciting for membership, providing material support for 
an organization's terrorist activity (INA Section 237((a)(4)(B).
    A person is also deportable if he has engaged in ``any other 
criminal activity which endangers public safety or national security 
(INA Section 237(a)(4)(A)(ii)). This ground of deportability does not 
require any criminal conviction.
    If the government only later learns that a person was involved 
overseas in a foreign terrorist organization, or had otherwise engaged 
in a terrorist activity, that person too is later deportable, on the 
grounds that he was ``inadmissible at time of entry''.
    Finally, an immigration judge has the power to deny asylum or other 
relief from deportation to a person who is otherwise eligible for that 
relief, if the person represents a threat to national security. 
Specifically, the statute includes mandatory bars to asylum relief for:

        (a) anyone who ``there are reasonable grounds for regarding. . 
        .as a danger to the security of the United States (INA Section 
        208(b)(2)(A)(iv)); or
        (b) the alien is inadmissible or deportable under several of 
        the terrorism-related grounds of inadmissibility or 
        deportability (INA Section 208(b)(2)(A)(v)).

    In short, the government currently has broad and sufficient powers 
to deport anyone who presents a danger to the United States on 
terrorism grounds. Of course, deportation is no deterrence for those 
who fully intend to end their lives while committing a terrorist act.
                          3. detention powers
    The INS currently has very broad powers to detain someone pending 
and continuing through their deportation hearing and any subsequent 
appeal. Under current law, immigrants charged with deportability for 
terrorist activity or certain violent crimes have been found ineligible 
to even apply for release from custody (INA Section 236(c). For those 
immigrants who have the right to seek release on bond before an 
immigration judge, that request can be, and is often, denied if the 
person is deemed to be a threat to national security, a danger to the 
community or otherwise present a risk of flight.
    The current regulations, recently amended and republished as an 
interim final regulation in the Federal Register by Attorney General 
Ashcroft (8 CFR Part 287, amending Section 287.3(d), provide further 
that a person may be detained without a warrant of arrest under the 
authority contained in Section 287(a)(2) of the INA. Under the 
regulation, as currently in force, a determination about whether actual 
immigration violation charges will be brought against a person will be 
made within 48 hours of the arrest, except in the event of an emergency 
or other extraordinary circumstance in which case a determination will 
be made within an additional reasonable period of time, whether the 
alien will be continued in custody or released on bond or recognizance 
and whether a notice to appear and warrant of arrest as prescribed in 8 
CFR parts 236 and 239 will be issued. `` (emphasis added)
    It is these already extraordinary powers of detention that have 
allowed the Attorney General to detain some reported 165 persons on 
suspected technical immigration violations in recent weeks, with no 
determination being made to date for many about whether they will in 
fact be charged or not. The question must be posed here: what is ``an 
additional reasonable period of time'' under the regulations? Is two 
weeks reasonable in current circumstances? Is five weeks unreasonable? 
Those being detained, the press, the advocacy community and the 
Congress surely deserve an answer to this question.
    In new powers contemplated in the pending ``USA'' Act (S. 15 10), 
the Attorney General will be given the power to implement mandatory 
detention of anyone he ``certifies'' that he has reasonable grounds to 
believe fall within the definition of ``terrorist'' or ``terrorist 
activity'' as outlined above. This new power will prevent a person so 
``certified'' from seeking release on bond, whether or not the person 
is charged with deportability based on terrorist grounds or is simply 
charged with a technical visa violation.
    These broad new powers, when enacted, must be used carefully and 
not be used to detain individuals indefinitely without proving that 
their detention is necessary to protect national security or the 
public.
                    4. alien terrorist removal court
    Congress in 1996 created the new Alien Terrorist Removal Procedures 
(INA Section 501 through 507). These procedures were designed to allow 
the government to conduct deportation hearings with the use of secret 
evidence. While the new court was to be composed of 5 district court 
justices appointed by the Chief Justice of the U.S. Supreme Court, a 
single justice is empowered to consider classified information 
presented ex pane and in camera.
    In recognition of the extraordinary nature of such proceedings, 
certain protections were provided, including the right to be informed 
of the nature of the charges and a ``general account'' of the basis for 
the charges (the secret evidence), and the right to be represented by 
assigned counsel at government expense. (INA Section 504(b) and (c).
    To date, this new Alien Terrorist Removal Court has not been 
convened. The government has, however, used ``secret evidence'' in 
regular deportation hearings, primarily in the context of bond 
determinations and in opposing applications for discretionary relief, 
such as political asylum or adjustment of status. (See, for more 
details about past secret evidence cases, Akram, Susan, Scheherezade 
Meets Kafka: Two Dozen Sordid Tales of Ideological Exclusion, 
Georgetown Immigration Law Journal, Fall, 1999; 14 Geo. Immigr. L.J. 5 
1)
    The use of secret evidence is anathema to a democracy. Its use, in 
the rare instances where the government strongly believes it is 
necessary to protect the life of confidential sources, should be 
confined to proceedings in the ``Alien Terrorist Removal Court''. The 
law governing these special proceedings, in recognition of their 
extraordinary nature, at least mandates certain protections, such as 
appointed counsel, for the accused.
                          5. expedited removal
    The 1996 Illegal Immigration Reform and Immigration Responsibility 
Act (IIRAIRA) also provides the government with extraordinary new 
powers at U.S. ports of entry to deny admission and summarily remove 
any person who the INS inspector believes is presenting fraudulent 
documents, including a facially valid visa if there is some reason to 
believe that the visa was obtained through fraud or misrepresentation, 
or if the person is believed to be attempting to enter the U.S. for a 
purpose inconsistent with the terms of the visa.
    The new expedited removal provisions have been scrutinized 
extensively because they run the danger of sweeping into their orbit 
legitimate asylum seekers who are most likely to be fleeing their 
persecutors without having first obtained proper travel documents. We 
must be careful not 'to create a process that a terrorist with adequate 
funding, education and documents can penetrate, but which turns away 
legitimate asylum seekers who have no documents and who are too scared 
or traumatized by abuse to adequately make their claim at the border.
    However, the expedited removal powers contained in our immigration 
statutes give INS inspectors sweeping and unreviewable power to deny 
entry to suspected terrorists and return them on the next flight out. A 
person so excluded cannot obtain a visa to enter the U.S. for at least 
five years.
    Clearly such powers must be used carefully and with adequate 
protections. The hapless visitor with entirely legitimate business 
purposes who is returned on the next plane to Singapore and denied a 
visa for the next five years has little recourse. There must be a means 
to challenge such mistakes, and to obtain a waiver of the five-year 
ban. In previous times, such a person could request a hearing before an 
immigration judge and present evidence to prove that their intent was 
legitimate. No more, under the terms of the 1996 laws.
    However sweeping and subject to abuse, these powers do provide 
another existing means to deter terrorists. But, as outlined above, 
these powers to deny admission and summarily exclude are only as 
effective as the intelligence information provided to the INS inspector 
at the port of entry. What we do not want to see as a result is 
thousands of legitimate visitors and even refugees being summarily 
excluded, while international criminals and terrorists, who have the 
means to purchase or otherwise obtain valid documents, slip through 
undetected. That unfortunately may be the result of these expanded 
powers.
                       6. reporting requirements:
    The operation of current reporting requirements for foreign 
students and the arrival and departure of passengers both are areas 
needing significant improvements.
a. Student Reporting
    More than 500,000 foreign students last year were enrolled in 
colleges and universities around the country. These students are a 
vital part of our higher education system. In California, the state 
with the greatest number of international students, just over 66,000 
students from 19992000 brought $1.6 billion dollars into the state's 
economy. Foreign students have made enormous contributions in the 
advancement of technology and science, and graduates from American 
colleges and universities have gone on to lead nations and shape 
history.
    We have long understood that the opportunity to study in this 
country comes with rules and responsibilities that affect both the 
students and the institutions. All foreign students must apply for a 
visa and must be able to prove that they are not inadmissible to the 
United States. Since at least 1985, colleges and universities approved 
to receive foreign students are required to gather and report 
information about foreign students to the Immigration and 
Naturalization Service.
    This information includes the student's current address, date of 
commencement of studies, the student's written application for 
admission and other supporting documents the school uses to determine 
eligibility, the date and reason for termination of a student, and any 
academic disciplinary actions taken against the student due to any 
criminal convictions.
    In the aftermath of the 1993 bombing of the World Trade Center, the 
INS created the Coordinated Interagency Partnership for Regulating 
International Students (CIPRIS) as a pilot program to provide for the 
electronic transfer of student information between institutions and the 
INS. In 1996, IIRAIRA mandated that INS fully implement the CIPRIS 
system by 2001. After 1996, the INS found that it could not address all 
the technical problems and asked Congress for an extension of 2001 
deadline.
    Although the program to provide for the electronic transfer of the 
information collected on foreign students has yet to be implemented, 
colleges and universities are still required to collect and report the 
data to INS, and an INS officer can request access to it at any time.
    At intervals specified by the INS, but not more frequently than 
once a term or session, the Service's processing center is required to 
send each school a list of all foreign students who, according to 
Service records, are attending that school. A designated school 
official at the school must note on the list whether or not each 
student on the list is pursuing a full course of study and give the 
names and current addresses of all student visa holders not listed, 
attending the school and other information specified by the Service as 
necessary to identify the students and to determine their immigration 
status.
    The designated school official must comply with the request, sign 
the list, state his or her title, and return the list to the Service's 
processing center within sixty days of the date of the request. Failure 
to follow any of the procedures and regulations will result in the 
withdrawal of the schools approval to receive non-immigrant students.
    The INS is working with colleges and universities to develop this 
system electronically. The electronic system is only beginning to be 
implemented as an operational prototype with 21 educational 
institutions. The failure, if any, of the student tracking system is 
not the absence of laws, but the lack of resources. Congress needs to 
provide funding to get this system up and running and maintained in 
those schools authorized to enroll foreign students.
    As the prototype is expanded, the INS needs to assess and report to 
Congress on the feasibility of this system, and whether it can improve 
the security of the U.S. relative to implementation costs, and do so in 
a way that does not intrude excessively on the privacy rights and civil 
liberties of students.
b. Verifying Departures
    Requiring airlines and other passenger carriers to identify 
passengers' arrivals and departures has been a part of our laws for 
many years. Passenger carriers are required by law to deliver to the 
immigration officers at the port of arrival and departure a list or 
manifest of the persons on board such vessel or aircraft. According to 
the law, ``such lists or manifests shall be prepared at such time, be 
in such form and shall contain such information as the Attorney General 
shall prescribe by regulation as being necessary for the identification 
of the persons transported and for the enforcement of the immigration 
laws. ``
    This language grants broad power to the Attorney General to decide 
when and how an airline identifies its passengers. The problems we now 
have with identifying who is coming and going from our shores are 
technological, not legal. In 1997, the Office of the Inspector General 
found that the principal INS record-keeping system for tracking 
nonimmigrant overstays, the Nonimmigrant Information System (NIIS), 
does not produce reliable data.
    Normally, passengers arriving in the United States fill out an I-94 
form and present it to the INS inspector upon arrival. The inspector 
collects the arrival portion of the form and returns the departure 
portion to the passenger. The arrival portion is sent to an INS 
contractor, who inputs the data into NIIS. When the person leaves the 
United States, the airlines are supposed to collect the departure 
portion of the I-94 form and provide it to the INS for input into NIIS. 
The data is then matched by MIS to identify nonimmigrant overstays.
    The OIG report found that the MIS data is incomplete and unreliable 
due to missing departure records and errors in records processing. MIS 
does not contain departure records for a large number of aliens, most 
of whom the INS assumes have left the United States. The INS believes 
that many of these unrecorded departures result from airlines failing 
to collect departure forms, aliens departing through land borders, data 
entry errors, records being lost through electronic transmission or 
tape-loading problems, and the failure of the system to match arrival 
and departure records.
    The question that Congress must ask, as it considers the possible 
expansion of procedures to verify departures, is what use can be made 
of the extraordinary amount of data that would be collected under such 
procedures. The U.S. admits over 30 million non-immigrant visitors per 
year. If data regarding departures shows that just five percent of 
these visitors fail to depart at the end of their authorized stay, that 
information still does not inherently make us safer as a nation, nor 
does it deter terrorism.
                        NEW DETERRANCE MEASURES
    What do we need to further enhance our nation's security? Enhancing 
this country's intelligence capacity is key. Any changes that we make 
to our immigration policy will work to the degree that they interface 
with, and take advantage of, enhanced intelligence information. Any 
such reforms must meet our due process and civil liberties concerns and 
standards.
    There is much Congress and the Administration can do. Needed 
reforms include increased funding for the DOS and INS, increased access 
to lookout lists, reforms at our consulates, the use of new 
technologies, direct government funding of these technologies, more 
pre-inspections abroad, mandated in-flight transmittal of passenger 
lists, the creation of a North American Perimeter Safety Zone, and a 
workable entry-exit control system. These measures will help us to 
increase the layers of protection that stand between us and any 
potential adversaries from abroad.
    We need to remember that our best protection derives from keeping 
targeted people from entering the U.S. Such measures are more effective 
and easier to implement than measures that focus on persons after they 
enter the United States. In all cases, we need to make sure that we 
keep out people who want to do us harm, not those seeking to come to 
our country for the reasons that people have always come here, 
including reuniting with their families, working or escaping 
persecution. The following new measures to increase security and 
deterrence should be carefully considered:
                  1. increased funding for dos and ins
    It is important to increase funding and data access for the 
Department of State (DOS) and the Immigration and Naturalization 
Service (INS). At present, both agencies' computer systems are 
technologically obsolete, with different offices often unable to share 
information with the other, and some offices, especially those 
overseas, not even having computer capacity. In order to effectively 
fight terrorism by enhancing our intelligence capabilities and 
improving our border security, both the DOS and the INS need increased 
funding to upgrade their technological infrastructures. Such funding 
needs to come from direct federal appropriations. INS and DOS increased 
technological capacities cannot be supported through user fees. This 
enhanced capacity to meet our security needs is a national function 
best supported through the federal government.
                     2. the use of new technologies
    Given the complexities of gathering, sharing and making accessible 
a great range of information about individuals and their identities, it 
is critical to make use of existing and emerging technologies to 
achieve the most reliable means of verifying identity. Traditionally, 
fingerprinting has served this function. However, any standard based on 
fingerprinting has significant limitations that new technologies can 
overcome. Lookout systems and other data networks can be further 
improved by the use of new technologies that can match a unique 
identifying characteristic of an individual with a name. One of these 
new, unintrusive technologies is a face recognition system that uses 
cameras to scan a person's face and compare the picture with a database 
containing the photos of persons about whom the authorities are 
interested. The database for this technology would contain only the 
images of persons the authorities are looking for and is relatively 
inexpensive.
    The federal government needs to fund the development and use of 
these new technologies and make sure the various federal agencies 
coordinate compatible efforts in this area.
                       3. access to lookout lists
    U.S. federal agencies, as well as international law enforcement 
officials, need direct access to the various lookout lists maintained 
by different agencies. These lookout lists include the names of people 
who should not be admitted to the U.S. or should be pulled aside for 
questioning should the authorities come into contact with them. 
Increased funding would allow the agencies to build up their 
technological capacities so that, for example, DOS and INS. would be 
able to directly access the FBI and other agencies' databases to review 
information that would help them determine whether someone should be 
allowed to enter the U.S. or be granted a positive response to an 
application or petition. Such direct access would enable law 
enforcement agencies to act immediately to identify those high-risk 
individuals who seek to enter the U.S. or receive other immigration 
benefits. These lists need to be integrated and accessible, with the 
information updated in a timely manner.
    We also must include safeguards against potential abuse of this 
data that would limit the redissemination of such information, ensure 
the security and confidentiality of such information, protect privacy 
rights of individuals who are subject to such information, and 
establish procedures that determine who stays on and is removed from 
these lists. Such safeguards will become even more necessary as the 
lists increase in size and unfamiliar names from various regions of the 
world may be incorrectly keyed in. We must make every effort to ensure 
the accuracy of the names on the list so that the wrong individual is 
not targeted.
                          4. consulate reforms
    Our intelligence gathering can be further improved by changing some 
of the operations of our consulates. As noted above, consulate staff 
cannot do their job if they have neither the necessary intelligence 
information nor the technological capacity to access, upload, and 
download this intelligence information in a timely manner. In addition, 
we need to upgrade the status of the consulate officer who interviews 
an applicant to assess whether the applicant is allowed to enter the 
U.S. Currently, this function tends to be performed by more junior 
personnel with less experience. In the future, each post should be 
required to have a core of civil service specialists who would remain 
at certain posts or be rotated between posts to increase the level of 
experience of the person who is making the important decision about who 
is given a visa to come to the U.S.
    Furthermore, this decision needs to be reviewable. In these times 
of heightened scrutiny such review is vital to ensure the integrity of 
the system. We should welcome such a review as part of the checks and 
balances that are central to our democracy and vital to our system of 
protections. We recommend providing any applicant for entry or a visa, 
in writing, the reason for the denial of entry and an avenue for review 
of any denial based on this information. In those cases where the 
adverse decision is affirmed, the applicant should be provided with a 
means of appeal to the U.S. District Court in the District of Columbia
                           5. pre-inspection
    U.S. pre-inspection programs are in effect in only S countries in 
the world--Canada, Ireland, Bermuda, the Bahamas, and Aruba. In these 
locations, passengers are in effect ``pre-inspected'' for admission to 
the U.S. before ever boarding a plane--passports are checked and names 
are run against the lookout list. This pre-inspection process allows 
more time for inspection and increases the likelihood of a more 
thorough check.
    This procedure would move our system from one that focuses on a 
person's point of entry into the U.S. to one that focuses on their 
point of origin. The INS and DOS together would need to recommend where 
such pre-inspections should take place, as it would be impossible to 
undertake this procedure at every airport in the world. It also would 
be important to deal with host countries about any sovereignty issues 
that might arise when someone is to be arrested, with U.S. officials 
working cooperatively with authorities at the pre-clearance site who 
have the power to arrest and detain. Such cooperation should include 
assurances that suspected terrorists are not released because the host 
country authorities do not view the threat as seriously as does the 
U.S.
    Congress needs to carefully examine and weigh the costs of such a 
pre-inspection program. As with other programs to increase security and 
deterrence, the federal government will need to find ways to fund such 
initiatives. The cost of setting up and maintaining an overseas INS 
inspections staff is not an insignificant one.
    Furthermore, any pre-inspections system must provide for 
mechanisms, including specially trained personnel, to assure that 
legitimate asylum seekers are afforded a meaningful opportunity to seek 
protection. The balancing of increased security needs and strengthened 
deterrence measures against terrorists with the obligation under U.S. 
and international law to protect those fleeing persecution must be 
maintained in a way that does not exclude asylum seekers from 
protection. Stringent pre-inspection at foreign airports much be 
accompanied by expanded asylum determination or ``credible fear'' 
screening, so that asylum seekers can continue to the U.S. to pursue 
their compelling and legitimate claims.
              6. in-flight transmittal of passenger lists
    Mandating at the time of take off that all airlines transmit 
passengers' names to the destination airport to be checked against the 
look out list is another important security tool. Through their 
reservation systems, airlines know in advance who will be flying to the 
U.S. Transmitting the list in advance would give U.S. authorities the 
opportunity to compare the passenger list to the lookout lists, thereby 
preventing from entering or apprehending those who should not be 
permitted to enter the U.S. Currently, about 75% of airlines transmit 
these lists.
    The effectiveness of such a system also depends on the INS having 
adequate technology and personnel on the receiving end to make swift 
and efficient use of the incoming information.
    If pre-inspection is conducted with meaningful safeguards to 
guarantee protection for asylum seekers, then the transmission of 
passenger lists should not compromise the safety of asylum seekers who 
may be en route to the U.S. Again, however, as Congress considers 
measures to strengthen and mandate such data collection and 
transmission, it must include explicit safeguards to assure meaningful 
access to asylum protection for those who truly need and deserve it.
                7. north american perimeter safety zone
    To further enhance our intelligence, the U.S. needs to employ 
multilateral strategies with Canada and Mexico to enhance the security 
of all three countries to create a North American perimeter.
    Such a North American perimeter will bolster security through law 
enforcement coordination, intelligence sharing, and better joint use of 
enforcement resources. Such coordination and cooperation would reduce 
the chance that someone wishing to do harm to the U.S. would travel to 
one of our neighboring countries and then cross by land into the U.S.
    Beyond our immediate neighbors, the U.S. needs to more closely 
cooperate with our European allies in particular and share information 
that each of our intelligence services have collected. Consistent with 
the need to protect the privacy of innocent persons, we should have 
access to their version of the lookout lists, and reciprocate by 
sharing our information.
    Any cooperation among governments in the region in immigration 
enforcement should include a plan to ensure that asylum seekers have 
meaningful access to protection. While Mexico has recently acceded to 
the refugee convention, access to asylum remains problematic, 
particularly for migrants intercepted at Mexico's southern border. 
Access to asylum procedures in Central American countries is even less 
assured.
    On the other hand, Canada should not be pressured into diminishing 
protections for refugees. All countries in the region can and should 
strengthen security measures. However, none should be required to lower 
their protections for refugees to the ``lowest common denominator.''
    As North American security cooperation also addresses the issues of 
smuggling and trafficking, the European experience is particularly 
relevant regarding protection for asylum seekers. UNHCR commissioned a 
report that concluded that the majority of asylum seekers arriving in 
the European Union have been smuggled or trafficked. The report also 
states that in the European Union ``the effects of blanket enforcement 
measures, such as common visa policies, readmission treaties, carrier 
sanctions, and airline liaison officers (pre-inspection personnel) act 
to deny refugees the possibility of illegal exit from the regions of 
their persecution.''
    The report recommends that European nations review their migration 
and asylum policies to open other channels to people fleeing 
persecution in their native countries. This includes incorporating the 
right to seek asylum and the responsibility of non-refoulment into 
antitrafficking and anti-smuggling policy, recognizing that trafficking 
and smuggling are both ``inherently abusive'' and that both trafficked 
and smuggled persons can be refugees, improving reception conditions, 
and increasing family reunification.
    Our government, while working with Canada, Mexico, and other 
partners in the region to eradicate terrorism, should also ensure that 
meeting the protection needs of asylum seekers is included as part of 
any plan.
                         8. entry-exit controls
    Congress needs to ensure adequate personnel and technological 
improvements at and between our ports of entry. The August 2001 GAO 
Report, ``INS Southwest Border Strategy: Resource and Impact Issues 
Remain After Seven Years,'' clearly identifies that our security risks 
apply to both our borders.
    To that end, it would be helpful to enhance our data gathering at 
airports by mandating an entry/exit system that would collect and 
correlate data about arrivals and departures. Certain airlines 
currently collect such information on a voluntary basis. This important 
security function should be government-mandated and funded. The data 
collected will only be useful if correlated -with better intelligence 
data.
    An entry-exit system has been discussed for land border points of 
entry into the U.S. Such a system would be difficult to implement, 
would be exceedingly disruptive to commerce, and most importantly, 
would contribute little to the security of the U.S. A June 1998 report 
from the Senate Judiciary Committee, then chaired by Senator Orin Hatch 
(R-UT), noted the catastrophic delays that would accompany the 
implementation of a Section 110 entry-exit system at land borders. For 
example, the report cited testimony from an earlier hearing of a 
witness who estimated that ``assuming the most efficient and remarkable 
entry and exit procedures in the world that will take only 30 seconds 
per vehicle, and making the equally optimistic assumption that only 
half the vehicles have to go through the procedures, that would amount 
to an extra 3,750 minutes of additional processing time each day'' at 
the Ambassador Bridge in Detroit. The witness then pointed out that 
there are only 1,440 minutes to a day, which means that implementing a 
Section 110 entry-exit system at that land border port of entry would 
lead to a delay of more than 2 \1/2\ days.
    Importantly, the report also notes that it is highly questionable 
if implementing Section 110 would ultimately provide any assistance in 
prosecuting individual visa overstayers, and has nothing to do with 
stopping terrorists or traffickers. An automated entry-exit control 
system's database will in no way provide information as to which 
individuals might be engaging in terrorism or other unlawful 
activities. We must not fool ourselves into believing that implementing 
an entry-exit control system at land borders will increase our 
security: It is a false solution that will hurt our commerce and trade 
and not contribute to our safety.
    Again, as in most forms of data collection and record keeping, the 
usefulness of the data is very dependent on the quality of the 
intelligence information with which it is correlated. Did the vast 
majority of these people who failed to depart on time do so for 
innocent reasons? Did they stay an extra week at Disney World? Did they 
delay departure to attend a friend's wedding, or because Grandma could 
not fly on account of an ear infection? Did they eventually depart, one 
week or two weeks or even a month late? Or are they the tiny, even 
miniscule minority who intend to stay to commit some heinous act of 
terrorism in the United States?
    How do we make sense of this data that we can and will collect? Who 
looks at it? Who runs the cross checks, against what data bases? What 
do we know about someone, or what can we learn from our overseas 
intelligence sources that was not available when the visa was issued 
that will tell us whether the person is someone we should seek out and 
investigate? How do we find the person anyway, even if we have verified 
that he has not departed the United States in a timely fashion? All of 
these complexities must be carefully considered before Congress rushes 
to implement additional reporting and departure information collection 
or a new exit/entry control system.
                 AFFIRMATION OF THIS NATION'S DIVERSITY
    In the current environment, it is especially important to reaffirm 
that this nation's strength and future reside in our unity as a nation, 
the diversity from which we draw our strength, and the democratic 
principles on which our country is based. President Bush, the Congress, 
and individual members of Congress, and many members of the general 
public all have condemned the violence directed against Arab-Americans, 
Muslim-Americans, and Asian-American communities by misguided people 
who wrongly blame these communities for the terrorists' heinous acts. 
We must continue to support diversity and condemn violence and hate 
crimes.
                               CONCLUSION
    In conclusion, let us remember that U.S. immigration policy is 
based on a number of values that relate to the core social and economic 
principles on which our nation was founded. These values are 
complementary and interweave to create the rich fabric that is 
beneficial to all Americans. Among the most important values are:

        The unification of American families;
        Employment related immigration to keep America strong in a 
        global economy;
        Asylum protection for refugees fleeing persecution;
        Naturalization based on allegiance to the principles contained 
        in our Constitution and laws;
        Immigration policy that is implemented through a well-regulated 
        system based on law, with fair, uniform, and predictable 
        requirements.

    As the current situation calls out for change in the direction of 
more effective means of deterring terrorism, we must not lose sight of 
these fundamental values of this nation of immigrants. As we seek to 
create new means to isolate terrorists, we must take care not to 
isolate America in the process.
    Mr. Chairman, thank you very much for this opportunity to share my 
thoughts and perspectives with the Committee. I and other members of 
AILA remain available to discuss these matters with you at any future 
time. We look forward to working closely with you on legislative 
efforts to enact these policy proposals.

    Chairman Kennedy. Very fine.
    Senator Brownback. Well, said.
    Chairman Kennedy. Dr. Papademetriou?

STATEMENT OF DEMETRIOS G. PAPADEMETRIOU, CO-DIRECTOR, MIGRATION 
               POLICY INSTITUTE, WASHINGTON, D.C.

    Mr. Papademetriou. Thank you, Mr. Chairman. Good to see you 
again, Mr. Brownback.
    I must say that I find myself in a bit of a peculiar 
position because your opening statement and the comments of my 
colleagues so far have pretty much covered most of the things 
that I might have said. I guess I should start with a general 
point which I hope that we are going to keep in the front part 
of our heads as we move forward with legislation and its 
implementation, which is that whatever it is that we opt for, 
it should not be policies that make us feel good; rather, they 
should be policies that are smart and hard-headed and can be 
implemented in a way that really advances our security 
interests. And I think an awful lot of the discussion about 
databases and intelligence cooperation and stovepipes and 
horizontal kinds of cooperation are very, very important, but I 
hope that we will apply this kind of a test before we would 
move forward with any initiatives.
    As you mentioned, Mr. Chairman, most of my testimony deals 
with the findings and recommendations that come out of a book 
to be formally released at the end of this month, on the 30th. 
It is called ``Caught in the Middle: Border Communities in an 
Era of Globalization.'' Needless to say, the research for that 
book was done almost in a different era, back in 1998 and 1999. 
It was written in the year 2000. It just happens to be released 
now because that it is when it came back from the publisher's.
    But as we were reviewing the book, my colleague and I, 
Deborah Meyers, who is also my co-author, we found that there 
is an awful lot in that book that actually makes sense after 
September 11th, even more so perhaps than it made sense before 
the 11th.
    If I were to sort of break the pattern here in my testimony 
and talk about an overall insight that we got from many weeks 
of field research, both along the U.S.-Canada border and along 
the U.S.-Mexico border, there is a certain resistance on the 
part of bureaucracies to basically ask some of the questions 
that I hope we need to ask them, and we will, and ask for 
greater accountability. In other words, we saw a certain 
mindlessness in a certain way of doing things simply because 
that was the way that they had always done things. And I think 
that this may indeed be the very time for us to ask ourselves 
how we might do things more smartly rather than how much more 
money can we throw at these bureaucracies.
    I was very impressed with the fact that this was a major 
conclusion of the book, and yet that happened before the 11th 
of September.
    I will go through about two or three out of ten major 
findings of the book, and I will be happy to explain those 
during the Q and A. But basically what we tried to find out 
were the answers to the following three questions: How do the 
NAFTA partners perceive and conduct their border inspection 
responsibilities? Are such inspections done in the most 
effective and manner--and consistent with other important 
public policy priorities? And what are the effects of these 
actions on the life of the communities that straddle NAFTA's 
international borders? Because, as you mentioned, Mr. 
Brownback, we shouldn't forget that there are other national 
priorities. We must protect ourselves, but we must also not 
sink our economy or ignore the lives of people who live in 
communities that straddle these borders.
    Among the general findings, one is that national government 
policies toward border control tend to be inconsistent, even 
erratic, with patterns often ranging from inattention to the 
wrong kind of attention. And we found this to be the truth 
along a single border, across both borders, and sometimes 
simply from one port of entry to another port of entry. I hope 
that the events of the last month or so may focus the mind of 
the managers of these processes in order to at least increase 
consistency in the way in which we deliver those functions.
    Another general finding was that the adoption of a model of 
tight controls and the empowerment of border officials to 
exclude people with little accountability have become breeding 
grounds for arbitrary behavior by national government 
personnel. They also create more opportunities for corruption 
and encourage the growth of market forces designed to defeat 
border controls.
    Simply put, what this suggests is that when we come up with 
additional policies and when we come up with new systems that 
we wish to fund, we should be mindful that they are indeed the 
right systems and they are applied consistently and, indeed, do 
not defy other national priorities, which is what we found.
    And a third, and I believe the last, general finding that I 
want to talk about is that there is a remarkable degree of 
community-devised cross-border cooperation on issues such as 
public health, access to education, environmental protection, 
joint regional planning, and, yes, law enforcement and 
security. So I hope that as we, in our capital here, are 
beginning to develop ways for doing things differently at the 
border, that somebody also is communicating with the interests 
within the local communities and taking their recommendations 
and their concerns into account, because they have many 
interesting ideas that may actually make us better at what it 
is that we are trying to do.
    I wanted to quickly go through three major recommendations.
    First, I think that border control should be conceptualized 
as a means to an end rather than as the ultimate policy goal as 
sometimes reflected in political rhetoric and bureaucratic 
initiatives. I was very pleased to hear your comments, Mr. 
Kennedy, because they relate precisely to this recommendation.
    The second one is that all three national governments must 
show uncharacteristic adeptness in adapting their border 
management and enforcement practices to local conditions. 
Again, it is very, very disturbing to see using a single set of 
practices, a single methodology, across an entire border or, 
for that matter, two borders.
    And the third recommendation stems from the second one, 
that there should not be a one-size-fits-all approach to the 
issues at hand, and this is an important recommendation.
    Then we talk about what kinds of things we might perhaps do 
differently, jointly, initially with our friends in Canada and 
then over time, and after we test the possibility, with Mexico. 
And these perhaps fall a bit outside of the box. This is really 
thinking prospectively as to how we might do things better that 
serve the multiple interests that a border inspection regime 
must serve, not just about refugees but also about economic 
interests and what have you. And we have about ten or so 
recommendations, and we are asking for the customs agencies to 
try to see whether they need to perform all the functions they 
are performing where it is that they are performing them 
currently. In other words, there is now technology, a lot of it 
off-the-shelf technology, that can be used to seal cargos and 
to actually send along all the information along a variety of 
passageways so we don't really have to do some of those things 
at the border.
    We should consider employing risk management strategies. 
The science is very well developed, and there are great 
opportunities for us to allow more of the resources, the 
limited resources that we have to be focused on bad practices 
and bad people rather than inconveniencing everyone, without 
any loss in security.
    The third one involves possibly thinking about how we might 
do things together with our NAFTA partners, in this instance, 
again, Canada. Is it possible that some of the functions that 
the customs or the immigration agencies have to perform could 
be perhaps performed jointly, but performed only once, perhaps? 
With the right technology, the right suggestions or 
legislation, and the right kinds of agreements between the 
United States and Canada, we can be much more efficient and at 
least as effective in terms of our primary responsibilities and 
concerns. And this can, again, apply both to Immigration and to 
Customs.
    We should also consider whether we need to staff borders 
with agents from different agencies like we do now between the 
Customs and the Immigration Service. The Canadians have as the 
primary inspection agency the customs agency. I am not saying 
whether it should be Customs or Immigration. But if you want 
consistent delivery in terms of the priorities that we set, why 
not have a single agency do the primary function, primary 
inspection, and then have the other agencies to do backup, 
secondary inspections?
    Why not use the private sector--
    Chairman Kennedy. I will give you another minute or two 
because I want to hear from Mr. Norton, and then we will have 
some questions.
    Mr. Papademetriou. Okay. Why not use the private sector? We 
have an extensive system of customs brokers and private 
bondsmen. We can give them an additional responsibility and 
force them to be more accountable than they have been to date. 
And as my colleagues have mentioned, let's try to use to the 
fullest extent possible pre-clearance and intelligence 
cooperation with our colleagues in Canada and Mexico. In fact, 
even a common visa regime which allows each country to issue 
visas along the same criteria on the maximum, the largest 
number of countries, where that can be possible, while 
identifying the few areas in which we must continue to 
disagree, may actually provide much greater security for us 
than the status quo.
    I will stop here, and I hope to be able to answer some of 
your questions.
    [The prepared statement of Mr. Papademetriou follows:]

 Statement of Dr. Demetrios G. Papademetriou, Co-Director and Deborah 
       Waller Meyers, Policy Analyst, Migration Policy Institute

                            I. INTRODUCTION
    Mr. Chairman, Members of the Subcommittee. Thank you for asking me 
to testify today regarding border security issues and options. My name 
is Demetrios Papademetriou, and I am the Co-Director of the Migration 
Policy Institute. I am testifying on behalf of myself and my colleague 
Deborah Meyers.
    Our testimony is based on the research and recommendations in our 
book, Caught in the Middle: Border Communities in an Era of 
Globalization. This book will be publicly released on October 
30<SUP>th</SUP>, and is the culmination of three years of work in a 
comparative project studying border communities and border management 
issues along five different international borders U.S.-Canada, U.S.-
Mexico, Germany-Poland, Russia-China, Russia-Kazakh. My remarks today, 
however, will focus on immigration and border issues that relate 
specifically to the U.S.'s neighbors and NAFTA partners, Canada and 
Mexico.
    Clearly, our book was written well before the tragic events of 
September 11 and report on research conceived about three years ago, 
carried out primarily in 1999, and completed last year. Yet, our 
insights and conclusions seem to us to be remarkably relevant today. We 
found a troubling lack of interest in applying even the most modest 
``effectiveness'' test to our border management methodologies. In fact, 
we identified no particular effort, really, not particular interest, in 
the independent evaluation of the dominant control methodology. More 
tellingly, perhaps, we identified no attempt to think systematically 
about whether alternative responses to the challenge might have a 
greater or lesser chance of success. This slavish adherence to doing 
``more of the same'' has had several perverse effects, including 
papering over the human effects of the new enforcement status quo and 
disregarding a policy's effects on the communities in which people live 
and through which goods and people pass--communities that have become 
the terrain where the manifestations of numerous conflicting 
perspectives play themselves out.
    It is indeed the residents, businesses, and public and private 
institutions of border communities who most directly absorb the costs 
and benefits from both freer movement and greater controls. How do 
these communities navigate these issues, conflicting aims and all? What 
is life like for those who live and work at the interface of two 
countries? What is the local perspective on the movement of people and 
goods that pass through a community; does anyone else care about it? 
Does the perspective vary from one community, or one border, to 
another, and what accounts for any variance? What input, if any, do 
local communities have into national policies that ultimately affect 
them? What creative solutions have they found to address the challenge 
of such policies? Our effort attempted to shed some light on all of 
these questions.
    Two points of departure dominated our conceptualization of the 
research project. The first was a clear sense that, left on their own, 
national governments and bureaucracies would do what comes most 
naturally to them: national governments will reassert control 
(particularly when feeling a degree of threat) and the relevant 
agencies will seek to convert such fears into additional resources, 
growing in size and influence. The effectiveness of the effort, 
however, seems to have only an uncertain association with the resources 
committed to border controls. Somewhat paradoxically, saturation 
policing and other forms of vigorous control seem to produce numerous 
perverse by-products, including a boom in official corruption and the 
growth in powerful black markets in virtually all aspects relating to 
the defeat of the control effort-from false documents to sophisticated 
smuggling networks. (Notwithstanding that tendency, our research found 
local cross-border initiatives continue to occur, even flourish, under 
all of these scenarios.)
    The second was an idea that many border communities had become 
concerned
    with the fact that decisions that affect them directly on issues of 
borders and their management were being made without their 
participation. In an era of pronounced devolution, much of it 
admittedly more rhetorical than real, that decision locus exclusively 
in the national capitals, with little pretense of consultation with 
local communities-struck us as worthy of further investigation. We 
suspected that the continuing function of borders as the physical 
location where real and symbolic expressions of state sovereignty meet 
probably explained why domestic decisions about them are seemingly made 
``unilaterally'' by central governments.
    Our overall conclusion? Unless the politics make it absolutely 
impossible, governments are better off working cooperatively and with 
the market to expand the legal means for the entry of their nationals 
in other states' territories. Acknowledging the economic and social 
facts on the ground and regulating a practice thoughtfully, stand a 
much better chance of achieving important public-policy goals than 
denying the legitimacy of some of the reasons for the practice's 
existence and trying to stamp it out through force.
                     II. RESEARCH AIMS AND FINDINGS
    A state performs an array of inspection functions at the border, 
many of which are clearly essential to good government and all which 
serve some public interest. This fact, however, does not obviate the 
need to ask whether the functions are all essential, whether they can 
be done only at the border, whether the manner in which they are done 
is the most appropriate one, and how the lives of border communities 
are affected by how functions are delivered. Most importantly, perhaps, 
and like most governmental functions that are both very costly and 
intrusive, the delivery of the functions itself demands that the 
relevant agencies meet stringent effectiveness and accountability 
standards. The research considered three broad policy questions:

        1. How do the NAFTA partners perceive and conduct their border 
        ``inspection'' responsibilities?
        2. Are such inspections done in the most effective and 
        efficient manner (and consistent with other important public 
        policy priorities)?
        3. What are the effects of these actions on the life of 
        communities that straddle NAFTA's international borders?

    Maintaining a focus on border community life as a consistent 
priority across all research sites, we focused on three outcomes.

        1. Cataloguing and understanding existing local initiatives 
        toward greater cooperation between border communities located 
        on different sides of an international border;
        2. uunderstanding better the similarities and differences in 
        that regard among such communities; and
        3. Extracting and contextualizing ``best practices'' in local 
        self-management with regard to cross-border matters.
    Field research results were then used to assess and develop a 
perspective on the state of integration within North America, and 
particularly within the North American Free Trade Agreement space, and 
to articulate a vision for such integration in fifteen or twenty years.
    The project's principal research hypothesis was that at the local 
level, communities on both sides of a common border were thinking (and 
when allowed, acting) creatively and often collaboratively in response 
to common problems and in pursuit of common interests. Although the 
degree of cooperation and the motives for cooperation vary 
significantly across borders and border regions, in almost all 
instances examples of cooperation were found to exist-thus validating 
the hypothesis.
    The following are among the most robust general findings of the 
research.
    1. The interests of border regions typically receive inadequate and 
at times unwelcome attention from national governments. This is 
typically due to the fact that central governments think of their 
responsibilities toward borders within the framework of ``reasons of 
state.'' The post-September 1 I environment makes this point more 
starkly than we could have hypothesized. Such thinking, especially when 
``security'' concerns enter the mix, reinforces the tendency of 
bureaucracies to make decisions unilaterally and leads to the 
devaluation of local dynamics and preferences. For instance, along the 
U.S.Mexico border, anxiety about drugs and unauthorized immigration has 
led to fortifications and an active policing framework that gives short 
shrift to the border's other principal function: facilitation of legal 
traffic and trade.
    2. National government policies toward border control tend to be 
inconsistent, even erratic, with patterns often ranging,from 
inattention to the ``wrong kind'' of attention. Both extremes kindle 
discontent and, except in emergencies, both can generate calls for more 
autonomy on transborder issues of greatest concern to a locality or 
region. Communities along many of the borders we studied desire greater 
autonomy. In many instances, however, communities make fundamentally 
contradictory demands. For instance, along the U.S. southwest border, 
many U.S. communities, while calling for greater order and security, 
simultaneously call for easier commercial access to consumers and to 
workers from across the border.
    3. Most central governments use symbols and language that reinforce 
the imagery of borders as ``zones of exclusion. `` One is often struck 
by the lengths to which some governments go to establish and demarcate 
their state's distinctness and identity-from the display of massive 
flags to the creation of a no-man's-land and the building of actual 
fortifications. Such views, however, often contrast sharply with those 
of the locals, who are much more likely to consider the border a place 
of commercial, social, and cultural interface, part of an often single 
community-some of which just happens to be in a foreign political 
jurisdiction. Many communities along both U.S. borders feel (and act) 
this way.
    4. The adoption of a model of tight controls and the empowerment of 
border officials to exclude people with little accountability have 
become breeding grounds for arbitrary behavior by national government 
personnel; they also create more opportunities for corruption and 
encourage the growth of market forces designed to defeat border 
controls. Nowhere is this phenomenon more evident than along the U.S. 
southwest border, although behavior at other borders follows the same 
general rule. As an example of arbitrariness, U.S. immigration 
officials at different crossings seem to interpret their authority to 
exclude inadmissible entrants quite differently, resulting in 
dramatically different outcomes. With regard to official corruption, 
international smuggling networks are now widely thought to be able to 
corrupt government officials virtually anywhere.
    5. Border communities typically approach both the challenges and 
the opportunities of deeper cross-border relations in a remarkably 
pragmatic fashion. Communities along the U.S.-Canada border typify this 
behavior, although below the radar screen of newspaper headlines and 
the rhetoric of politicians this is now a nearly universal phenomenon 
along uncontested borders. In fact, as cross-border contacts increase, 
local officials from both sides, in partnership with business 
interests, religious organizations, and community-based and other 
nongovernmental actors, seek to play increasingly significant roles in 
the ongoing discussions about and the making and implementation of 
policies that affect their lives. Clearly, not all communities are 
equally active in this regard and few are successful in influencing 
their fate in measurable ways. However, the existence of institutional 
frameworks that encourage and formalize input, can make a significant 
difference in outcomes. Two other factors also facilitate better cross-
border understanding: the growth in cross-border civil society 
contacts, and official efforts to consider local perspectives along 
borders.
    6. Business and commercial interests are the drivers of better 
cross-border relations across all research sites. In fact, some 
observers argue that many border communities share a single business 
culture in what often amounts to symbiotic, even single, markets. This 
holds true regardless of the degree to which business contacts are 
formal or informal. Not everyone shares the enthusiasm of commercial 
interests for more 5 cross-border openness, however, and, as a result, 
the vision of cross-border relations promoted by business interests can 
complicate matters when it is in conflict either with that of other 
local interests or with national priorities and regulations. Such 
conflicts are further exacerbated when national regulations, and/or the 
way in which they are implemented by representatives of national 
bureaucracies at the border, are internally contradictory or are 
thought to be at significant variance with the broader local economic 
life. At times, local communities seek to take initiatives to redress 
the perceived imbalance.
    7. There is a remarkable degree of community-devised cross-border 
cooperation on issues such as public health, access to education, 
environmental protection, joint regional planning, and law enforcement. 
In most instances, such cooperation seems to be unaffected by the ups 
and downs of the national conversation on borders and, more precisely, 
the conversation within the national capital. Local concerns about the 
tone and flavor of these conversations have been heightened by a 
growing appreciation that discussions about borders inside national 
capitals seem always either to over- or under react to the real issues. 
Community views, on the other hand, are typically closer to the facts 
on the ground than is political rhetoric, and are better attuned to 
local needs and nuances. These range from a finer sense of increasingly 
common destinies and, perhaps to a lesser degree, human and ethnic 
solidarity.
    8. Investments in the economic and social development of border 
regions and cities are at best an intermittent affair and tend to be 
inadequate even in the best of circumstances. Models of how to invest 
in a border region include the distribution of significant funds 
through supranational institutions (the EU ``Euro-regions'' model) and 
the potentially very significant U.S. investments in transportation 
corridors which allow investments in Canada and Mexico. A third 
potential model is the embryonic U.S. development efforts at its 
southwest border by the Interagency Task Force for the Economic 
Development of the Southwest Border, impaneled by the Clinton 
Administration. A final model comes from the Pacific Northwest, where 
remarkably well-organized cross-border public/private efforts have been 
able to make considerable progress in securing funding from state, 
local, and U.S. federal sources to pursue the objective of adapting 
national policies to the region's unique requirements and 
opportunities.
    9. There is an increasing array of experiments with a variety of 
``extraterritorial'' arrangements designed to facilitate commercial and 
socio-cultural interests. For instance, the United States has 
experimented with permitting Mexican border inspection functions to be 
performed deep within U.S. territory during the Christmas season (in 
order to reduce delays at the border as large numbers of Mexicans 
return home for the holidays). The United States and Mexico have 
reciprocally expanded the zone for the less restricted movement of 
Mexicans in Arizona to 65 miles (and for Americans into Sonora for 100 
kilometers), mostly as a means of encouraging access by Mexican 
nationals to U.S. commercial establishments. Finally, in most major 
Canadian airports, the United States has a deeply institutionalized 
pre-clearance system for customs, immigration, and associated agencies 
for travelers to the United States, and together with Canada it is 
taking the first tentative steps toward sharing inspection facilities 
and related items.
    10. Next to being given short shrift by national authorities and 
the lack of resources, lack of ``capacity'' may be the border 
communities' greatest problem. It may be difficult to overemphasize 
this point. The capacity gap spans the gamut of activities along 
borders. It is clearly more pronounced in poorer countries, in remote 
border communities, and in the communities most recently delegated 
political power. It also exists, however, in communities lacking 
sufficient physical capacity to handle the ever expanding traffic. The 
need for capacity building goes beyond governance and beyond the public 
sector, including the fields of education and health services and the 
development of a culture of civil society that can hold the government 
accountable for its decisions and can play a part in the development of 
a broader base of social activism.
                          III. RECOMMENDATIONS
    The rich and intricate tapestry of complex interdependence stitched 
together by the case studies in this volume makes clear that 
generalizations and, ultimately, policy recommendations need to 
exercise extreme care not to oversimplify. The case studies also make 
clear, however, that there is a great deal more going with cross-border 
communities than many analysts have suspected and, more to the point, 
than either national leaders or the national press have bothered to 
recognize.
    What, then, might one recommend that is consistent with and moves 
toward the more open and cooperative future the research results 
discussed in this volume imply? We are making three overall 
recommendations.
    1. Border controls should be conceptualized as a means to an end, 
rather than as the ultimate policy goal portrayed in political rhetoric 
and reflected in bureaucratic initiatives. Put differently, the 
explicit end-goal of regulatory and enforcement efforts at the border 
should be to manage the border effectively enough to prepare the ground 
for the serious conversation about how best jointly to accomplish each 
neighbor's principal public policy priorities while allowing more 
organic forms of integration to proceed at a reasonable pace. One 
implication of this recommendation is that the current set of 
discussions and initiatives regarding the NAFTA partners' internal 
borders should continue to proceed roughly along the paths they have 
been following in the last year or so; this must be accompanied, 
however, by an explicit reconceptualization and articulation of the 
desirable endpoint. Focusing squarely on the greater use of technology 
and on management innovations that improve both facilitation and 
regulation and control must be part and parcel of this process-but, 
again, they must not be the end points of the NAFTA relationships.
    For the U.S.-Canada border, continuing along the path of the last 
year or so but with a re-conceptualization of the end point means ever-
closer and more organic cooperation, a more explicit focus on 
understanding and addressing differences, and far greater 
experimentation. For the U.S.-Mexico border, this means that Mexico's 
deeper engagement of the United States over the last year or so must 
not just continue in earnest but in fact must accelerate further, and 
it must shift gears. This bilateral relationship is too important for 
either country to become distracted by the differences between them.
    Although that engagement's centerpiece is the migration 
relationship, the border cannot be left too far behind-if for no other 
reason than that it is deeply intertwined with the migration issue.
    2. All three national governments must show uncharacteristic 
adeptness in
    adapting their border management and enforcement practices to local 
conditions. While in the U.S. context this recommendation may raise 
important field-management concerns about the U.S. Immigration and 
Naturalization Service (which has proven unable to rein in its field 
managers and deliver many of its functions with consistency), the 
principle nonetheless remains a powerful one. Whenever possible, field 
managers should be encouraged to work in tandem with local communities 
to deliver the various components of the immigration function in a 
manner that is sensitive to and builds upon the particular 
circumstances of an area.
    Currently, hardly any border communities have either a strategy or 
a mechanism for building their capacity to aggregate and articulate 
their interests. (The U.S.-Canada border may be the only near-
exception.) Developing such strategies and investing in mechanisms-such 
as a regular annual or biennial meeting of public and private-sector 
interests along and across a single border-could address this weakness. 
Such a regular forum would institutionalize the exchange of views, 
facilitate the process of learning about each other's interests, 
priorities, successes, and failures, and offer an opportunity to build 
relationships and impanel issue-focused groups, as appropriate, to 
promote common interests.
    Central governments also should initiate regular, systematic 
opportunities for local interests to be brought into the decision-
making process about issues that affect them. Such an initiative would 
address a second systemic weakness of the status quo the lack of a 
formal mechanism for communities to convey their interests to the 
appropriate central government policy-making bodies in a manner that is 
timely and thus enhances the prospects of a fair hearing.
    3. There should not be a one-size-fits-all approach to the issues 
at hand not even along a single border. History, topography, economy, 
and the level of local engagement with the issue (both that of the 
public sector and that of the for-profit and not-for-profit private 
sectors), lead to enormous variability in the delivery of border 
inspection functions, as do differences in outlooks and management and 
the personal skills of the local managers of national bureaucracies. 
These differences demand, and sometimes in fact result in, sensitive 
and thoughtful approaches that respect and take advantage of 
differences. These approaches, however, still need to be informed by a 
single policy frame of reference and must reflect the levels of shared 
goals and objectives between the two countries-that is, building upon, 
rather than undermining, the increasingly seamless cooperation between 
the two countries in a vast array of policy areas.
    The importance of policy clarity and, more importantly, of policies 
that have a real purpose-an end-goal or a vision-cannot be 
overemphasized, nor can its absence, from virtually every border this 
project has studied, be more pronounced. It is, in our view, the most 
fundamental explanation for the relative state of confusion about the 
management of borders, and for the inconsistency with which it is 
proceeding. As a result of this failure of imagination, states do not 
seem able to learn from and successfully incorporate innovations in 
managing borders, or in testing different management models and 
alternative methodologies.
                 IV. THE VOLUME'S NORTH AMERICAN VISION
    We call on the three NAFTA partners to commence initially domestic 
processes to develop a strategic plan for changing the terms of the 
debate about the border relationship with their immediate neighbors. 
Whatever is agreed to must proceed from the assumption that if 
negotiations are to succeed, they must recommend activities that are 
gradual and evolutionary, and in each instance take into account the 
interests of the affected communities. This implies much deeper levels 
of national government/state (provincial) and local government 
cooperation. It also implies far greater and more systematic 
consultations with local stakeholders than any of the three national 
governments is either familiar with or perhaps comfortable in 
undertaking.
    Our vision imagines the NAFTA's internal borders gradually (and in 
temporal and substantive terms, unevenly) becoming irrelevant to the 
point where their abolition could proceed without any measurable losses 
in any of the important security, revenue collection, and even 
``identity'' priorities of each partner, at least relative to the 
results of the present course of action. The vision also imagines small 
actual additional losses in ``sovereignty'' for any of the partners. 
Any such ``losses,'' in fact, would in our view be offset by 
substantial democratic surpluses for all three NAFTA partners.
    Such a vision could be best approached from two distinct, yet 
ultimately converging, tracks. Both require greater vertical and 
horizontal consciousness-raising and greater and more systematic input 
by local communities and their institutions-public and private. The 
first track focuses on continuing the multiplicity of contacts, the 
deepening of bilateral engagement, and the focus on pragmatic problem-
solving that has been the operational model for the past few years-if 
intermittently so. The second track should focus on the kind of North 
America the citizens of the three countries have a legitimate right to 
expect in the not-too-distant future-and on how best to achieve it.
    Some of this latter track's required elements will of necessity be 
``defensive'' in nature; that is, they must ``protect'' citizens from 
unwanted activities, practices, and products. Other elements will be 
forward-looking and will be advancing broader citizen interests in 
terms of prosperity, adherence to rules, protection of rights, and 
fundamental conformity with the principles of humanitarianism. In its 
totality, the proposed vision should hold the promise for doing better 
by most people in each of the NAFTA partners along most of these goals.
    Such a vision should include the following among its main elements:

        1. Greater security from illegal activities and unwanted 
        products from outside the NAFTA space-including terrorism, 
        illegal immigration, drugs, and more;
        2. Protection from illegal activities and undesirable products 
        that may be found inside the NAFTA region that will be no less 
        reliable than what each NAFTA partner enjoys now;
        3. The nearly seamless movement of legitimate goods and people 
        seeking to cross internal NAFTA borders; and
        4. Protection from the political ups and downs (the political 
        ``mood swings,'' as it were) of one NAFTA partner or another 
        and, perhaps more importantly, from bureaucratic ``ad-hocism,'' 
        affecting the vital interests of the other partners.

    Is our vision realistic-particularly in the post-September 11 
environment? We think so. Will critics think that it is realistic? 
Probably not. In many ways, there are few things easier than shooting 
down a vision. The three NAFTA capitals are full of people who know how 
to say ``no'' a million ways. (Bureaucracies of all types are 
particularly adept at saying ``no'' to changes in their mission or 
culture. Ultimately, since it is bureaucracies that will implement any 
vision, working with them will bear more fruit than working against 
them.) Getting to ``yes,'' however, requires great political courage 
and uncommon qualities of leadership. Nor can a vision of a different 
future immediately provide fully satisfactory answers to all the 
questions-legitimate or not-that one may pose. Realizing the vision 
proposed here will be rocky and the outcome frequently will seem 
uncertain. Furthermore, as with the early stages of any ambitious new 
initiative, there will be winners and losers-and each NAFTA partner 
will have to give priority to developing and implementing, policies 
that address the concerns of those who will likely lose at the 
beginning.
V. SOME INITIATIVES THAT CANADA AND THE U.S. CAN BEGIN TO IMPLEMENT AS 
                            SOON AS POSSIBLE
    Integration is a gradual process involving a myriad of incremental 
steps and the building of trust. To begin, we suggest that each border 
inspection agency be required to analyze each one of the functions it 
performs at the border along four lines: First, must each of its 
functions be done only at the border? Second, what are the costs and 
benefits of doing that function at the border versus doing it 
elsewhere? Third, can any of its functions be performed by an inspector 
from a sister agency? Fourth, can any of the functions in question be 
performed (after proper negotiations, training, etc.) by an inspector 
from the other country?
    We list below some concrete steps in the process of rethinking 
border management. We expect these initiatives to be tested first with 
Canada but expect that, over time, those that pass the tests, would be 
gradually ``exported'' to the U.S.-Mexico border.
    <bullet> Customs could perform many of its inspections and collect 
all applicable duties at the point where the cargo is loaded in North 
America, employing available technology to ``seal'' the containers) and 
transferring all the relevant information about the cargo 
electronically to any other inspection point.
    <bullet> Customs could employ ``risk-management'' methodologies for 
performing inspection functions and re-deploy some of the newly 
``released'' personnel to joint investigative task forces with sister 
agencies from either side of the border in order to uncover violations 
of various types.
    <bullet> One NAFTA partner could handle inspections and the 
collection of tariffs on behalf of the others or could do so jointly-
but always once-at the initial point in which a cargo from a non-NAFTA 
country enters NAFTA space. Similarly, progress should be made on the 
``unified port management'' concept for its potential to use resources 
most efficiently while improving both service and the quality of 
inspections.
    <bullet> Border customs inspections could be done only once-by 
either national customs service-so as to accommodate variances in 
staffing, physical infrastructure, and topographical idiosyncrasies.
    <bullet> The United States could copy the Canadian model of having 
only one agency staff the primary inspection lanes, rather than having 
both Customs and the Immigration and Naturalization Service. All 
necessary inspection agencies would still retain a presence at the 
border to perform secondary inspections.
    <bullet> Existing systems of customs brokers and private bondsmen 
could be utilized to a far greater extent and given both greater power 
and greater responsibility-and, by extension, made more accountable 
(and penalized more severely) for failures - of either omission or 
commission.
    <bullet> The private sector could be relied upon even more 
consequentially in areas ranging from technology to the building of 
better infrastructure wherever it might be needed, through liberalized 
public-private partnerships and pay-as-you-go projects.
    <bullet> The INS could handle all third-country (non-NAFTA) 
immigration controls at an individual's first point of entry into NAFTA 
space. Pre-clearance technology and intelligence cooperation are in 
many instances already significant enough to expect that this method 
can be accelerated without any loss of control relative to 11 the 
status quo. In fact, airport inspections are more accurate and can be 
more efficient than virtually any system of inspections at land 
borders, where visa and identity checks, even after September 11.
    <bullet> Canada and the United States could agree to a common visa 
regime for the widest band of countries each country could accommodate 
and exercise much greater care in the issuance of visas for the 
citizens of countries for which visa-free entry could not be agreed to 
by the other country.
    <bullet> Canada and the United States initially, the U.S. and 
Mexico at a later point, and, eventually, all three NAFTA partners and 
contiguous neighbors, could gradually liberalize the movement of each 
other's nationals, thus freeing their inspection resources to focus 
more on non-NAFTA nationals. (It is worth noting that despite having 
reached absolute freedom of movement, intra-EU migration by EU citizens 
is minuscule, at between seven and eight million persons, or about two 
percent of the EU's population.) Potential exploitation of a country's 
social support systems by nationals of another NAFTA country can be 
addressed up front in a variety of ways, including requiring departure 
within a specific time period if a job or other means of support hasn't 
been found or by continuing the social protection mechanisms of the 
country of origin for the initial few months after entry.
    These recommendations are not made in a vacuum. Some tentative 
steps toward the directions recommended here are already being taken, 
the technology is readily available, and the large business sector that 
accounts for most of the transborder initiatives and energy is thought 
to be fully primed for cooperating in return for more timely and 
predictable results. A vision, and political will, seem to be the major 
missing ingredients.
    We must also note that our vision has no room for supranational 
bureaucracies a la Brussels. We believe instead in an integration 
process that is organic and is thus built from the bottom up-and from 
the periphery to the center, that is, from border regions to capital 
cities, differing dramatically from the top-down approach the EU 
practices even today. Europe's experience nonetheless reminds us that 
progress on even the most intractable issues comes down to creativity, 
leadership, local input, an overarching vision, - liberal amounts of 
common sense, and a willingness to experiment and learn from others.
                        VI. CONCLUDING THOUGHTS
    Few issues in the international system are as complex as those 
surrounding borders. As this volume demonstrates, the roots of that 
complexity include but go beyond the reality that borders are the most 
direct physical manifestation of ``statehood'' and sovereignty. They 
also are inextricably linked with competing policy priorities that 
simultaneously expect border inspection systems to allow the swift and 
efficient passage of legitimate people and products while unerringly 
stopping illegitimate traffic and undesirable products. At their very 
root, however, borders and their ``management'' or ``protection,'' 
however much these last functions may have changed in recent years, are 
first and foremost political concepts, and can only be addressed 
politically.
    What relationships, then, might one anticipate within the NAFTA-
space in the years ahead? Canada's understandable preoccupation with 
its U.S. relationship will continue to motivate that country to ensure 
by any means necessary that the economic relationship continues to grow 
in ways that guarantee the prosperity of its people. It is in fact our 
contention that, substantively at least, the U.S.-Canada border is 
likely to disappear before any politician finds the political courage 
to negotiate its removal. Symbolic issues, of course, will need to be 
addressed, as will the significant strengthening of police functions 
both along the outside perimeter of North America and-an important 
policy development-in the interior of each country, an intensification 
that is already occurring.
    Mexico, buoyed by and ready to draw on the democratic dividend 
created by Mr. Fox's defeat of the candidate of the Institutional 
Revolutionary Party (PRI) in the 2000 presidential elections, has found 
the confidence to enter into bilateral negotiations with the United 
States about a tough binational ``bargain'' on migration and border 
issues. That bargain, whenever the post-September 11 climate allows it 
to move forward, would offer Mexicans much greater access to the part 
of the U.S. economy and labor markets in which it is already a major 
player in return for far greater and much more active cooperation in 
addressing the primarily ``law-and-order'' issues of concern to the 
United States. Mexico's ability to deliver on the responsibilities it 
would undertake under such a bargain would in turn determine the pace 
at which it may begin to catch up with the U.S. treatment of the U.S.-
Canada border.
    Finally, U.S. interest in the North American ``project'' envisioned 
here (``acceptance'' may be a more appropriate term than ``interest '') 
is likely to be tepid until it is convinced that it can accomplish its 
own policy priorities less expensively, more efficiently, and much more 
effectively than under the status quo. In that regard, it is the limits 
of thicker and infinitely more expensive unilateral controls that may 
persuade the United States to consider truly alternative ways of 
dealing with these issues.
    Mr. Chairman, Members of the Subcommittee: Ensuring our safety 
requires a comprehensive, system-wide response that goes well beyond 
the jurisdiction of this Subcommittee and includes not only the INS but 
each and every public agency with which foreign entrants interact. Our 
nation's security from foreign nationals who may wish us ill in the 
months and years ahead rests on the simultaneous and sustained pursuit 
of several initiatives.
    This is an extraordinary task under any circumstances; it becomes 
even more so, however, given our record as a people of a generally low 
attention span on matters large and small. This tendency makes it all 
the more important that we resist the twin impulsions of (1) throwing 
money at the problem (this problem is too large and it can ``break the 
bank'' rather quickly) and (2) rushing to create new and cumbersome 
data 13 systems that may offer only marginal benefits to the common 
objective of making our country more secure while having enormous long 
term costs on who we are as a nation.
    Based on our research, we believe that, over time, we can achieve 
many more of our goals working together with the intelligence gathering 
and law-enforcement agencies of our allies in this ``war on 
terrorism,'' and particularly with those of our North American 
partners-Canada and Mexico than we can do unilaterally. Seamless 
cooperation in protecting our common North American space, what some 
people now call ``perimeter defense,'' is a goal worth pursuing at a 
pace and with as much vigor as prudence and the capabilities of each of 
our partners allow.
    Ultimately, Mr. Chairman, we can protect ourselves better through 
``external'' controls, that is, actions that we might take before an 
undesirable alien gains entry into our country than ``internal'' 
controls, that is, measures taken once one has been admitted. Put 
differently, keeping undesirable individuals out of the US through 
``front gate controls'' (that is, the visa issuance and border 
inspection regimes), is both easier and more effective than attempting 
to catch up with such persons after they enter the US. Focusing most of 
our additional resources on prevention measures demands that we treat 
our contiguous neighbors as the assets that they are (and can be) than 
as the liabilities that some seek to make them.
    Thank you, Mr. Chairman, for the opportunity to appear before you 
and the Subcommittee.

    Chairman Kennedy. Thank you very much.
    Mr. Norton?

      STATEMENT OF RICHARD E. NORTON, EXECUTIVE DIRECTOR, 
INTERNATIONAL BIOMETRIC INDUSTRY ASSOCIATION, FAIRFAX, VIRGINIA

    Mr. Norton. Mr. Chairman, Senator Brownback, thanks for the 
opportunity to appear here today before this panel.
    We are pleased to note the consensus we have seen today on 
the need for greater use of biometrics and understand the 
crucial role they can play. In the past, we think the 
biometrics have been largely misconstrued as perhaps invasive 
technologies that would be compromising privacy when, in fact, 
the opposite is the case, and we are seeing a broad recognition 
of that--really the only way to offer a technological silver 
bullet here, to coin a phrase used by Mr. Ziglar, that can 
offer security, that can offer convenience, and also protect 
privacy at the same time.
    The reason is that biometrics are stored as encrypted 
digital information. They are not stored as an image, with rare 
exception, and they can't be reverse-engineered to reveal 
anything about the holder. They don't say anything about the 
sex, the age, the race of the person's identity, and they can 
truly place a lock and key on this information and protect it 
from prying eyes.
    Our message is simple: The U.S. has the tools to 
immediately implement several important biometric-based 
programs and make a difference right away. By consolidating 
information, placing the proper equipment in the field, and 
enabling real-time checks of the data, valid document holders 
can be identified at any stage of the process, from application 
at a consular post to departure from the United States.
    Our recommendations are to do the following now:
    First, deploy readers at the border that can verify the 
identity of any holder of an alien resident card or border 
crossing card. By the end of next year, there will be nearly 20 
million of these documents in circulation, and all have 
biometric information securely embedded in them. This 
information can be relied on to determine if a holder is 
properly linked to the document at the time they apply for 
admission to the United States.
    Second, we strongly urge the consolidation of all photo 
images from all U.S. travel documents into the Interagency 
Border Inspection System. Right now we have access to visa 
information that is slowly coming on at several ports of entry, 
and we are pleased to hear that this information may be 
available more broadly in the future. However, U.S. passport 
information is not in this database, nor is information 
reliably accessed on ARC holders, that is, alien resident card 
holders, and border crosser card holders. Doing so would give 
the U.S. authorities the immediate ability to verify the 
identity of any document holder.
    And, third, we would like to recommend something that 
perhaps wouldn't be seen as a replacement for the pre-
inspection program, but could certainly be made available 
universally, which pre-inspection never will be, and that is to 
add the images of suspected terrorists to this database that we 
are talking about to the Interagency Border Inspection System 
and make this a real-time system, driven by facial recognition 
technology that can be used to verify the validity of a 
document and the identity of the holder before the travelers 
board the flight to the United States. Making the Advance 
Passenger Information program universal is a good step, but it 
does nothing to stop a terrorist at the airline gate.
    Real-time access using facial recognition technology can 
accomplish this goal while offering convenience, privacy, and 
security to the traveler and without resorting to something so 
dramatic as a national I.D. card.
    There are additional steps underway. The FBI is looking at 
how it can improve its automated fingerprint identification 
system to provide the sorts of checks that are envisioned in S. 
1452, introduced by the chairman last month. The U.S. 
Government and other governments, along with airlines, 
airports, and technology providers, are cooperating with the 
Simplifying Passenger Travel program to try to rope in as many 
bona fide travelers into a system of biometric identification 
as possible and do this on an international basis.
    Third, the International Civil Aviation Organization is 
also trying to improve the documentation, being able to use 
biometrics in a passport to validate who a traveler is, again, 
deterring fraud, enabling us to identify people who shouldn't 
be in the system, and facilitating the people who should be 
allowed to pass freely.
    Finally, we would like to add we have heard much here today 
about the concern about privacy. As we explained, biometric 
technologies do offer the ability to retain privacy without 
eroding security. Ultimately, the citizens' trust is going to 
have to be acquired by assurances that these systems are 
properly regulated and properly maintained. The biometric 
industry has been very aggressive about this and has advocated 
controls for several years that would enable this sort of 
system to be implemented with full confidence of the citizens 
of the United States.
    Our recommendations are completely detailed in our written 
testimony, Senator, and we would be happy to answer any 
questions about them. Thank you.
    [The prepared statement of Mr. Norton follows:]

   Statement of Richard E. Norton, Executive Director, International 
                     Biometric Industry Association

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting the biometric industry to offer its views at this important 
proceeding. My name is Richard E. Norton, and I am the Executive 
Director of the International Biometric Industry Association (IBIA). 
IBIA is based in Washington, D.C. and represents the collective 
interests of manufacturers and developers of biometric technology.
                          Biometric Technology
    Biometrics are defined as the automatic identification or identity 
verification of an individual based on physiological or behavioral 
characteristics. The authentication of identity is accomplished by 
using computer technology in a noninvasive way to match patterns of 
live individuals in real time against enrolled records. Examples of the 
patterns used for biometric identification include those made from a 
finger image, the geometry of the hand, an iris, voice, signature, or 
face. It is important to note that most biometric applications do not 
store the actual image of the feature being measured. Instead, 
biometrics secure systems and protect an individual's identity by 
converting the measurement into an encrypted file. This biometric 
record cannot be reverse engineered to determine a person's age, sex, 
race or other sensitive information. Likewise, it cannot be used to 
steal someone's identity.
    With these characteristics, biometrics are the only technologies 
that can offer both increased security and greater convenience. The 
U.S. Government has been an early adopter of biometrics, first using 
the devices to control access to highly sensitive facilities such as 
nuclear power plants and weapons facilities. Now biometrics are 
routinely employed to protect networks against intrusion by hackers, to 
secure records from identity theft, to ensure benefits are disbursed to 
the lawful recipient, and to protect borders.
                    Biometrics and Border Clearance
    The U.S. has nearly a decade of experience with this latter 
application. The Immigration & Naturalization Service has experimented 
with biometric technologies at land and air ports of entry, and has 
deployed its INSPASS automated kiosks at a number of major airports in 
the U.S. and at immigration pre-clearance sites in Canada. While the 
INSPASS system has not been implemented on a broad enough scale to 
reduce the burden on the INS inspection mission, it is widely regarded 
as a successful experiment that has worked as planned--in complete 
security--for over eight years. Other countries have had similar 
results: Canada, the Netherlands, Singapore, and Israel have 
implemented biometrics in this demanding national security role and 
found them to be robust and effective.
    The question is how we take these low volume trials and efficiently 
convert the lessons learned into a comprehensive system of controls 
that tighten our border without causing service levels to deteriorate 
to unacceptable levels. Fortunately, the tools are in place to 
accomplish this goal: not only are the technologies reliable and 
standards in place, but in several significant areas the U.S. has taken 
preliminary steps that will enable us to make a measurable difference 
at a reasonable cost. Furthermore, we are convinced there are ways to 
accomplish our objectives at the border without having to resort to a 
national identity card.
                         Elements of a Solution
    In many respects the U.S. has the key elements of biometric-based 
systems in place, ready to be converted into information that can be 
tapped to identify travelers at ports of entry, applicants at visa 
issuance posts overseas, and potential threats to national security as 
they attempt to enter or move about the country.
    First, INS has issued over five million of its highly secure Alien 
Resident Cards (ARC) to permanent residents of the U.S. The Department 
of State has used the same technology on nearly five million Border 
Grosser Cards (BCC) that have been issued to Mexican citizens since 
1999. By the end of 2002, over 20 million such cards will be in 
circulation; by 2007, all ARCS will have been converted to the new 
format. Both cards contain an image of the bearer's fingerprint that is 
encoded in the optical zone of the card--a feature analogous to the 
appearance and storage capacity of a CD-ROM, but with strong built-in 
encryption that has effectively prevented forgery.
    Second, all U.S. visas are produced from a digital file that 
includes an image of the bearer. This image is now retained in State 
Department files and, as with the image of the ARC or BCC holder, can 
be used to help verify the identity of the person presenting the visa 
through face recognition technology.
    Third, border agencies have established a nearly universal system 
for checking on the identity of passengers as they travel to the U.S. 
The Advance Passenger Information System (APIS) calls for airlines to 
forward biographical information to the Interagency Border Inspection 
System, where lookouts are run and ports notified if U.S. authorities 
want to closely examine a particular passenger. IBIS, if it is 
converted to a real time, two-way communication system and expanded to 
include automated links to ARC, BCC and passport data, can be used to 
validate the identity of travelers before they board their flight to 
the U.S. (see ``Recommendations'' below).
    Fourth, the biometric industry has worked diligently to establish 
the standards needed for true interoperability. In cooperation with the 
National Institute of Standards & Technology, IBIA has created a 
registry that enables any biometric device to be recognized on a 
network. The industry and government also have worked together to 
publish rules on how biometrics are to be integrated into computer 
operating systems. . This is an exceptionally important advancement for 
several reasons:

        <bullet> It allows multiple biometrics to be accommodated;
        <bullet> It allows the quick adoption of new biometric 
        technologies as they are developed in the future;
        <bullet> It permits the rapid exchange of information for 
        record checks; and
        <bullet> It enables the use of biometric information that has 
        been acquired by other sources, such as employers, airlines, 
        and government agencies.
                            Recommendations
    With these pieces in place, there are a number of steps that can be 
taken immediately to improve our capacity to properly identify people 
who are arriving at U.S. borders:
             deploy optical card and finger image readers.
    ARCS and BCCs contain a finger image of the bearer. This image can 
be extracted from the card by an optical card reader, and compared to 
the ``live'' image of the person applying for admission to the U.S. by 
using a low-cost finger image reader. The card is virtually immune to 
compromise, and the process can be conducted without having to 
establish a network connection to a central database.
 standardize the retention of, and centralize, digital images for all 
                            u.s. documents.
    U.S. visa, ARC and BCC records contain digital images of the bearer 
that, if centralized, can be used to verify the identity of the 
traveler. The same process could be used to link U.S. passports to 
their holders if the Department of State updates its system to include 
the digital image of bearers of that document. If this information is 
made available through IBIS, U.S. border authorities can have real-time 
access to images of all applicants for admission, with the exception of 
travelers entering under the Visa Waiver Program.
     apply the use of face recognition technology to automate the 
                identification of u.s. document holders.
    As an extension of the centralization process described above, any 
image that is stored in the system can be used to generate a face 
recognition template. This template can be compared to the template 
that is produced by scanning the image on a travel document, or by 
using an image from a video camera.
   extend the document verification process to the airline check-in 
                                counter.
    Any system of border control and terrorist interdiction requires 
airlines to be an intrinsic and effective-part of the process. 
Currently, airlines have little to go on to determine if a traveler may 
be improperly documented, or if a passenger poses a danger to the 
aircraft. Being able to verify the identity of a U.S. document holder--
or compare a suspect against a terrorist database--will enable 
resources to be focused on identifying those who cannot be quickly 
verified against accurate records. Such improvements to our current 
screening processes can be made by centralizing data and images in 
IBIS, upgrading that system to enable near-real-time interactive 
messaging between government and airlines, and by expanding the use of 
advanced, ``full field of view'' document readers that can 
automatically scan all of the information on the travel document data 
page.
                           Other Initiatives
    Other programs are certain to follow these first steps in building 
an effective system for screening visa applicants and streamlining the 
admission of bona fide visitors, U.S. citizens and returning residents. 
Improvements to the Federal Bureau of Investigation Automated 
Fingerprint Identification System can expedite the kind of record 
checks envisioned in Senate Bill 1452, which was introduced by the 
Chairman of this Subcommittee on September 21, 2001; cooperative 
efforts such as the multi-stakeholder Simplifying Passenger Travel 
initiative, sponsored by the International Air Transport Association, 
will help the U.S. to identify a broader range of bona fide travelers 
who have been vetted through biometric control systems implemented in 
other countries; and further standardization on the use and storage of 
biometrics on passports under the auspices of the International Civil 
Aviation Organization (ICAO) will make counterfeiting, identity theft, 
and imposter fraud more difficult for those with ill intent.
    In closing, the industry would like to mention its efforts to 
pursue these innovations without eroding the privacy and civil 
liberties of American citizens, and without disrupting international 
commerce. Biometric data is inherently secure and serves as a digital 
lock and key on personal information; but ultimately the success of 
these systems will depend on a traveler's trust that they will be 
administered responsibly. The industry's policies and guidelines on how 
to implement biometrics without diminishing public confidence is 
described in detail at our website, www.ibia.org.
    Thank you again, Mr. Chairman, for this opportunity to participate 
in this distinguished panel. I would be pleased to answer any questions 
you have about these recommendations, or about biometric applications 
in general.

    Chairman Kennedy. Just before coming to other questions, on 
this issue of privacy could you just elaborate on that? What 
are you talking about in terms of people having a sense that in 
the biometric system their privacy issues are going to be 
preserved or protected?
    Mr. Norton. Well, as we explained, biometrics do protect 
privacy by their nature because they are an encrypted file and 
they can serve as a lock and key on personal information.
    That being said, people still are concerned about biometric 
information being stored. To say don't worry, trust technology 
that it is taking care of you is an irresponsible statement to 
make.
    So an industry, what we say is that even if these 
technologies have these inherent securities, then you should 
have a system by which they are administered. You should have 
careful controls over the access to the database. You should 
let people know what the data is being used for. They should 
know how it is being shared. They should have control over its 
sharing if it is not for the explicit purpose of these 
controls. And there should be careful regulation of how they 
are administered, penalties imposed if people abuse this 
information.
    Chairman Kennedy. Okay. Could you provide some examples of 
the technology that is currently available and could be 
implemented by the INS? What are the costs involved in 
implementing this system? You discussed applying facial 
recognition technology to automate the identification of 
documents. What is the cost and what is the time and what are 
the principal sort of elements if the country was to make a 
judgment to go in this direction?
    Mr. Norton. There are many biometric technologies that can 
be used, and many are very effective at solving this problem. 
There is iris recognition, voice recognition, face/hand 
geometry, finger imaging. But we have focused today 
specifically on facial recognition and what it could offer 
because it is--
    Chairman Kennedy. Let me ask you just to back up. Do you 
think it is advisable to try and get some international 
standards so that we are all operating on the same plane, so to 
speak? Is that advantageous?
    Mr. Norton. Well, that is the direction that the 
International Civil Aviation Organization is headed, is to look 
at--they recommended, made a preliminary recommendation that 
facial recognition be one of the primary biometric 
technologies. The reason is speed and simplicity. We have 
passports with photos in them. We issue documents and we are 
now digitizing those photos and keeping them in records.
    By applying a facial recognition template to these stored 
images, you can very quickly validate who somebody is through 
automated means. You don't have to have an officer standing 
there comparing a document to a stored image. The system does 
it automatically when you use a facial recognition template.
    All of our documents have photos. It is the quickest way to 
get to where we need to be.
    Chairman Kennedy. Well, let me ask you, what is involved in 
this? You know, if we are to move in that direction now, what 
generally is the--what do you think is the cost, public-private 
time frame? What is your own ballpark estimate?
    Mr. Norton. Well, we have been consulting with the 
officials who do manage the Interagency Border Inspection 
System on a number of initiatives involving this sort of effort 
and how the airlines, in fact, might even figure into this of 
being sort of a second line of defense after the consulates. 
And really what is required is to take this information that is 
already available and pull it together, a fairly simple 
administrative exercise. Apply facial recognition templates, 
which is a very reasonable cost to do, just simply digitize 
these images and make them referenceable by facial recognition 
technology.
    I think the biggest challenge is to make this system real-
time, to invest in the telecommunications infrastructure to 
make it a reliable two-way system that can be instantly 
accessed anywhere around the world. That will be the challenge. 
I think that our agencies are up to that challenge and already 
looking into those costs.
    Chairman Kennedy. How far along are we in terms of the 
technology in this? It is a constantly evolving technology. I 
am familiar with some of it in my own State of Massachusetts, 
which has done some of this and is working with the military, 
primarily, in security areas. But what is your sense? How far 
along are we in terms of the technology and what is your own 
assessment on this?
    Mr. Norton. Biometrics have been under development for 
nearly 20 years, and the U.S. Government was an early adopter 
of the technologies. They used them to protect very secure 
national security facilities, nuclear weapons facilities, 
nuclear power plants. And through the course of this sort of 
evolution of the technology, they have been made very robust.
    Working well and being low cost and easy to implement is 
another question. But over the past 4 or 5 years, we have also 
seen the prices drop dramatically, and we have seen the 
standards put in place that enables these technologies to 
seamlessly work within a system.
    Briefly put, the technologies are robust, they work 
reliably in many difficult environments, and the standards are 
in place to move ahead now.
    Chairman Kennedy. How would you compare it to the current 
I-94 system in terms of integrity and accuracy, speed and 
improving national security?
    Mr. Norton. Well, the current I-94 system is really a mixed 
bag. It is very difficult to track somebody out of the country, 
especially, and it is a laborious process to automate this 
information.
    Proceeding with IBIS along the lines that we discussed--and 
as Mr. Ziglar recommended--I think is an important first step. 
The Interagency Border Inspection System has this information 
already in it that is used to front-load the I-94 system. But 
it not being taken advantage of. I think now that they have 
established this link and realized that the Advance Passenger 
Information program and IBIS and the I-94 program can all 
operate together is a very important step, and I am glad to see 
that it is being taken by INS. It will save money and it will 
help solve the problem of identifying people in the country.
    Chairman Kennedy. You mentioned that the International 
Air--what is the organization that you mentioned trying to work 
out a standard process in terms of--
    Mr. Norton. There are actually two. The International Air 
Transport Association is working on an effort with governments, 
airports, airlines, and technology providers, and the 
International Civil Aviation Organization is looking at 
standardization of travel documents.
    Chairman Kennedy. But they are consistent with their 
objectives, are they? Is there a consistency with where they 
are coming out?
    Mr. Norton. Not only a consistency but a synergy. The IATA 
effort in particular is looking at ways in which biometric 
information can be voluntarily shared to enable people to move 
seamlessly through the system, be carefully identified without 
necessarily being slowed down. People have tended to forget in 
this debate that we can't slow down commerce and we can't 
inconvenience the traveler to the point where the industry is 
disrupted and commerce is disrupted to the United States. We 
feel these efforts, if carefully coordinated, can make progress 
in the security area without diminishing commerce, 
international commerce to the United States.
    Chairman Kennedy. Mr. Papademetriou, let me just ask you 
your reaction for developing a Northern American perimeter 
strategy to combat terrorism.
    Mr. Papademetriou. This is certainly one of the areas that 
we must explore systematically with our Canadian friends 
initially, and gradually, as the capabilities of our Mexican 
friends develop further, with the Mexicans, too.
    This is really all about adding an additional bite at the 
apple in terms of defending ourselves. The outside--the real 
first line of defense, as we heard earlier, is, of course, the 
visa issuance process.
    I think what Mr. Norton is suggesting, we have recommended 
the same thing, but a pre-inspection system becomes a second 
line of defense.
    The third one becomes trying to really keep people outside 
of the perimeter.
    Our neighbors, both Canada and Mexico, are assets and they 
can be made into far greater assets if we work with them rather 
than being liabilities, which is what some people perhaps might 
try to do. So, fundamentally, we are going to be building, if 
we adopt some sort of a perimeter defense or a defense of the 
North American space, we will be adding an additional and 
welcome redundancy to protecting ourselves. And it makes sense 
both in terms of defense but also in terms of protecting and 
advancing our economic interests.
    Chairman Kennedy. Thank you.
    Dr. Butterfield, your view about the national 
identification system for U.S. citizens and foreign nationals 
in the U.S.?
    Ms. Butterfield. Well, Mr. Chairman, I think that that is a 
line that this Nation has not crossed until now, and I would 
urge us to approach the question with a lot of cautions and 
concerns about civil liberties, and with the question that my 
colleague asked earlier about would it really do anything to 
make us safer and more secure. If I were to have to carry a 
national I.D. card and everyone else did and every immigrant 
coming in had some kind of card, then the question is, again, 
what does that tell us? Do I have to show it every time I buy 
groceries, every time I make a bank transaction, every time I 
rent an apartment?
    What would its use be? What would a valid use be? What 
would an overreaching use be? I think those are all questions I 
would want to see considered before taking that step forward.
    Chairman Kennedy. What about foreign nationals?
    Ms. Butterfield. Well, again, I think that the perimeter 
strategy, the layers of security and defense are the most 
effective ones. I think, again, we have a problem with interior 
verification. How do INS officials or employers, for that 
matter, know to ask, you know, me for my I.D. or not, because I 
am a U.S. citizen, but yet ask an immigrant to show some kind 
of authorization. And I venture to say that Mr. Papademetriou 
would be asked more often than Ms. Butterfield would. And so 
then we get into issues about profiling and discrimination.
    Chairman Kennedy. Maybe not in Boston.
    [Laughter.]
    Senator Kennedy. Senator DeWine?
    Senator DeWine. Mr. Chairman, thank you. Let me first thank 
you, Mr. Chairman, for holding this hearing. It is a very 
important hearing, and I appreciate you doing it very much.
    I have, Mr. Chairman, a statement which I would ask just to 
be made a part of the record.
    [The prepared statement of Senator DeWine follows:]

  Statement of Hon. Mike DeWine, a U.S. Senator from the State of Ohio

    Chairman Kennedy, thank you for agreeing to hold this important 
hearing on our efforts to deter terrorism through immigration controls. 
I thank our witnesses for coming to testify today, as well.
    Before I say anything else, I want to make it perfectly clear that 
I am not here to discourage legal immigration into our country. We 
are--and always have been--a nation of immigrants. However, following 
the tragic events of September 11<SUP>th</SUP>, we awoke to a whole new 
world. We now are rethinking many of our nation's policies--from 
national security measures and intelligence gathering to domestic law 
enforcement and public health emergency procedures. Our immigration 
policies are also at the a significant part of the debate on anti-
terrorism controls.
    In examining current immigration policy and the terrorist threat, 
we are presented with many questions: Do we focus on trying to keep 
track of aliens we allow into the United States? Or, do we focus our 
limited resources on screening those who have asked permission to enter 
our country? The reality is that we must do both. We must do a better 
job of screening aliens who enter the country, while at the same time 
keep track of when and where those aliens enter and exit, and where 
they are while they are here.
    Let me talk for a moment about the scope of what we're facing. Last 
year, the INS performed 529.6 million inspections of individuals who 
crossed our borders either by land, sea, or air. As Commissioner Ziglar 
noted in congressional testimony last week, over a half-billion 
personal contacts were made with INS inspectors at our ports-of-entry. 
After deducting American citizens who were inspected, 352 million 
aliens were inspected in 2000. A little less than a third of those 
aliens are permanent residents. That leaves 255 million inspections of 
temporary ``nonimmigrant'' aliens who are crossing at U.S. ports-of-
entry.
    It appears that this is the pool of entries in which we are 
searching to find terrorists and others who are coming into the United 
States for illicit purposes. Out of 255 million inspections, how on 
earth are our law enforcement and other agencies responsible for these 
individuals' entry supposed to identify 19 terrorists?
    That's certainly a vast and overwhelming challenge. But, at the 
same time, it is a challenge that we must meet. Congress expects it. 
The American people expect it. Today, we want to know what needs to be 
done meet this daunting task.
    While I believe we can meet the challenges we face, I also believe 
that it can be done only with the help of technology. I would like to 
hear our panelists' ideas about how technology can be used to lessen 
the terrorist threat with regard to immigration controls and 
technology. What is your plan for using all available technology to 
address immigration concerns?
    Let me tell you what I have been thinking. In the Senate's recently 
passed anti-terrorism package, I asked the Attorney General, in 
consultation with appropriate agencies, to report to Congress on how we 
can use our national biometric systems, such as the FBI's Integrated 
Automated Fingerprint Identification System (IAFIS), to better identify 
potential terrorists. Specifically, I asked how we can use the 
automated fingerprint system to identify a person who holds a foreign 
passport or a visa and may be wanted in connection with a criminal or 
intelligence investigation in the United States or abroad. The idea is 
that we would use the automated system to gather this information 
before the issuance of a visa or entry into--or exit out of--the United 
States.
    I recognize that current INS technology is outdated and 
insufficient to meet the new demands. We should leverage the 
substantial investment taxpayers have made in the IAFIS system to 
create a system of identification and verification that is fully 
integrated with all relevant federal, state, and local agencies--all in 
real-time. Currently, IAFIS has more than 48 million images and 
exchanges information with almost all federal, state, and local law 
enforcement agencies. I am not saying that this system is perfect, but 
I am saying that we should use all of our available resources at our 
disposal.
    Again, thank you for participating today. I am looking forward to 
hearing from our witnesses.

    Senator DeWine. Mr. Norton, I am very interested in the use 
of biometric technology to enhance security at our borders. I 
think we are going to have to find a way to quickly implement 
this type of technology. Over the last couple weeks, I have 
attended a number of hearings here at the Capitol where 
biometric technology has been discussed, and discussed at 
length.
    Witnesses have testified regarding the prospects for 
biometric technology and have given examples of where that 
technology is already in use. It has really, though, become 
clear to me that there are two distinct uses for biometric 
technology. Biometric technology can be used to verify the 
identity of an alien who is holding a visa, or biometric 
technology could be used to establish the identity of an alien 
who applies for a visa or entry in the United States.
    Most of the examples I have heard are applications of 
biometric technology to verify identity. The State Department 
cites the new laser visas or border crossing cards which 
incorporate biometric technology. The biometric technology in 
these so-called smart cards is really just to verify if the 
person holding the card is the person to which the visa was 
originally issued. There is no biometric search done by the 
State Department when that individual is initially issued that 
visa.
    Now, when the State Department issues the original visa, it 
relies on the information provided by the individual and the 
name check process described by Ambassador Ryan. If the 
individual provides false information to the State Department, 
biometric verification and a laser visa doesn't really tell us 
anything very useful.
    I think we have a similar situation with the INS INSPASS 
system, and in that case, the hand scan and the accompanying 
card merely verify the identity of the card holder.
    Now, I understand that the IDENT system could be used, can 
be used to establish the identity of individuals who have been 
entered into the system because they have been repeatedly 
caught entering into the country illegally.
    Now, aside from that limited use, are there any biometric 
systems that are currently in use to establish the identity of 
aliens who want to enter the United States? And a related 
question is: If we want to positively establish the identity of 
aliens entering the United States, don't we really need a 
biometric system in place at our consular offices overseas? And 
don't we need a real-time biometric identification system at 
our ports of entry for aliens who have not gone through the 
normal visa application process?
    A long question and I apologize, but I am sure you can 
handle it.
    Mr. Norton. You raised a number of issues. First of all, 
you are right. Verification is great technology once you know 
who somebody is and you can verify who they are, link them to 
an identity and a document. From that point forward, 
verification operates very smoothly and effectively. INSPASS 
has done so in complete security for 8 years, and other 
countries have had similar success.
    But you do have to make sure that you know who you are 
dealing with, and that is why the criteria so far have been 
strict as to who is enrolled in the INSPASS system. But how do 
we bridge that and actually move into visa issuance and know 
who we are dealing with?
    There are a number of technologies that can be used. You 
can streamline the interface between IDENT and the FBI IAFIS 
system to do criminal record checks during the application 
process for a visa. It will require some investment to do that, 
but it would enable finger images to be checked against the law 
enforcement database held by the FBI.
    Another technology--
    Senator DeWine. Excuse me. How big a deal is that as far as 
a cost? Do you have any idea?
    Mr. Norton. Well, I think the Department of Justice is 
looking into that now, and investment is fairly significant. It 
is about several hundred million dollars, I believe, to bring 
it into--
    Senator DeWine. But clearly doable.
    Mr. Norton. But it is clearly doable.
    Senator DeWine. Yes.
    Mr. Norton. The second technology that can be used, another 
very highly accurate technology, is iris recognition, but there 
is no database of iris recognition enrollees. So once you have 
identified somebody that way or start a record with iris 
recognition, it is very effective at identifying a person at a 
later stage in a one-to-many sort of search.
    The third technology that can be used and the one that we 
spoke to earlier was facial recognition. It may not be able to 
automate that process, but it can be used very effectively to 
call up a list of possibilities. If a consular official who 
acquires a digital image from an applicant for a visa checks 
against a database of images with that same image that they are 
acquiring, they should be able to ascertain whether or not that 
person may be wanted, may be known to intelligence authorities 
as a possible terrorist. So it can be used as an effective one-
to-many search as long as there is human participation in that 
determination.
    You talked about real-time access to biometric information, 
and that is precisely what we were recommending, and that is 
that we take the images that we are currently containing in 
separate databases, images of U.S. passport holders, of alien 
resident card holders, border crosser card holders, visa 
holders, and consolidate that information so that we can make 
quick, real-time checks, even at the airline counter as people 
try to board their flight to the United States. It does us no 
good to know that person is already on the flight and headed 
here, not only from a legal standpoint but from a terrorist 
threat. And by making IBIS real-time and enabling those checks 
using facial recognition, at least initially--because we have 
that data, we have that information, we can use it to automate 
the process quickly--we can make real progress.
    Senator DeWine. Well, your testimony has been very helpful, 
and I think your answer was very helpful. And I appreciate it 
very much.
    Let me ask Dr. Butterfield a question which maybe is a 
little--I don't know if it is out of line, but I know that it 
is in your area. It has to do with one of the U.S. Supreme 
Court decisions from June of this year relating to the 
detention of aliens, the Davis case.
    My understanding of that case is that in some circumstances 
the U.S. Government must release aliens who are supposed to be 
deported. Let me give the example.
    Say, for example, we have an alien who has entered the 
country with forged or false documents. That person has come 
into the U.S. and at some point we catch him and determine that 
he is deportable. But we find out that he is a citizen of a 
country that we don't have diplomatic relations with, Cuba, for 
example.
    My understanding is that the Supreme Court has said that we 
cannot hold that individual in detention for more than 6 
months.
    Now, my question is: What happens with these deportable 
aliens? Do we just let them go in the United States? Or are 
they put on some form of probation? What actually happens?
    Ms. Butterfield. Mr. DeWine, I think that you are correct 
to a certain point. The Zadvydas decision said basically that 
we can't just impose life sentences to imprisonment on someone 
merely because their home country won't take them back.
    But I think it really left open the question and said the 
Government has to weigh and balance. If the person is truly a 
danger to national security or to the community, then that is a 
legitimate Government interest that will be balanced with the 
individual's liberty interest. And so it merely mandated, I 
think, the Department of Justice to make that determination on 
an ongoing basis. And it urged them to look at, yes, could 
conditions of release be imposed that would guarantee safety 
and security and balance those needs.
    I think to date--I was just told this morning, as a matter 
of fact--that of the some 3,500 people detained in that very 
situation, only about 300 have been released. But I think the 
Court tried to strike a balance there.
    Senator DeWine. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kennedy. We thank all of you very much. We will be 
keeping in touch with you. It was very, very interesting 
testimony, and we are very grateful for it.
    The Committee stands in recess.
    [Whereupon, at 12:45 p.m., the Subcommittee was adjourned.]
    [A submission for the record follows.]

                       SUBMISSION FOR THE RECORD

Statement of Hon. Charles E. Grassley, a U.S. Senator from the State of 
                                  Iowa

    Thank you, Mr. Chairman.
    This hearing is simply one of many that our Committee will have in 
order to focus on ways to deter terrorism. Terrorists are taking 
advantage of our immigration system. They roam freely within our 
borders under the radar screen of the INS, the State Department, and 
other law enforcement agencies. There is unanimous agreement that we 
must secure our borders, and more closely monitor those we have let in.
    First, federal agencies need to better share information. The INS 
needs all relevant information at its disposal to identify and track 
down immigrants who are on the ``watch lists'' of other agencies.
    Second, we should implement the technologies needed to prevent 
illegal or criminal aliens from entering. We need to create tamper-
resistant visas and passports. We need to invest in an effective 
biometric system, and provide the scanners to read the information on 
border crossing cards. Mr. Ziglar lays out a number of technology 
initiatives in his testimony, and has instructed his staff to expedite 
database improvements. He specifically mentions the Student Exchange 
Visitor Information System.
    Unfortunately, delay in the implementation of this system has and 
may continue to have detrimental effects on our nation's security. I 
find this delay unacceptable. We want to help the colleges and 
universities, and in turn, I believe that the colleges and universities 
will want to help us in our war on terrorism.
    Last week, I wrote Attorney General John Ashcroft and requested 
immediate consideration of federal funding to speed up implementation 
of the student tracking system. I propose that the Department of 
Justice use a portion of the emergency antiterrorism funds approved by 
Congress to fund the start-up of the student tracking system. 
Additionally, the Department should clearly outline the 
responsibilities of schools who wish to retain foreign students.
    Finally, I realize that the INS does not have the enforcement tools 
to go after every foreign student whose visa expires. And, even if 
Federal agencies are sharing data and using the best technology we can 
create, the INS will still face problems in ``catching the bad guys.''
    These are situations in which we can enlist state and local 
support. By implementing Section 133 of the Illegal Immigration Reform 
and Immigrant Responsibility Act, the Department of Justice can enter 
into agreements with local law enforcement agencies in order to allow 
qualified officers to help in the investigation, apprehension, or 
detention of illegal aliens.
    The enemy could be among us and the threat certainly remains on our 
soil. Now is the time to stop talking and start acting. We've already 
identified a number of problems and concrete solutions. We need to move 
forward with the proposals that we've discussed since September 11.
    I thank the Chair and look forward to the testimony from our 
witnesses.

                                   - 

</pre></body></html>
